This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.




                         REPORT OF INVESTIGATION
 UNITED STATES SECURITIES AND EXCHANGE COMMISSION
            OFFICE OF INSPECTOR GENERAL


                                       Case No. OIG-511


                  Allegations of Enforcement Staff Misconduct in
                           Insider Trading Investigation


                                          August 22, 2011
       REDACTION KEY


LE = Law Enforcement/
     Interference with Enforcement Proceedings
     Protected by FOIA Exemption (b)(7)(A)

DP = Deliberative Process Privilege
     Protected by FOIA Exemption (b)(5)

AC = Attorney-Client Privilege
     Protected by FOIA Exemption (b)(5)

WP = Attorney Work-Product Privilege
     Protected by FOIA Exemption (b)(5)

PII = Personal Identifying Information
      Protected by FOIA Exemptions (b)(6) & (b)(7)(C)

      Redactions that appear with pseudonyms (e.g., Attorney 1
      and Witness 1) are protected by FOIA Exemptions (b)(6) &
      (b)(7)(C).
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
before disclosure to third parties. No redaction has been performed by the Office of Inspector
General. Recipients of this report should not disseminate or copy it without the Inspector General's
approval.

                                       REPORT OF INVESTIGATION

                                                   Case No. OIG-511

     Allegations of Enforcement Staff Misconduct in Insider Trading Investigation

                                                   Table of Contents

Introduction & Summary of Allegations ............................................................................. 1
The Civil Litigation .....................................................................:....................................... 3
Executive Summary of Investigative Findings ................................................................... 5
Scope offue OIG's Investigation ........................................................................................ 9
Applicable Policy and Regulations .......................................................................•........... 10
Results of the Investigation ............................................................................................... 15
     I.   BACKGROUND FINDINGS ..................•....•.........•.........................................•....•..•....          15
          A. Initiation offue Investigation Into Mr. Cuban's Sale of his Mamma.com
             Stock Shares .................................................................................................... 15
          B. The HO-09900 Investigation into Mamma.com ............................................. 16
          C. Early Investigative Work into Mr. Cuban's Sale of Mamma. com Stock ....... 19
          D. A Fort Worth Regional Office Trial Attorney Began an Inappropriate
             E-Mail Exchange wifu Mr. Cuban from his SEC Computer in March 2007 .. 23
                1. The March 2007 E-Mails .......................................................................... 23
                2. The FWRO Attorney Sent More E-Mails to Mr. Cuban in May 2007,
                   Copied to Former Chairman Cox, and fuen Forwarded Them to
                   Associate Director Friestad ....................................................................... 24
                3. Actions Taken After fue Chairman was Copied on, and Associate
                   Director Friestad was Forwarded, fue May 2007 E-Mails ........................ 26
                4. Former Chairman Cox Recused Himself from fue Commission Meeting
                   to Decide Whether to Authorize Suit Against Mr. Cuban ........................ 30
                5. The FWRO Trial Attorney Was Disciplined for Sending Inappropriate
                   E-Mails to Mr. Cuban from his SEC Computer ....................................... 31
          E. The'Wells Call and Process ............................................................................ 32
                1. The Wells Notice to Mr. Cuban's Counsel ............................................... 33
                2. Mr. Cuban's Counsel's Request for Evidence .......................................... 34
                3. The First Wells Submission ...................................................................... 37
          F. Trial      Couns~l      Gets Appointed to Case............................................................ 38
          G. The Pre-Wells Meeting ................................................................................... 39


                                                                 1
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
before disclosure to third parties. No redaction has been performed by the Office of Inspector
General. Recipients of this report should not disseminate or copy it without the Inspector General's
approval.

        H. The Wells Meeting .......................................................................................... 41
              1. The Enforcement Staff Showed Mr. Cuban's Counsel the Relevant
                 Telephone Records .................................................................... ~ ............... 42
                    Attorney 2
              2.                     Comment About Mr. Cuban Taking Irrational and Silly
                    Risks .......................................................................................................... 44
              3. Thomsen's Alleged Dismissive Response to Mr. Cuban's Counsel's
                 Argument .................................................................................................. 47
        I. Additional Investigative Work Conducted after the July 2007 Wells
           Meeting ........................................................................... ~ ............................... 49
              1. Enforcement Staff Conducted Interviews of Mamma. com Board
                 Members ................................................................................................... 49
              2. Enforcement's Second Investigative Testimony of Guy Faure ................ 50
              3. Enforcement's Investigative Testimony of Witness 1                              Witness 1
                                                                                                             ........................ 51
        J. Dewey & LeBoeuf Engaged to Represent Mr. Cuban .................................... 53
              1. Dewey & LeBoeufs Request for Additional Time to Submit Second
                 Wells Submission & Settlement Discussions ........................................... 53
              2. Dewey & LeBoeuf Conducted their Own Investigation ........................... 54
              3. Dewey & LeBoeuf Filed Second Wells Submission on Behalf of Mr.
                 Cuban ........................................................................................................ 55
         K. December 31, 2007 Action Memorandum Submitted to the Commission ..... 56
         L. The Commission Authorized Suit Against Mr.. Cuban on November 13,
            2008 ................................................................................................................. 57
    II. INVESTIGATNE FINnINGs ...................................................................................... 58
         A. The OIG Did Not Find Sufficient Evidence to Substantiate the Claim that
            the SEC Enforcement Investigation of Mr. Cuban Was Not Substantially
            Completed Before the Wells Notice ............................................................... 58
              1. Critical Testimonies Were Taken and Evidence Obtained ....................... 59
              2. Enforcement May, and Does on Occasion, Conduct Additional
                 Investigative Testimony and Work after the Wells Notice ....................... 60
        B. The OIG Did Not Find Sufficient Evidence to Substantiate the Claim that
           the Earlier Enforcement Investigation was Closed as a Quid Pro Quo in the
           Investigation Related to Mr. Cuban ................................................................ 62
              1. The Evidence Showed that There Was an Intent to Close the Earlier
                 Investigation of Mamma. com Before the Investigation of Mr. Cuban
                 was Opened ............................ ~ .................................................................. 63
              2. There is Insufficient Evidence of Improper Coordination Between the
                 Different Investigative Teams.................................................................. ~ 65

                                                                 ii
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction
before disclosure to third parties. No redaction has been performed by the Office of Inspector
General. Recipients of this report should not disseminate or copy it without the Inspector General's
approval.

                 3. There is Insufficient Evidence that the Enforcement Staff Investigating
                    Mr. Cuban Had Any Involvement in Closing the Earlier Investigation
                    into Mamma.com ....................................................................................... 68
           C. The OIG Did Not Find Sufficient Evidence to Substantiate the Allegation
              that the Investigation was Motivated by Politics or Other Improper Motives,
              Nor was the Allegation that Mr. Cuban was Targeted Because he Was High-
              Profile Substantiated ....................................................................................... 70
                 1. There was Insufficient Evidence to Show that the Enforcement
                    Investigation was Motivated by Politics ................................................... 70
                 2. There is Insufficient Evidence to Show that the Enforcement Staff
                    Targeted Mr. Cuban Because he vias High-Profile.................................. 72
                3. There is No Evidence that .the FWRO Trial Attorney Who E-Mailed Mr.
                   Cuban Had Any Involvement in the Investigation into Mr. Cuban's
                   Trading or that the E-Mail Exchanges Played a Role in the Investigation
                   of Mr. Cuban ............................................................................................. 73
                 4. Associate Director Friestad Failed to Promptly Inform Agency Officials
                      of the Inappropriate E-Mail Exchanges .................................................... 75
           D. The Allegation that the Enforcement Staffhad a Preconceived Bias of Mr.
              Cuban's Guilt was Not Substantiated ............................................................. 77
                 1. Enforcement Staff Were Unaware of Mr. Cuban's Political Views ......... 77
                      Attorney 2
                2.              and Thomsen made Comments Alleged to be Inappropriate
                      at the Wells Meeting ................................................................................. 78
                                   Attorney 2
                            a.                       Comment about Mr. Cuban ...................................... 78
                            b.     Fonner Director of Enforcement's Comment .............................. 80
                3. Sending Photographs of Mr. Cuban to Senior Officials Who Were
                   Not Familiar with Mr. Cuban Did Not Per Se Evidence a Bias Against
                   Him ........................................................................................................... 81
           E. The OIG Did Not Find Sufficient Evidence to Support the Allegation that
              the Enforcement Staff"Tamped Down" a Witness ........................................ 82
           F. The OIG Did Not Find Sufficient Evidence to Substantiate the Allegation
              that the Enforcement Staff Engaged in Misconduct When Questioning
              Witness 1
                        ............................................................................................................... 89
           G. The OIG Did Not Find Sufficient Evidence to Substantiate the Allegation
              that the Enforcement StaffMischaracterized Evidence as
              "Contemporaneous" ........................................................................................ 90
           H. The OIG Did Not Find Sufficient Evidence to Substantiate the Allegations
              of Misconduct by the Enforcement Staff in Unrelated Cases ......................... 93
Conclusion ........................................................................................................................ 95


                                                                  111
 This .document Is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
 this report should not disseminate or copy it without the Inspector General's approval.


                        REPORT OF INVESTIGATION

     UNITED STATES SECURITIES AND EXCHANGE COMMISSION
                OFFICE OF INSPECTOR GENERAL

                                           Case No. OIG-51t

                    Allegations of Enforcement Staff Misconduct in
                             Insider Trading Investigation

                              Introduction & Summary of Allegations

           On January 30, 2009, complainant Mark Cuban, through his counsel at the law
 firm Dewey & LeBoeuf, filed a complaint with the Securities and Exchange Commission
  ("SEC" or "Commission") Office of Inspector General ("OIG"), outlining various
  allegations of misconduct by the SEC Division of Enforcement ("Enforcement") staff.
  Exhibit 1. Mr. Cuban, a well-known entrepreneur and owner of the Dallas Mavericks
  basketball team, alleged Enforcement staff engaged in misconduct in the course of its
  investigation of Mr. Cuban for insider trading in connection with the sale of all of his
  Mamma.com stock before the company publicly announced a private investment in
  public equity ("PIPE") transaction in June 2004. Id. at 1. Generally, Mr. Cuban alleged
  that: (1) the Enforcement staff violated SEC policy when they notified Mr. Cuban that
  they intended to recommend insider trading charges against him before the investigation
  was substantially complete; (2) Enforcement staff showed a bias and predetennined
  agenda against Mr. Cuban and the investigation appeared to have been motivated by
  political bias because an SEC Fort Worth Regional Office ('~FWRO") Enforcement
  attorney sent Mr. Cuban a series of politically charged e-mails, which he later copied to
. former Chairman Cox, just before Mr. Cuban received his Wells notice; (3) Eriforcement
  staff ''used the closure of [an earlier] investigation to attempt to induce Mamma. com's
  executives to cooperate with the staff and perhaps even to depart from the testimony they
  previously had provided" to Mr. Cuban's counsel during their own investigation of the
  matter; and (4) a senior Enforcement official failed to properly report the misconduct of
  the FWRO Enforcement attorney who was e-mailing Mr. Cuban from his SEC e-mail
  account during the ongoing investigation into Mr. Cuban's trading. lId.


 I   The January 2009 letter of complaint summarized the allegations:

                    ... the staff seemed to have rushed to judgment and reached its
                    decision to recommend charges against Mr. Cuban based on an
                    incomplete record; the staff initiated the Wells process long before the
                    staff's investigation was completed; the staff took the interviews·ofkey
                    witnesses after the staff's mind was already made up about Mr. Cuban,
                    thereby apparently shaping the interview process; the staff was resistant
                    to Mr. Cuban exercising his right to conduct his own investigation of
                    the matter and to prepare a defense to the staff's ill-founded allegations;
                    the lead SEC trial lawyer in the litigation against Mr. Cuban made a
This document Is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this, report should not disseminate or copy it without the Inspector General's approval.

            At the time of the investigation into Mr. Cuban's sale of all of his Mamma.com
shares of stock, Attorney
                      1
                              1Attorney 1
                                           ("Attorney 1 was the lead staff attorney in the investigation.
Attorney 1
           reported to then Branch Chief Attorney           Witness 33 Attorney 3
                                                                                    ("Attorney 3   who reported to
                                   Assistant Director
                                                 Assistant
                                                      1          Assistant
then Assistant Director                          Director 1   (" Director 1       The Associate Director over Assistant
                                                                                                                  Director 1
Attorney 3         Attorney 1
              and              was Scott Friestad ("Friestad"). Attorney 2 Attorney 2               (" Attorney 2
was, and continues to be, the trial attorney for the ongoing litigation from the complaint
filed against Mr. Cuban arising from this investigation. At the time of the investigation,
Christopher Cox was Chairman of the SEC.

             On October 27,2009, Mr. Cuban's counsel submitted another letter, and expert
report, following the OIG taking Mr. Cuban's and Mr. Cuban's attorneys' testimony.
Exhibit 2. That letter and the expert report focused on the allegation that, in the
investigation of Mr. Cuban, Attorney 1 told Mr. Cuban's counsel that the Enforcement staff
had "contemporaneous supporting documentation" of the relevant telephone call between
Mr. Cuban and Guy Faure ("Faure"), then President and Chief Executive Officer
("CEO") of Mamma. com. Id. at 1. The expert report discussed the admissibility of that
evidence, which weree-mailssentfromMamma.com.s Chairman, Witness 2 Witness 2
(" Witness 2       to Mamma.com board members about a.telephone call between Faure and
Mr. Cuban the same day and the next day, which the SEC alleged showed Mr. Cuban
agreed to keep the information he learned from Faure about the upcoming Mamma.com
PIPE transaction confidential. Id. The expert report concluded that the Enforcement
staff's representation of that evidence as contemporaneous "painted an extremely false
picture of the evidence that the SEC had" which could have affected how Mr. Cuban's
counsel responded to the SEC. Id. at 1&2.

         In addition, Mr. Cuban alleged that Attorney 1 characterization of Mr. Cuban's call
with Witness 1 Witness 1 (" Witness 1 the placement agent for the PIPE transaction for
Mamma.com, was misleading because she "attempted to create the impression that Mr.
Cuban's call with him involved a continuing acceptance by Mr. Cuban of confidential
infonnation that compounded the alleged impropriety of his subsequent trades." Id. at 2
(emphasis in original). Mr. Cuban further alleged that he learned from Witness 1 that he
"never once told Mr. Cuban that the infonnation he gave him about the PIPE transaction
was confidential" and that the SEC must have learned the same from Witness 1 in their
interview of him in December 2006. Id. at 2 & 3. He claimed that this information
clearly tended to exonerate Mr. Cuban and that Attorney 1 "intentionally omitted to mention



                     disparaging and unfounded remark about Mr. Cuban in a meeting with
                     Mr. Cuban's counsel; a different member of the enforcement staff
                     delivered a vicious personal attack upon Mr. Cuban bye-mail; a staff
                     member, upon being informed of staff attorney misconduct, apparently
                     took no immediate steps to refer the matter to the appropriate body for
                     a full investigation and any necessary disciplinary action against the
                     staff attorn~y in question; and, finally, key allegations in the SEC's
                     complaint against Mr. Cuban are in direct conflict with the prior
                     testimony of key witnesses.

Exhibit 1 at 9&10.


                                                              2
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

                                                                                              Witness 1
any of this critical exculpatory information we would only learn from Mr.                                 many
months later." Id. at3 (emphasis in original).

        The SEC OIG began its investigation of the above-outlined allegations of staff
misconduct after receiving the January 30, 2009 letter of complaint from Mr. Cuban's
counsel at Dewey & leBoeuf, who began representing Mr. Cuban in this matter in early
August 2007, along with attorneys from the law finn Fish & Richard~on who had
represented Mr. Cuban from January 2007. As discussed below, however, the
investigation was suspended for more than a year because Mr. Cuban had pending before
the federal district court a motion for attorney's fees and expenses in which Mr. Cuban
made many of the same allegations of SEC staff misconduct. After the district court
denied without prejudice Mr. Cuban's motion for attorney's fees on September 21,2010,
the OIG resumed its investigation into Mr. Cuban's allegations of SEC staff misconduct.

         On June 2,2011, Mr. Cuban's couns~l filed another letter of complaint against
Attorney 1
        concerning an allegation described as Attorney 1 "tamp down" of a witness. Exhibit
3. That allegation had been previously alluded to by Mr. Cuban in the January 30,2009
letter of complaint, wherein he alleged that Mr. Cuban's counsel's investigation was
complicated by the fact that many of the witnesses expressed concern that cooperating'
with Mr. Cuban's counsel would cause them problems with the SEC. Exhibit 1 at 4.
During the course of the ongoing litigation of this matter, discussed below, Mr. Cuban
alleged that "at least one entity indicated that it had received a call from a member of the
SEC's enforcement team expressly discouraging it from making a witness available -- in
the words of one person, 'tamped down' by the SEC staff." Exhibit 3 at 2 & 3. In the
June 2011 letter, Mr. Cuban claimed that Attorney 1 violated State bar rules when "she
purportedly requested that a witness not be made freely available to defense counsel."
Exhibit 3 at 1. The OIG investigated all of these claims, as well as other related claims of
                                                         2
staff misconduct made in the ongoing civillitigation.

                                          The Civil Litigation

       The SEC's investigation into Mr. Cuban's sale of all of his Mamma.com shares in
June 2004 led to the November 17, 2008 filing of a civil complaint against Mr. Cuban in
the United States District Court for the Northern District of Texas. 3 Exhibit 4. In that
complaint, the SEC alleged that Mr. Cuban committed securities fraud by engaging in

2 Those additional claims include that a senior Enforcement official sending photographs of Mr. Cuban to
other senior Enforcement officials evidenced a bias against Mr. Cuban and the "tamp down" allegation
which was outlined more explicitly in the court pleadings at the time we took the testimonies in this
investigation.'                                                                                  .

3 On May 28,2009, Mr. Cuban filed a complaint in the United States District Court for the District of
Columbia against the SEC under the Freedom of Information Act, 5 U.S.C. § 552, and the Privacy Act, 5
U.S.C. § 552a, seeking the immediate production of the records denied to him and maintaining that the
SEC's search efforts were inadequate and its reliance on exemptions to withhold documents was improper.
Mark Cuban v. Securities and Exchange Commission, Civil Action No. 09-0996. On September 22, 2010,
the district court granted Mr. Cuban summary judgment, in part, and found that the SEC's search for
responsive documents was inadequate in certain respects. Id. On July 1,2011, the district court granted in
part and denied in part the SEC's motion for reconsideration of the September 20 I 0 order. Id.


                                                       3
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy It without the Inspector General's approval.

insider trading when he sold his entire stake of 600,000 shares of stock in Mamma.com
prior to the public announcement of a PIPE offering in June 2004, despite agreeing to
keep material, non-public infonnation about that impending stock offering confidential.
ld. at 1. The Commission further alleged that by selling his stake, Mr. Cuban avoided
losses in excess of$750,000. ld. The Commission alleged Mr. Cuban violated sections
17(a) of the Securities Act of 1933 and 1O(b) of the Securities Exchange Act of 1934. ld.

         On August 13, 2009, the district court granted Mr. Cuban's motion to dismiss the
                                                                                                                 ...
                                                                                                                 .




SEC's complaint with prejudice under Federal Rule of Civil Procedure 12(b)(6). The
district court held that Mr. Cuban did not have a duty to refrain from trading on
infonnation about the impending PIPE offering and, therefore, could not be held liable
under the misappropriation theory of insider trading.

        On August 28,2009, Mr. Cuban filed a motion for attorney's fees and expenses.
2009 U.S. Dist. LEXIS 113191. In the memorandum in support of the motion for
attorney's fees, Mr. Cuban argued that the SEC should be sanctioned because it acted in
bad faith in bringing suit against Mr. Cuban, for many of the same reasons outlined in the
above-referenced letters to the SEC OIG. ld. Those reasons included: initiating the
Wells process without having evidence of a confidentiality agreement between Mr.
Cuban and Mamma.com; improperly attempting to prevent the Commission from
receiving their second Wells submission; closing an earlier investigation into
Mamma.com days before seeking new testimony from key witnesses; and taking the
testimony of Mamma.com's CEO for the second time in an attempt to get him to change
his earlier testimony. ld.

        On October 7,2009, the SEC appealed the district court's decision to grant Mr.
CUban;s motion to dismiss. 2010 U.S. 5th Cir. Briefs LEXIS 72. On September 21,
2010, the U.S. Court of Appeals for the Fifth Circuit vacated the district court's decision
to grant Mr. Cuban's motion to dismiss and remanded for further proceedings including
discovery, consideration of summary judgment and, if necessary, trial. 2010 U.S. App.
LEXIS 19563. On that same day, the district court denied, without prejudice, Mr.
Cuban's motion for attorney's fees and expenses writing, in part, "This will ... eliminate
the need to resolve difficult discovery issues that may arise due to the pendency of
parallel litigation involving plaintiffs suit on the merits and defendant's attorney's fees
motion." Exhibit 5. As a result, the district court did not rule on any of the allegations of
misconduct reviewed in this report. On July 18, 2011, the district court issued a decision
finding that Mr. Cuban failed to adequately plead prejudice related to his claims of
misconduct, and that therefore it need not address wheilier he adequately pleaded that the
Enforcement staffhad engaged in egregious misconduct. 4 2011 WL 2858299 (N.D.
Tex.). The litigation in this matter is ongoing.



4 In that July 18, 2011 Memorandum Opinion and Order the Court concluded, "The court holds that Cuban
has failed to allege facts that give the SEC fair notice that the misconduct on which he relies resulted in
prejudice to his defense of the enforcement action that rises to a constitutional level and is established
through a direct nexus between the misconduct and the constitutional injury. This is fatal to his unclean
hands defense." 2011 WL 2858299 (N.D. Tex.) at 23.


                                                      4
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.



                         Executive Summary of Investigative Findings

        The SEC OIG conducted a thorough and comprehensive investigation into Mr.
Cuban's claims. The OIG investigation was protracted, however, because it Was
suspended for more than a year when Mr. Cuban had pending in the district court a
motion for attorney's fees and expenses involving many of the same allegations of SEC
staff misconduct, as discussed above. After the district court denied without prejudice
Mr. Cuban's motion for attorney's fees, the OIG resumed its investigation into Mr.
Cuban's allegations of SEC Enforcement staff misconduct.

        In all, the OIG concluded that there was insufficient evidence to substantiate Mr.
Cuban's claims that the SEC Enforcement staff engaged in misconduct in conducting
their investigation into Mr. Cuban's sale of his Mamma.com stock shares. Specifically,
the OIG investigation found that there was insufficient evidence to substantiate the claim
that Enforcement improperly provided Mr. Cuban's counsel with a "Wells notice" before
the investigation was substantially complete. The OIG found that Enforcement had
conducted significant investigative work before the Wells notice was provided on May
23, 2007. SEC Enforcement staff had 1) conducted interviews of Witness 1 Witness 1 Mark
Cuban, Guy Faure, and Witness 2 Witness 2 2) obtained proffers from the other Mamma.com
board members, as well as 3) taken investigative testimony of Guy Faure and Mark
Cuban, the two participants to the relevant telephone call. SEC Enforcement staff had
also obtained important documents including Mr. Cuban's trading and telephone records,
the timing of the announcement of the PIPE deal with Mr. Cuban's trades, and the so-
called "contemporaneous" e-mails from Witness 2     about the Faure/Cuban telephone call
that same day and the following day. While the OIG did find that some additional
investigative work was conducted by Enforcement staff after the Wells notice and
submissions, the OIG found that conducting additional investigative work, and even
testimony, after the Wells notice is provided, is not per se prohibited by the Enforcement
Manual or internal guidance and sometimes occurs in Enforcement cases.

        The OIG investigation also did not find sufficient evidence to substantiate Mr.
Cuban's claim that an earlier Enforcement investigation into Mamma.com was closed as
a quid pro quo for the investigation relating to Mr. Cuban. Mr. Cuban alleged that a mere
four days after his counsel sent a September 21, 2007 letter to Associate Director Friestad
and "just around the time the staff was seeking testimony from the very same
Mamma.com executives in its investigation of Mr. Cuban, the Commission abruptly
closed its investigation of Mamma.com, which at that time had been ongoing for over
three years." Mr. Cuban further alleged "that the staff would suddenly choose to close a
long-standing investigation of Mamma. com only a few days after receiving a Wells
submission, and just when the staff was seeking testimony from the company's senior
executives, gives rise to the reasonable suspicion that the staff, bent on obtaining
testimony unfavorable to Mr. Cuban, used the closure of the investigation to attempt to
induce Mamma.com's executives to cooperate-with the staff and perhaps even to depart
from the testimony they previously had provided to us." However, the OIG found
evidence that the Enforcement staff intended to close the earlier investigation by



                                                       5
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

September 30, 2006, several weeks before the matter under inquiry (MUI) was opened
into Mark Cuban's trading. While a letter was not sent to Mamma.com until a year later,
and at the same time that SEC Enforcement staff was conducting additional investigative
work in the matter related to Mr. Cuban, the OIG did not find any evidence that closing
the earlier investigation had any effect on the investigation into Mr. Cuban's trading or in
any way induced the Mamma.com executives to give different testimony. The only
Mamma.com executive the Enforcement staff got additional information from was Faure
in his second inyestigative testimony. Moreover, the OIG found that the two
investigations were separate and there was very little interaction between the
investigativ~ teams, except to request certain transcripts of testimony taken years earlier.


        The OIG investigation further established that a fonner FWRO trial attorney,
Jeffrey Norris ("Norris"), was e-mailing Mr. Cuban from his SEC computer in March
2007. The e-mails pertained to Mr. Cuban's apparent backing of a movie which the trial
attorney alleged posited that President Bush planned the September 11,2001 attacks "as a
pretext for going to war against Iraq." In these e-mails, Norris expressed his personal
views accusing Mr. Cuban of promoting a radical and irresponsible viewpoint by backing
this movie. Norris also e-mailedMr. Cuban that he had been an avid Mavericks
basketball team fan, but was no longer going to be rooting for the team because Mr.
Cuban, who owns the team, backed this movie. The investigation found that Norris
continued the e-mails to Mr. Cuban again in May 2007, and copied fonner Chainnan
Christopher Cox on those e-mails.

        The OIG investigation revealed that Norris was not involved in any way in the
investigation into Mr. Cuban's sale of Mamma. com shares, and there is no evidence that.
Norris had any knowledge of the ongoing investigation into Mr. Cuban's sale of his
shares when he was e-mailing Mr. Cuban. The OIG found that former Chainnan Cox did
receive the Norris/Cuban e-mail exchanges and forwarded them to the then director of the
SEC's Equal Employment Opportunity ("EEO") office. However, the investigation
revealed that the former Chairman did not know who Mr. Cuban was and was unaware
that there was an ongoing Enforcement investigation into Mr. Cuban's trading.
Nevertheless, the OIG investigation found that former Chairman Cox did recuse himself
from the meeting and the vote to authorize suit against Mr. Cuban. In all, the OIG
investigation did not reveal that Norris's e-mail exchange with Mr. Cuban had any
substantive impact on the SEC investigation of Mr. Cuban.

        In addition, the OIG determined that Associate Dir~ctor Friestad, who supervised
the investigation into Mr. Cuban's trading, was also copied on the May 2007 e-mail
exchanges between Norris and Mr. Cuban. The OIG investigation established that
immediately after receiving copies of the e-mail exchanges between Norris and Mr.
Cuban, Friestad informed Norris of the ongoing investigation related to Mr. Cuban and
instructed him to stop communicating with Mr. Cuban. There is no evidence that Norris
communicated any further with Mr. Cuban while an SEC employee. However, the OIG
found that Friestad failed to promptly report this misconduct to his superiors, the FWRO,
the Office of Human Resources ("OHR") or the OIG. Nevertheless, former Chief of
Staff and former counsel to former Chairman Cox did take action several weeks after the



                                                      6
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

former Chairman was copied on the Norris/Cuban e-mail exchanges, and Norris was then
promptly suspended for 14 days of work without pay. In 2009, Norris was removed from
federal service for continuing to engage in similar misconduct.               .

           The OIG investigation also did not find sufficient evidence to establish that the
investigation into Mr. Cuban's sale of Mamma. com shares was motivated by politics or
other improper motives or that Mr. Cuban was targeted by the Enforcement staff because
he was·a high-profile or recognized individual. The OIG investigation revealed that
Attorney 1
           opened this investigation as a result of finding instant messages while searching
for the term "jail" in the course of conducting another investigation. While Attorney 1 was
aware of who Mr. Cuban was, Attorney 3        and Assistant
                                                   Director 1 were not aware of who Mr. Cuban
was at the time the investigation was opened. The OIG investigation did not establish
that anyone on the Enforcement staff was motivated to bring a case against Mr. Cuban
because he was well-known or a high-profile individual. The OIG investigation further
revealed that the Enforcement staff only learned about the existence of the Norris/Cuban
e-mail exchanges the day before the Wells meeting, and it had no bearing on their
investigation. In addition, the OIG found that no one on the Enforcement staff discussed
Mr. Cuban's political views, even after reading the Norris/Cuban e-mail exchanges.

        Moreover, the OIG investigation also did not find sufficient evidence to
substantiate the allegation that the Enforcement staff had a preconceived notion or bias of
Mr. Cuban's guilt. The investigation did establish that during the July 19, 2007 Wells
meeting Attorney 2   the newly appointed trial attorney, made the commen4 "Mr. Cuban
takes irrational and silly risks every day," or words to that effect. This comment was
confinned by counsel for Mr. Cuban, memorialized in a memorandum prepared the next
day from notes taken during the meeting, and Attorney 2    acknowledged a comment like
that was made. The OIG further found that although the comment was made as part ofa
back-and-forth conversation in a Wells meeting about the strengths and weaknesses of
the case against Mr. Cuban, and Mr. Cuban's propensity to take risks was not altogether
irrelevant to the merits of the SEC's case (particularly when his counsel raised the
argument that Mr. Cuban would not risk everything he had and his reputation for the
amount of dollars at stake), Attorney 2  co~ld have been more temperate in his language.
The OIG also found that former Enforcement Director Linda Thomsen ("Thomsen"),
who attended the Wells meeting in this matter, made the comment, "That's just noise," or
words to that effect, in response to Mr. Cuban's counsel's arguments about Faure's
credibility. While perhaps Thomsen could have chosen a different word to describe her
view that certain arguments were irrelevant or extraneous to $e merits of the case against
Mr. Cuban, the OIG did not find use of the word "noise" in this context to be improper.
Overall, the OIG investigation concluded that these comments, standing alone, do not
establish a preconceived bias against Mr. Cuban, particularly since they were made in the
moment of responding to Mr. Cuban's counsel's arguments. We also note that Attorney 2
was appointed to the case only just before the Wells meeting and well afte! the Wells
notice was provided; and, Thomsen's comment was not inappropriate in and of itself.

       The OIG also found that Friestad sent photographs of Mr. Cuban (one or two of
which could be considered unflattering) which he obtained from the Internet to Thomsen



                                                       7
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or-copy it without the Inspector General's approval.

and another senior Enforcement official without commentary. The OIG found that
Friestad sent these photographs of Mr. Cuban because Thomsen and the other senior
official were unaware of who Mr. Cuban was, and to explain why the request for a formal
order should be presented in executive session. We did not find evidence to establish that
sending these photographs without commentary demonstrated evidence of a bias against
Mr. Cuban that could have tainted the investigation.

           Furthermore, the OIG investigation did not find sufficient evidence to establish
that Attorney 1 or anyone on the Enforcement staff had engaged in a "tamp down" of a
witness, specifically Witness 1 or engaged in an effort to keep witnesses from Mr. Cuban's
counsel. First, Witness 1 did provide Mr. Cuban's counsel with a declaration during their
own investigation and before the SEC took Witness 1 testimony. Second, according to
Attorney 1
           and substantiated by Assistant
                                 Director 1
                                            Attorney 1
                                                       merely stated that Witness 1 counsel,
Christopher Aguilar ("Aguilar") did not have to make Witness 1 available for an interview
with Mr. Cuban's counsel and Attorney 1 noted that the "only preference I expressed was
wanting the SEC to go first with the testimony." Third, even according to Aguilar's
declaration obtained by Mr. Cuban's counsel, Attorney 1 merely "stated that she would prefer
that I did not produce Witness 1 to Mr. Cuban's counsel for an interview but that I could do
what I wanted." Moreover, we do not find that Attorney 1 articulating her preference as to
the timing of presenting employees to defense counsel would violate standards of conduct
or State bar rules.

        The OIG also did not find sufficient evidence to show that SEC Enforcement staff
engaged in misconduct when questioning Witness 1 in testimony in October 2007. Upon
careful review of the transcript of Witness 1 October 17,2007 testimony, the OIG did not
find evidence that Attorney 1 avoided asking Witness 1 about certain critical facts or that she
attempted to manufacture extraneous or potentially misleading testimony from Witness 1

        In addition, the OIG found that there was insufficient evidence to support the
allegation that members of the Enforcement staff investigating Mr. Cuban had engaged in
misconduct in other cases. The OIG carefully analyzed these other cases and did not find
instances in which SEC Enforcement attorneys who worked on Mr. Cuban's matter
engaged in any improper actions in other matters that would taint their work in Mr.
Cuban's case.

         While the OIG did not find sufficient eviqence to substantiate the allegations of
misconduct, we are referring this matter to management, for counseling for Friestad for
his failing to promptly report Norris's misconduct and for Attorney 2  for his comment
about Mr. Cuban taking irrational and silly risks every day in the July 19,2007 Wells
meeting.




                                                       8
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.




                                          Scope of the OIG's Investigation

       In conducting this investigation into Mr. Cuban's allegations, the OIG took the
following sworn, on-the-record testimony of:

         (1)      Paul Coggins, Esq., Principal at Fish & Richardson PC, taken on October
                  19,2009. Transcript of Testimony of Paul Coggins (hereinafter "Coggins
                  Tr."), attached hereto as Exhibit 6.

         (2)      Kiprian Mendrygal, Esq., Associate at Fish & Richardson PC, taken on
                  October 19, 2009. Transcript of Testimony ofKiprian Mendrygal
                  (hereinafter "Mendrygal Tr."), attached hereto as Exhibit 7.

         (3)      Mark Cuban, entrepreneur and owner of the Dallas Mavericks, taken on
                  October 19, 2009. Transcript of Testimony of Mark Cuban (hereinafter
                  "Cuban Tr."), attached hereto as Exhibit 8.

         In addition, the OIG conducted the following sworn, on-the-record testimony of
current SEC employees:

         (4)      Scott Friestad, Associate Director, SEC Division of Enforcement, taken on
                  March 24, 2011. Transcript of Testimony of Scott Friestad (hereinafter
                  "Friestad Tr."), attached hereto as Exhibit 9.
                  Attorney 1Attorney 1
         (5)      1                  fonner staff attorney, SEC Division of Enforcement, taken on
                  April 7, 2011. Transcript of Testimony of Attorney1
                                                                       1Attorney 1
                                                                                   (hereinafter
                    Attorney 1
                  "            Tr. "), attached hereto as Exhibit 1O.
                  Assistant Director
                                Assistant
                                     1
         (6)                         fonner Assistant Director, SEC Division of Enforcement,
                                Director 1

                  taken on April 7, 2011. Transcript of Testimony of Assistant Director
                                                                                   Assistant
                                                                                        1
                                                                                   Director 1

                  (hereinafter "Assistant
                                Director 1 Tr."), attached hereto as Exhibit 11.
                  Attorney 2 Attorney 2
         (7)                          Trial Attorney, SEC Division of Enforcement, taken on
                  April 12, 2011. Transcript of Testimony of Attorney 2 Attorney 2 (hereinafter
                    Attorney 2
                  "            Tr."), attached hereto as Exhibit 12.
                  Attorney 4 Attorney 4
         (8)                     staff attorney, SEC Division of Enforcement, taken on April
                  15,2011. Transcript of Testimony of Attorney
                                                         4
                                                               4 Attorney 4
                                                                            (hereinafter "Attorney 4
                  Tr."), attached hereto as Exhibit 13.

         (9)      Peter Uhlmann, fonner Chief of Staff to fonner SEC Chainnan
                  Christopher Cox, taken on May 5, 2011. Transcript of Testimony of Peter
                  Uhlmann (hereinafter "Uhlmann Tr."), attached hereto as Exhibit 14.




                                                         9
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy It without the Inspector General's approval.

       The following fonner SEC employees voluntarily provided the OIG with sworn,
on-the-record testimony:
                   Counsel        Counsel
         (10)                         fonner Counsel to former SEC Chainnan Christopher
                   Cox, conducted by telephone on April 28, 2011. Transcript.ofTestimony
                   of Counsel Counsel
                                        (hereinafter "Counsel Tr. "), attached hereto as Exhibit
                   15.

         (11)      Louis Mejia, former Chief Litigation Counsel, SEC Division of
                   Enforcement, taken on May 17, 2011. Transcript of Testimony of Louis
                   Mejia (hereinafter "Mejia Tr."), attached hereto as Exhibit 16.

       The following fonner SEC employee voluntarily provided the OIG with an in-
person interview:
                   Witness 33
                   Attorney     Attorney 3
         (12)                               former Branch Chief, SEC Division of Enforcement, in-
                   person interview conducted on May 13,2011. Memorandum of Interview
                   of Attorney
                      Witness 33 Attorney 3
                                               cited and attached hereto as Exhibit 17.

        The OIG also unsuccessfully attempted to interview, or obtain written answers to
questions from, Aguilar, fonner in-house counsel to Witness 1 the private placement agent
for the Mamma.com PIPE offering. In early June 2011, the OIG sent Aguilar's counsel
written questions for Aguilar about an allegation that Enforcement staff engaged in a
"tamp-down" of Witness 1 which was outlined in a sworn declaration of his which Mr.
Cuban's counsel filed in the ongoing district court litigation. Despite several follow-up
attempts with Aguilar's counsel, the OIG never received any responses from Aguilar to
its questions and Aguilar did not agree to an interview.

           The OIG obtained e-mails for the following SEC employees for the period
October 2006 through June 2009: (1) Scott Friestad; (2) Assistant Director              Assistant
                                                                                             1
                                                                                        Director 1   (3) Attorney 2
Attorney 2        Witness 33 Attorney 3
                  Attorney                  Attorney 1Attorney 1      Attorney 5     Attorney 5          Attorney 6
              (4)                       (5) 1                    (6)                              and (7)
Attorney 6
             The OIG also obtained e-mails for Attorney    4
                                                                 4 Attorney 4
                                                                                for the periods April through
September 2005; January 2004 through December 2006; and January through December
2007. In all, the OIG received and reviewed more than 400,000 e-mails. The OIG also
reviewed copies of pleadings filed to date in the ongoing SEC v. Mark Cuban litigation.
In addition, several of the SEC employees who provided sworn testimony also provided
additional documents and e-mails.

                                       Applicable Policy and Regulations

The Wells Notice:

         The so-called Wells submission process represents a critical phase in SEC
irivestigations, and originated from recommendations made by an advisory committee
chaired by John Wells. The objective of the Wells process was outlined in the Securities
Act of 1933, Release No. 5310, Procedures Relating to the Commencement of



                                                        10
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General . Recipients of
this report should not disseminate or copy it without th e Inspector General's approval.


Enforcement Proceedings and Tennination of Staff Investigations (September 27,1972)
("Wells Release"). The Wells Release stated that when Enforcement staff decide to seek
authority from the Commission to bring a public administrative proceeding or civil
injunctive action against an individual or entity, Enforcement staff may advise
prospective defendants of the proposed charges against them and provide them the
opportunity to file a written statement "setting forth their interests and position" in
accordance with Rule S(c) of the Commission's Rules on Informal and Other Procedures.
17 C.F.R. § 202.S(c)s This advisement by Enforcement staff of proposed charges against
prospective defendants, made by a telephone call and/or letter, is called the "Wells
notice." Prospective defendants use these responding statements -- known by the SEC
and the securities bar as "Wells submissions" -- as an opportunity to set forth the reasons
why the staff should not pursue such action before the Commission brings forinal
charges.

         According to the SEC Division of Enforcement, Enforcement Manual (October 8,
2008) ("Enforcement Manual"),6 the objective ofthe Wells notice is, as the Commission
stated in the Wells Release, " .. . not only to be infonned of the fmdings made by its staff
but al so, where practicable and appropriate, to have before it the position of persons
under investigation at the time it is asked to consider enforcement action." Enforcement
Manual at Section 2.4; see also Wells Release. The Wells notice should tell a person
involved in an investigation: 1) that the Division is considering recommending or intends
to recommend that the Commission file an action or proceeding against them; 2) the
potential violations at the heart of the recommendation; and 3) that the person may
submit arguments or evidence to the Division and the Commission regarding the
recommendation and evidence. Enforcement Manual at Section 2.4.

       According to the Enforcement Manual, to detennine whether or when to provide a
Wells notice the staff should consider whether: (I) the investigation is substantially
complete as to the recipient of the Well s notice; and (2) immediate enforcement action is
necessary for the protection of investors. The Manual does not provide further guidance
on the meaning of "substantially complete." !d. The Manual states that a Wells notice
should be in writing when possible, and that a Wells notice given orally should be
followed promptly by a written confinnation. ld. The substance of a Wells call should
provide the same infonnation outlined above, but the staff also may refer to specific


l   According to Mr. Cuban's complaint, 17 C.F.R. § 202.5 provides that "an individual subject to an SEC
investi gation may submit Qt Qny tim e a written statement to the Commission setting forth [his] interes ts and
position in regard to the subject matter of the investi gation." (emphasis added). The OIG, however, could
not locate thi s language in 17 C.F.R. § 202. 5. Moreover, as outlined below, the Enforcement Manual
provid es for instances o f staff discretion to reject a We lls submission as untimely.

6 The Enforcement Manual states that it is des igned to be a re ference for the Enforcement staff in the
inves tigation of potential violati ons of the federal securities laws. Enforcement Manual at Sec tion 1. 1. The
Manual contains various gene ral policies and procedures and is intended to provide guidance only to the
staff of the Di vision. Id. However, the Manual is not intended to, does not, and may not be relied upon to
create any ri ghts, substanti ve or procedural, enforceable at law by any party in any matter civil or c riminal.
[d.




                                                       II
This document Is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

evidence regarding the facts and circumstances which form the basis for the staff s
recommendations. ld.                                                        ;




The Post-Notice Wells Process:

        According to the Enforcement Manual, recipients of Wells notices occasionally
request to review portions of the staff s investigative file. ld. On a case-by-case basis,
the Manual states, it is within the staff s discretion to allow the recipient of the notice to
review portions of the investigative file that are not privileged. ld. In considering a
request for access to portions of the staff's investigative file, the staff should keep in
mind, among other things, whether access to portions of the file would be a productive
way for both the staff and the recipient of the Wells notice to assess the strength of the
evidence that forms the basis for the staff s recommendations; and the stage of the
investigation with regard to other persons or witnesses, including whether certain
witnesses have yet to provide testimony. ld.

        There are circumstances in which the staff may reject a Wells submission,
according to the Enforcement Manual. ld. For example, if the Wells submission exceeds
the limitations on length specified in the Wells notice, the staff may reject the
submission. ld. In addition, the staff may determine not to grant a recipient's request for
an extension of time. ld.

        Moreover, the Enforcement Manual states that recipients of Wells notices may
request meetings with the staff to discuss the substance of the staff s proposed
recommendation to the Commission. ld. The Manual further states that a Wells recipient
generally will not be accorded more than one post-Wells notice meeting. ld. According
to the Wells Release, "In the event that a recommendation for enforcement action is
presented to' the Commission by the staff, any submissions by interested persons will be
forwarded to the Commission in conjunction with the staff memorandum."

COll1l1lission's Conduct Regulation & Cannon of Ethics

        The Commission's Regulation Concerning Conduct of Members and Employees
and Fonner Members and Employees of the Commission (hereinafter "Conduct
Regulation"), at 17 C.F.R. § 200.735-1 et seq., sets forth the standards of ethical conduct
required of Commission members and current and former employees (hereinafter referred
to collectively as employees). The Conduct Regulation states in part:

                  The Securities and Exchange Commission has been
                  entrusted by Congress with the protection of the public
                  interest in a highly significant area of our national
                  economy. In view of the effect which Commission action
                  frequently has on the public, it is important that ...
                  employees.. . maintain unusually high standards of
                  honesty, integrity, impartiality and conduct.




                                                      12
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

17 C.F .R. § 200.735-2. It also requires SEC staff members to "avoid any action which
would result in or might create the appearance of ... losing complete independence or
impartiality" or "affecting adversely the confidence of the public in the integrity" of the
SEC. 17 C.F.R. §§ 200.735-3(a)(2)(iii) & (v), (2002).

       The Canon of Ethics, set forth at 17 C.F .R. § 200.50 et seq., for members of the
SEC requires Commission employees to "conduct themselves in their official and
personal relationships in a manner which commands the respect and confidence of their
fellow citizens." 17 C.F.R. § 200.53(b). The Canon of Ethics further provides,

                  The power to investigate carries with it the power to
                  defame and destroy. In determ4ring to exercise their
                  investigatory power, members should concern themselves
                  only with the facts known to them and the reasonable
                  inferences from those facts. A member should never
                  suggest, vote for, or participate in an investigation aimed at
                  a particular individual for reason of animus, prejudice or
                  vindictiveness. The requirements of the particular case
                  alone should induce the exercise of the investigatory
                  power, and no public pronouncement of the pendency of
                  such an investigation should be made in the absence of
                  reasonable evidence that the law has been violated and that
                  the public welfare demand it.

17 C.F.R. § 200.66.

         In addition, the Cannon of Ethics ~equires that,

                  Members should be temperate, attentive, patient and
                  impartial when hearing the arguments of parties or their
                  counsel. Members should not condone unprofessional
                  conduct by attorneys in their representation of parties. The
                  Commission should continuously assure that its staff
                  follows the same principles in their relationships with
                  parties and counsel.

17 C.F.R. § 200.69.

Reporting Misconduct

        SEC employees have long had a duty to report misconduct. In a 1996 Policy
Statement on Employee Cooperation in Internal Investigations issued by then SEC
Chairman Arthur Levitt, he reminded employees of" ... their duty to disclose waste,
fraud, abuse and corruption to appropriate authorities, such as to supervisors or the Office
of Inspector General." Exhibit 18. In an April 2008 message from then Chairman
Christopher Cox about whistleblower protections for employees who make protected



                                                      13
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

disclosures of wrongdoing and how to report possible misconduct, he wrote in part, "You
should also be mindful of your duty to disclose waste, fraud, abuse, and corruption to the
appropriate authorities. CommUnicating with the OIG may be an alternate, confidential
channel of communication that you may use to report wrongdoing or misconduct if yo~
fear communicating through the chain of command." http://insider.sec.gov/
whats_happening! at_the_sec/april _ 2008/whistleblower-protections.html.

        The OIG website states, in part, "The OIG welcomes information provided by
current and former employees, as well as the public, concerning fraud, waste, abuse, or
mismanagement at the Commission, and misconduct by Commission staff and
contractors." http://www.sec-oig.gov/OOIIHotline.html.

        The original October 2008 version of the Enforcement Manual at Section 5.5.5
entitled, "Informal Referrals to Professional Licensing Boards" stated, among other
things, "From time to time, staff investigations may reveal conduct that warrants referral
to professional licensing boards or similar organizations, such as a state bar association,
accountancy board, professional association or self regulatory authority that performs a
similar function." Exhibit 108. This section typically involved staff identifying potential
attorney or accountant misconduct during the course of one of its investigations.

Relevant State Bar Rule

       The District of Columbia ("DC") Bar Rules of Professional Conduct, Rule 3.4
"Fairness to Opposing Party and Counsel" states, in part,

                  A lawyer shall not:
                  (a) Obstruct another party's access to evidence or alter,
                  destroy, or conceal evidence, or counselor assist another
                  person to do so, if the lawyer reasonably should know that
                  the evidence is or may be the subject of discovery or
                  subpoena in any pending or imminent proceeding.


                  (t) Request a person other than a client to refrain from
                  voluntarily giving relevant information to another party
                  unless:

                      (1) The person is a relative or an employee or other
                  agent of a client; and
                      (2) The lawyer reasonably believes that the person's
                  interests will not be adversely affected by refraining from
                  giving such information ...

                  Comment [in part]




                                                      14
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

                    [1] The procedure of the adversary system contemplates
                  that the evidence in a case is to be marshaled competitively
                  by the contending parties. Fair competition in the adversary
                  system is secured by prohibitions against destruction or
                  concealment of evidence, improperly influencing
                  witnesses, obstructive tactics in discovery procedure, and
                  the like.
                    [2] Documents and other items of evidence are often
                  essential to establish a claim or defense. Subject to
                  evidentiary privileges; the right of an opposing party,
                  including the government, to obtain evidence through
                  discovery or subpoena is an important procedural right. The
                  exercise of that right can be frustrated if relevant material is
                  altered, concealed, or destroyed.


                                     Results of the Investigation

I.       BACKGROUND FINDINGS

         A.       Initiation of the Investigation Into Mr. Cuban's Sale of his
                  Mamma.com Stock Shares

              On or about December 6, 2006, while conducting an investigation of another
PIPE transaction, then SEC Enforcement staffattomey, and current Assistant Director,
Attorney 1Attorney 1
1                    came across the following instant message exchange dated July 2, 2004:

                  Billionaire Mark·Cuban Sells His Stake in Mamma.com
                  VERY SUSPICIOUS TIMING OF HIS SALE ... I AM
                  SURE THE SEC WILL LOOK AT THIIS
                  Reply: very SUSpICIOUS.
                  Reply: CAN U SAY JAIL TIME?
                  Reply: after the SEC is through with him, he'll need a
                  benefactor.

Exhibit 19; Attorney 1 Tr. at 12. Attorney 1 testified that after finding this instant message
exchange she conducted research into Mr. Cuban's sale of his Mamma.com stock and the
timing of the press release related to that sale.. Attorney 1 Tr. at 13. On December 6,2006,
Attorney 1
           sent her then immediate supervisor, Branch Chief Attorney Witness 33 Attorney 3
                                                                                           an e-mail
entitled, "new case?" and wrote, in part:

                  Best I can tell, Cuban bought 600,000 shares of MAMA
                  (Mamma. com) in March 2004 and sold those 600,000
                  shares (which was about 6% of the company) on 6/29/04.
                  After the close on that date, MAMA announced a PIPE
                  offering.


                                                      15
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy It without the Inspector General's approval.



Exhibit 20.

         A few minutes later that same day, Attorney 1 sent a follow-up e-mail to Attorney 3
saying that she checked on Enforcement's internal case tracking database called "NRSI,"
which stands for Name Relationship Search Index, to detennine whether anyone else at
the Commission had already opened a matter related to Mr. Cuban's trading in
Mamma.com. Id. Attorney 1 told Attorney 3   she found that another Associate Director group
had an active investigation open into Mamma.com for fraud and market manipulation,
but she could not detennine from NRSI whether it covered the same 2004 PIPE offering. 7
Id. & Attorney 1 Tr. at 15. On February 21,2007, Attorney 1 forwarded that same e-mail chain to
Friestad and copied then Assistant Director (current Co-Chief of the Asset Management
Unit) Assistant
      Director 1   Exhibit 20. That same day, Assistant
                                              Director 1 told Friestad, "And, of course, we did
follow up with what ultimately turned out to be [Assistant Director] Assistant
                                                                           Director 2 [
                                                                                        Assistant Director 2


group, and they were not looking at trading in connection with the 2004 PIPE offering."
Id.
         Attorney 1
                  testified that she recalled checking on NRSI, but had no specific
recollection of reaching out to anyone on the other investigative team. Attorney 1 Tr. at 14-
16. Similarly, neither Attorney 3        nor Assistant
                                             Director 1     remembered who contacted the other
investigative team to detennine if that Enforcement staff was already investigating Mr.
Cuban's sale of his Mamma.com stock. Exhibit 17 at 2 & Assistant         Director 1 Tr. at 15-16. But
Assistant
Director 1 did recall that at the time they inquired about the " ... investigation involving the
securities in Mamma.com ... that the investigation was not going anywhere, it was a
dead investigation." Assistant
                          Director 1 Tr. at 15. Assistant
                                                  Director 1  further explained that the other team's
investigation was "technically open" but inactive. Id. at 15-16.

      As discussed in Section I.C., Enforcement opened a matter under inquiry, also
known as a "MUI," into Mr. Cuban's sale of his Mamma.com shares on December 7,
2006. Exhibit 21.

         B.           The HO-09900 Investigation into Mamma.com

        In March 2004, a different Associate group in Enforcement opened an
investigation into Mamma.com because of a large increase in its stock price over a two-
day period. The OIG found that SEC staff intended to close this investigation into
Mamma.com, identified as HO-09900, as early as September 2006, several weeks before
the investigation of Mr. Cuban, identified as HO-I0576, was opened. According to
NRSI, the HO-09900 investigation entitled, "Mamma. com" was opened on May 4, 2004,




7 Associate Director Scott Friestad ("Friestad") testified that it is standard procedure in Enforcement to
look to see if anyone else already has open the same conduct so that there is no duplication of efforts.
Friestad Tr. at 21-22.




                                                      16
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

after a MUI was opened initially in this matter on March 4, 2004. Exhibits 22-24. The
Hub Case ReportS stated as follows:

                   We opened this investigation in March 2004 into the
                   Internet search engine Mamma.com after the company's
                   stock price increased by over 200% over a two-day period
                   with trading volume of twenty times available float.
                   Contemporaneously, we were contacted by an anonymous
                   source who claimed that Subject Subject was a major
                   shareholder in Mamma.com and was manipulating the price
                   of the stock. We are investigating whether there was any
                   manipulation of the stock price by Subject Subject or others.
                   We are also investigating whether the company's financial
                   results for fiscal year 2005 were reported in accordance
                   withGAAP.

Exhibit 24 at'2. A Fonnal Order of investigation was issued by the Commission on
March 2, 2005, which outlined the various allegations being investigated. Exhibit 25.
                                                                                     Attorney 4 Attorney 4
According to the Hub, the staffing on that case was: Staff
                                                                           PII
(" Attorney 4  then Branch Chief (current Assistant Director)                                        Assistant
Director 2Assistant Assistant
                    Director 2
                    Director 2 (" Assistant Director 2
                                                       and Associate Director  Antonia  Chion       ("Chion,,).9
Exhibit 24 at 1. The Formal Order listed all the designated officers of the Commission
who were authorized to conduct that investigation. Exhibit 25. Those listed in the Hub
were included on the Formal Order, along with several others. Id. None of those
individuals listed on the HO-09900 Fonnal Order included anyone who worked on the
HO-10576 matter investigating Mr. Cuban. Id.

        According to Attorney 4 the case was opened as a result of a "stock pop" in
Mamma. com. Attorney 4 Tr. at 11. Attorney 4 testified that a press release was issued by
Mamma.com, but Enforcement staff "weren't quite sure if the press release was of the
nature to indicate that type of activity in the stock" and wanted to look at "whether or not
the stock was being manipulated actively." Id. Attorney 4 further testified that they were
also reviewing an accounting issue, specifically the calculation of revenues included in
the press release. Id. at 12.

           In HO-09900, testimony was taken of several individuals in late 2004 and 2005,
including Mamma.com officers and board members Guy Faure, Witness 2 Witness 2           Witness 5

Witness 5
          and Attorney
              Witness 33 Witness 3
                                   according to the Hub report. Exhibit 24 at 3. In addition, the
Hub report stated that, among the other investigative work perfonned were "telephone



8The Hub is an automated internal SEC computer system which tracks the work conducted in
Enforcement's investigations.

9 This was confinned in all of the uniformly consistent testimony we obtained on who staffed the HO-
09900 investigation. See, e.g., Friestad Tr. at 27; Assistant
                                                    Director 1
                                                               Tr. at 17-18; Attorney
                                                                             1
                                                                                      Tr. at 14-15.



                                                        17
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

interviews with related parties concerning MAMA, incll:lding the anonymous source,
investors, fonner employees and other individuals and entities." ld.

            While not indicated in the Hub report, the OIG learned during the course of its
investigation that one of those telephone interviews conducted in investigation HO-09900
was of Mark Cuban. Mr. Cuban's counsel attached a timeline of certain highlighted
events to a September 21, 2007 letter from counsel to Mr. Cuban to Friestad, discussed
more fully in Section IJ .2. Exhibit 26 at 1. The timeline started with June 30, 2004,
stating that Attorney 4 interviewed Mr. Cuban by telephone that day "regarding his -
investment in Mamma.com, and his interactions with Mamma. com 's officers and
directors." ld. Attorney 4 testified that he wanted to speak to Mr. Cuban because he was a
"high profile investor" in Mamma.com and he "wanted to see exactly what he knew
about the company and whether or not he knew of any issues with the company ...."
Attorney 4
            Tr. at 25 & 26. Attorney 4 also testified that he originally reached out to Mr. Cuban's
counsel to arrange a telephone interview, but Mr. Cuban personally called Attorney 4 back
while Mr. Cuban was at a barbershop. ld. Attorney 4 testified that, during the telephone
interview of Mr. Cuban on June 30, when Attorney 4 asked whether Mr. Cuban knew of
Subject    Subject
                   (" Subject and his involvement in Mamma.com, Mr.' Cuban responded that "he
had heard that Mr. Subject was involved in this company." Attorney 4 Tr. at 27. Attorney 4
testified to the OIG, "I think Mr. Cuban had concerns about Mr. Subject involvement in
the company." ld. at 33.

          The timeline further stated, "Mr. Cuban also forwards Mr. Attorney 4 several dozen
e-mails detailing his correspondence with Mamma.com personnel, as well as brokerage
statements and trading records."l0 Exhibit 26 at 1. Attorney 4 testified that he did request
documents from Mr. Cuban, but did not specifically recall whether he requested trading
records. Attorney 4 Tr. at 29. The OIG obtained a copy of a July 1, 2004 letter Attorney 4 sent
to Mr. Cuban regarding the HO-09900 investigation. Exhibit 27. In that letter, Attorney 4
requested certain documents and information, which he testified he believ~d Mr. Cuban
had agreed to voluntarily provide in their conversation the day before. ld. at 1. Mr.
Cuban testified that he spoke to Attorney 4 about an investigation Attorney 4 was conducting of
Subject
        and that he provided Attorney 4 with e-mailshehadrelatedtothat.CubanTr.at10-11.

        According to Attorney 4 he did not recall whether the fact that Mr. Cuban completed
the sale of his entire holding of Mamma. com on the previous day, June 29,2004, was
discussed during the telephone call with Mr. Cuban on June 30, 2004, but admitted that
this would have been relevant to his case. Attorney 4 Tr. at 31-37 & 39.




10 Mr. Cuban testified that it was a "red flag" that Attorney
                                                     4        asked him for his trading records, "particularly
since it was July 1st and the trade only had been June 291h , how would he even know?" Cuban Tr. at SO.
He further testified that those trading records appeared to have been given to the other team. Id. We found
no evidence that the team investigating Mr. Cuban obtained any of this information from Attorney 4



                                                      18
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

       The next entry in the timeline of events prepared by Mr. Cuban's counsel was
December 7,2006, "Attorney
                     Witness 33 Attorney 3
                                           ... calls to speak with Mr. Cuban; Robert HartH
returned the call." Exhibit 26 at 1.

         The Hub Case Report executive summary for this matter stated:

                  This investigation concerned Mamma.com, Inc.
                  ("MAMA") ... a Canadian internet search engine company
                  based in Montreal, Quebec. .. '. The staff investigated
                  whether MAMA issued misleading financial information in
                  March 2004 and whether there had been manipulative
                  trading of the company's stock around the time of the
                  earnings release. After a thorough investigation that was
                  hampered in part by the inability to obtain testimony or
                  other information from foreign witnesses, the staff
                  concluded that there was insufficient evidence that
                  violations had occurred. A termination letter was provided
                  to MAMA in 2007. A closing memorandum is being
                  prepared.

Exhibit 24 at 2.

         As discussed more fully in Section II.B.I., the OIG obtained evidence that SEC
staff intended to close the HO-09900 investigation into Mamma.com as early as
September 2006, several weeks before the HO-I0576 investigation of Mr. Cuban was
opened.

         C.       Early Investigative Work into Mr. Cuban's Sale of Mamma.com
                  Stock

           Enforcement opened a MUI into Mr. Cuban's sale of his Mamma.com shares on
Thursday, December 7,2006. Exhibit 21. In a December 7,2006 e-mail from Attorney 1 to
Attorney 3
               she wrote that she had spoken to Aguilar, counsel for Merriman Curhan Ford
& Co ("Merriman"), and that Aguilar had told her he did not "want to put words into the
"private placement guy's mouth." Exhibit 28. Attorney 1 added that she and Attorney 3          were
scheduled to "talk to the [private placement] guy on Monday at 4pm." Id. On Monday,
December 11, 2006, Attorney 1 and Attorney 3     conducted a telephone interview of Witness 1
head of private placements at Merriman. Exhibit 29 at 1. In that interview, Witness 1 told
Attorney 1
           and Attorney 3   that he had served as the placement agent for Mamma.com's June
2004 PIPE offering. Id. at 2. Witness 1 described to Attorney 1 and Attorney 3    that the night
before the Mamma.com PIPE press release was issued, Witness 2                 Chairman of
Mamma.com, gave him Mark Cuban's telephone number and asked him to contact Mr.
Cuban because Mr. Cuban was upset about the PIPE. Id. Witness 1 further infonned Attorney 1
and Attorney 3       that when he reached Mr. Cuban by telephone that evening, Mr. Cuban

II Robert Hart ("Hart") was Mr. Cuban's initial counsel in the investigation into Mr. Cuban's sale of his
Mamma.com stock.


                                                      19
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

sounded angry and Witness 1 had the impression from Mr. Cuban that Mr. Cuban already
knew about the PIPE. Id.

         On December 18, 2006, SEC Enforcement staff conducted a telephone interview
of Faure, then President and Chief Executive Officer of Mamma. com. 12 Attorney 1 Tr. at 26.
In that interview, as he testified to in his January 11, 2007 testimony with the
Enforcement staff, he told staff that during the telephone call with Mr. Cuban he told Mr.
Cuban that he had confidential information to convey to him and then asked if Mr. Cuban
was interested in participating in the impending PIPE offering. Exhibit 30 at 19. In
addition, Faure told the Enforcement staff that Mr. Cuban said at the end of that call,
"Well, now I'm screwed. I can't sell." Id.

        Later that same day, Faure's counsel forwarded two e-mails Faure had sent to
Mark Cuban on June 28,2004. Exhibit 31. In the first e-mail, Faure wrote at 12:56 p.m.,
"Hi Mark, I would like to speak to you ASAP. Can you please call me" and then gave
his telephone numbers. Id. In the second e-mail, Faure wrote Mark Cuban at 3:51 p.m.,
"Hi Mark, if you want more details about the private placement please contact (I guess
you or your financial advisors) Witness 1 Witness 1 ... with Merriman Curhan Ford & Co." Id.

         Later that same day, December 18, 2006, Attorney 1 Attorney 3 and Assistant
                                                                           Director 1 conducted
a telephone interview of Mark Cuban. Exhibit 32. Mr. Cuban was not represented by
counsel in that interview. Id. at 1. Mr. Cuban told the Enforcement staff that he was
initially told about the PIPE by Merriman, likely Witness 1 Id. at 2. Mr. Cuban said he did
not recall Witness 1 telling him that the information about the PIPE was confidential. Id. In
addition, Mr. Cuban further stated, among other things, that no one contacted him about
the PIPE prior to Witness 1 and that no one from Mamma.com called him about the PIPE.
Id. Mr. Cuban added that he never spoke to Faure about the PIPE. Id. at 3.
          Attorney 1
                 testified that they had spoken to Counsel
                                                       Witness 6 Witness 6
                                                                           (" Witness 6 Mamma.com's
in-house counsel, probably just after December 11, 2006 "because this was when we
realized that Cuban had likely found out about the PIPE from the company." Attorney 1 Tr.
at 22-23. Attorney 1 testified that Witness 6 provided them with proffers. Id. at 22.
Documentary evidence shows that Witness 6 made proffers for four of the Mamma.com
board members. Exhibit 33. Attorney 1 testified that she believed that after conducting these
interviews in December the Enforcement staff had sufficient evidence to open a formal
investigation: "Because we had evidence that Guy Faure had talked to Mark Cuban. We
had these e-mails. We had trading. The stock price movement was, at least in my initial
cut edit, you know, statistically significant movement." Attorney 1 Tr. at 28.

         Documentary evidence shows that the MUI was converted to a formal
investigation on January 3, 2007, in order for Enforcement staff to travel to New York
the following week to take testimony. Exhibit 34. SEC Enforcement staff took sworn
investigative testimony of Guy Faure in New York City on January 11,2007. Exhibit 30.
On January 12, 2007, the Enforcement staff sent Mr. Cuban's then counsel, Robert Hart,
a letter requesting Mr. Cuban's voluntary testimony. Exhibit 35. On January 31,2007,

                                                                              Attorney
12   Staff did not prepare a written memorandum of interview of Guy Faure.    1          Tr. at 24.


                                                      20
This document is subject to the provisions of. the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

Attorney 3
          received an e-mail from Paul Coggins ("Coggins"), a partner at the law finn of
Fish & Richardson, saying that he now represented Mr. Cuban in the staff's investigation
ofhim involving Mamma.com and indicated that Mr. Cuban was eager to cooperate with
the request for an interview. Exhibit 36.

         On February 12, 2007, Attorney 1 e-mailed Assistant
                                                   Director 1 and Attorney 3     stating, "Coggins
called back to say that, after thinking about it over the weekend, he will not make MC
[Mark Cuban] available without a subpoena ...." Exhibit 37. Attorney 1 ended her e-mail,
"I'll start the FO [fonnal order] memo." Id. That same day, AssistantDirector 1 asked Friestad if the
Fonnal Order they were preparing on the Cuban matter should be presented in executive
session, to which Friestad replied, "Let's talk to Linda [Thomsen] and/or Joan [McKown]
first." Id. On February 22,2007, Friestad e-mailed Attorney 1 and copied AssistantDirector 1 saying, " .
. . I would leave it [the Formal Order memorandum] as Executive Session and limited
distribution for now." Exhibit 38.                                                                .

           According to Kiprian Mendrygal ("Mendrygal"), an attorney at the law finn Fish
& Richardson, they met briefly with Attorney 1 and Attorney 3          in about February 2007 to
introduce themselves and "just try to get a flavor for what the case was about."
Mendrygal Tr. at 13-15. Mendrygal testified that the SEC had very minimal responses,
but they believed the SEC was listening to the concerns and arguments they were making
                                                           Attorney 1
o~ behalf of Mr. Cuban. Id. at 15. According to                       Coggins "was never willing to
acknowledge the call" between Faure and Mr. Cuban; she testified that Coggins came to
the SEC in February 2007 before the fonnal order was issued for a meeting with herself,
Assistant
Director 1 and Attorney 3 Attorney 1
                                     Tr. at 78-79. Attorney 1 testified that Coggins tried to dissuade
the Enforcement staff from going to the Commission to get the fonnal order, and brought.
a picture of Mark Cuban with Michael Jordan on a golf course to show that this telephone
call could not have possibly happened. Id. Attorney 1 added, "And that wasn't true. He just
hadn't apparently gotten the phone records from his side." Id. at 79.                      .

        On February 27,2007, the action memorandum requesting a formal order from
the Commission was unanimously granted by the Commission in executive session.
Exhibit 39. Friestad testified that he and the Enforcement staffhad decided that the
Fonnal Order memorandum should be held in Executive Session. Friestad Tr. 95-96.
Friestad explained, "Executive Session is a closed Commission meeting that is only open
to the staff who have worked on a case or otherwise have a need to know and participate
in the consideration of a particular recommendation." Friestad Tr. at 96. The Formal
Order was issued on March 12, 2007. Exhibit 40.

         On March 2, 2007, SEC Enforcement staff interviewed Mamma.com Chairman
Witness 2
              Exhibit 41. In that interview, Witness 2    told Attorney 1 and Attorney 3 that he
remembered the Mamma.com board considering whether to contact Mr. Cuban about the
PIPE in late June 2004 and that "the board made clear that the person contacting Mr.
Cuban would have to get Mr. Cuban to agree to keep the infonnation confidential
because Mr. Cuban would become a Mamma.com insider upon hearing that information."
Id. Witness 2   told Attorney 1 and Attorney 3 that Faure was tasked with contacting Mr. Cuban
and that after speaking with Mr. Cuban, that Faure reported back to Witness 2             what Mr.



                                                      21
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

Cuban had said, including that Mr. Cuban said he would not participate and planned to
sell his Mamma.com stock after the public announcement of the PIPE. Id. Witness 2
further told Attorney 1 and Attorney 3 that he had summarized his conversation with Faure
about the call with Mr. Cuban in an e-mail hesenttotheboardmembers.Id.

            On March 9, 2007, Attorney 1 received from Mamma.com's counsel Witness 6 June 28
and 29, 2004 e-mails from Witness 2           to the Mamma.com board of directors. Exhibit 42.
Attorney 1
           forwarded those e-mails to Assistant
                                         Director 1 and Attorney 3 stating,

                  Finally. Confinns Faure-Cuban conversation and that press
                  release occurred, as we thought, after COB on 6/29.

                  Doesn't really add much to the substance of the Faure-
                  Cuban call, but it's nice to have a contemporaneous
                  summary. In relevant part, the one email says 'Today, after
                  much discussion Guy spoke to Mark Cuban about this
                  equity raise and whether or not he would be interested in
                  participating. As anticipated he initially 'flew off the
                  handle' and said he would sell his shares (recognizing that
                  he was not able to do anything until we announce the
                  equity) but then asked to see the tenns and conditions
                  which we have arranged for him to receive from one of the
                  participating investor groups with which he has dealt in the
                  past.' A second email summary says '[Mark Cuban's]
                  answers were: he would not invest, he does not want the
                  company to make acquisitions, he will sell his shares which
                  he can not do until after we announce. The last possibility
                  had been pointed out by Guy [Faure] at the board meeting.'
                LE/WP




Id. The first e-mail dated June 28, 2004, referenced in Attorney 1 e-mail, ended with "Guy
[Faure] and Dave [Witness 2     Id. at 6. The second e-mail referenced in Attorney 1 e-mail
was dated June 29, 2004. Id. at 7-8.

        On April 3, 2007, Attorney 3  and Attorney 1 took investigative testimony of Mark
Cuban. Exhibit 43. During that testimony, Mr. Cuban testified that he did not remember
how he first learned about the PIPE. Id. at 35. Mr. Cuban recalled, during that
testimony, that he had spoken to someone from Merriman who told Mr. Cuban that
Mamma.com was conducting an offering. Id. at 36. Mr. Cuban further testified that he
was at a golf tournament near Dallas, Texas when he spoke to the sales representative
from Merriman. Id. at 37. Mr. Cuban testified that the Merriman representative asked
him to participate in the PIPE on that telephone call. Id. at 40. Mr. Cuban testified that
the sales representative did not ask him to keep the infonnation confidential. Id. at 42.



                                                      22
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

Mr. Cuban further testified that he called his broker and told him to "get me out of this
stock" and sell what you can tonight and the remainder the following day. Ide at 45. Mr.
Cuban testified he did n~t remember ever speaking to anyone at Mamma.com about the
PIPE offering. Id. at 47.

         D.       A Fort Worth Regional Office Trial Attorney Began an Inappropriate
                  E-Mail Exchange with Mr. Cuban from his SEC Computer in March
                  2007

                  1.       The March 2007 E-Mails

        On March 28, 2007, Jeffrey Norris, then trial attorney in the FWRO, began e-
mailing Mr. Cuban from his SEC e-mail account during the workday. Those e-mails,
entitled "Loose Change," began with Norris writing Mr. Cuban:

                  It's a very sad day for me. 1 have been in Texas for about
                  15 years and 1 have watched the transfonnation of the
                  Mavericks over that time. 1 had become a passionate
                  Mavericks fan, following every game and letting the team's
                  success or failure in the playoffs practically control my
                  entire emotional state. Your association with "Loose
                  Change" has altered that ....

                  You are promoting a point of view that is radical and
                  irresponsible. . .. 1 try to mold my children's values and
                  opinions in the proper direction, even when it comes to
                  sports.... Next time one of [my children] asks me
                  'Daddy, do we like the Mavericks?', 1 will say: 'No, honey
                  we don't [sic] We hate the Mavericks because the man
                  who owns the team helps very bad people who hate
                  America and hate President Bush ....

Exhibit 44 at 10 & 11. That e-mail ended with a signature block with Norris's name and
SEC title, address and telephone numbers. Id. at 11. Mr. Cuban responded to Norris's e-
mail, "Explain to me how this movie, its [sic] not a doc, will Help people who hate this
country? And to question my patriotism, well, you have no clue." Id. at 10. Norris
replied with a lengthy e-mail which stated, among other things, "I can, however,
conclude that your judgement [sic] is terrible; you have chosen to help promote lies. . .. I
certainly conclude without hesitation that your decision to promote this 'documentary' is
an unpatriotic act." ld. at 8. The e-mail exchange between Norris and Mr. Cuban
continued into the following day. ld. at 1 & 2.




                                                      23
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

                  2.       The FWRO Attorney Sent More E-Mails to Mr. Cuban in May
                           2007, Copied to Former Chairman Cox, and then Forwarded
                           Them to Associate Director Friestad

        On May 5, 2007, Mr. Norris continued the March e-mail exchanges with Mr.
Cuban. Exhibit 45 at 3. In response, Mr. Cuban wrote, "And you work for the sec [sic]
That's scary. Should I forward all your e-mails to chris cox?" Id. Norris replied with an
e-mail beginning, "I AM SHARING THIS WITH CHAIRMAN COX. NEITHER HE
NOR THE COMMISSION ENDORSE MY OPINIONS, BUT IN LIGHT OF YOUR
THREAT, I THOUGHT I SHOULD SEND THIS TO HIM." Id. at 2. Norris ended the
e-mail,

                  Since Chainnan Cox may not know the background, I will
                  explain it. Mark Cuban is the owner of the Dallas
                  Mavericks and has participated in distributing the vicious
                  and absurd documentary, "Loose Change," which posits
                  that President Bush planned the demolitioI?- of the World
                  Trade Center as a pretext for going to war against Iraq. We
                  have had some past exchanges about my opinion that Mr.
                  Cuban's support for this project is irresponsible and
                  immoral. Below, I parodied his justification that every
                  opinion, no matter how absurd and vicious, deserves to be
                  broadly disseminated. 13

Id. at 3. Norris copied fonner Chainnan Christopher Cox on that e-mail. Exhibit 46.
Mr. Cuban replied saying, among other things, "Yeah, sending and [sic] unsolicited e-
mail to me, basically accusing me of being a traitor and lacking in patriotism, from your
sec e-mail account and during working hours is exactly how taxpayer dollars should be
spent." Exhibit 49 at 2.

        On May 9, 2007, Norris forwarded that e-mail exchange from May 5,2007 to
several individuals, including Friestad and others who work at the SEC, and entitled it,
"My Impending Tennination over Mavericks Basketball." Id. at 2. Norris wrote, "I have
been exchanging some e-mails with Mark Cuban, the billionaire owner of the Dallas
Mavericks, gigging him for his support for a vicious anti-Bush documentary called,
'Loose Change.' . .. Cuban threatened to send my past and present e-mails to Chainnan
Cox. I preempted him by copying Cox on my reply. See below." Id. A minute later,
Friestad responded to Norris, "You need to call me ASAP . You should not be having
communications like this with Mr. Cuban." Id. at 1. Norris replied,


 13 On November 17, 2008, the same day the SEC charged Mark Cuban with insider trading for selling all
 600,000 shares of his stock in Mamma.com, this May 2007 e-mail from Norris to Mr. Cuban was
 publicized. Exhibit 46. According to one newspaper account, "a person close to Mr. Cuban told DealBook
.that an S.E.C. employee had sent Mr. Cuban e-mails several times over the last year or so, accusing him of
 being unpatriotic. The bone of contention was Mr. Cuban's involvement with "Loose Change," a
 documentary that accuses the Bush administration of engineering the Sept. 11 terrorist attacks as a pretext
 for the Iraq war." Id.


                                                      24
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

                  1 don't plan any further communication. 1 have made sure
                  that he knows my position is only my own. 1 am not going
                  to initiate any other exchanges. 1 understand that he is. also
                  the majority owner ofHD.net, probably a publicly traded
                  company, so 1 am backing off entirely in order to avoid any
                  problem.

Id. Friestad answered, "It's worse than that. Please call me." Id.

        Friestad testified that before receiving th~ e-mail exchange between Norris and
Cuban on May 9 from Norris, he did not mow that Norris had been e-mailing Mr. Cuban,
nor had Norris ever discussed Mr. Cuban with him. Friestad Tr. at 44 & 48-49.
Moreover, Friestad testified he had no idea why Norris e-mailed him saying, "I do mow
him. It was an uninvited e-mail that he sent to me and some other people on the staff."
Id. at 44. Friestad testified that "it was fortuitous that this thing came to my attention,
because it was accidentally colliding with me and what 1 Iaiew about Mr. Cuban" and the
Enforcement investigation into Mr. Cuban's sale of his Mammacom shares of stock. ide
at 44-45.

         Friestad explained that he got to mow Norris through his friends and would see
Norris when he came back to Washington, D.C. several times a year. Id. at 45. Norris
began his career at the SEC at headquarters in 1992 as a senior counsel in Enforcement,
and moved to the then Fort Worth District Office in 1995. Transcript of Testimony of
Jeffrey Norris, conducted by telephone in 010-549 on December 20,2010 (excerpted
portion of transcript attached as Exhibit 47 at 6). Friestad testified that there were
"periodic e-mailsbackandforth.. fromNorriswhichhewassometimesincludedon.Id.
According to Friestad, Norris would sometimes send him e-mails. about his family, about
songs he had written, or his commentary on political events. Id. at 46-47. Friestad
testified that he knew Norris was ''very conservative." Id. at 49. Friestad also testified
that he "had no idea" about what Mr. Cuban's political views were nor did he know
anything about Mr. Cuban's alleged backing ofa movie called, "Loose Change." Id. at
49.

       Friestad testified that he was shocked, among other things, when he read the e-
mail exchange Norris had had with Mr. Cuban. Friestad Tr. at 47. Friestad claimed he
was not sure whether Norris had actually sent the e-mails testifying,

                  To be honest with you, it's hard for me to imagine anyone
                  having that poor of judgment to have engaged in an e-mail
                  exchange like this and to copy the Chainnan of the
                  Commission on it . . .. It just boggles my mind that
                  someone would do that. . .. And so there was a part of me
                  that wasn't sure that really had happened, and as I looked at
                  the attachment, it didn't look like a real e-mail. ... even
                  his title to this e-mail that he had sent to us which seemed
                  to suggest a recognition that he had done something wrong



                                                      25
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy It without the Inspector General's approval •

                  . . . and that's why I responded as I did [and] as quickly as I
                  did.

Friestad Tr. at 47-48.

                  3.        Actions Taken After the Chairman was Copied on, and
                            Associate Director Friestad was Forwarded, the May 2007
                            E-Mails

       Associate Director Friestad explained that when he responded right away to
Norris's May 5,2007 e-mails to Mr. Cuban saying, "It's worse than that. Please call
me,"

                  I'm referring to the fact that we have [an] investigation
                  pending relating to Mr. Cuban. He's suggesting that just
                  theoretically that Mr. Cuban might be an officer or director
                  of a public company, and it's not a good idea for him to be
                  having that type of discourse with someone who's an
                  officer or director of a public company. And I'm saying
                  it's not a theoretical concern. It's a real concern, because
                  this is involving here, you're having discourse with
                  someone who's [sic] conduct is being reviewed in an
                  ongoing investigation.

Id. at 51. Friestad testified that he believed Norris called him within a couple of minutes
after he sent his second e-mail to Norris. Id.at 52. He explained that the conversation
was very short, and that he told Norris they had an open investigation related to Mr.
Cuban. Id. According to Friestad, he did not tell Norris any details about the
investigation, or even that the investigation was of Mr. Cuban, but told him enough to let
him know why he felt the communications Norris had been having with Mr. Cuban were
inappropriate. 14 Id.

        Friestad testified that he realized Norris's actions raised "potential personnel
issues" beyond having an impact on the investigation of Mr. Cuban and explained the
additional actions he took after learning about Norris e-mailingMr.Cuban.Id.at 54.
According to Friestad, he wanted to learn more about the exact sequence of events and,

                  shortly after this interchange, and by shortly I mean two or
                  three weeks or a month, I had had communications with
                  someone I know in the Chairman's office who confirmed to
                  me that Mr. Norris had in fact sent these e-mails to the
                  Chairman. And not only what I was aware of, but
                  substantially more than I was aware of.

14 friestad testified he did not recall instructing Norris not to tell others about the investigation related to
Mr. Cuban because no one at the agency is allowed to share that kind of non-public information. Id. at 53-
54.


                                                      26
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.



Id. at 54-55. He further testified that it may have been when he had the "follow-up
communications" with the Chainnan's office that he learned of the additional March 28-
29, 2007 e-mail exchanges Norris had with Mr. Cuban. Id.at55. Friestad testified that
he talked to Counsel then Counsel to fonner Chainnan Cox, and that it probably occurred
in mid-June 2007. Id.

      According to a January 30, 2008 memorandum from Thomsen to former
Chairman Cox which set forth the chronology of events related to the Norris e-mail
exchanges with Mr. Cuban and the investigation of Mr. Cuban, on May 9,2007,

                      Mr. Norris sent an excerpt from the e-mail exchange with
                      Mr. Cuban to several acquaintances, including three
                      members of the Home Office staff (Scott Friestad, Greg
                      Faragasso and Tom Sporkin). Mr. Friestad responded
                      immediately bye-mail, telling Mr. Norris that such e-mails
                      are inappropriate. Mr. Friestad followed up with a
                      telephone call, reiterating that message and informing Mr.
                      Norris of the Home Office investigation. Mr. Norris.
                      responded that he was unaware of the investigation and
                      promised to stop communicating with Mr. Cuban.

Exhibit 48 at 2 & 3. The next entry in that same memorandum related to the Norris e-
mails stated:

                      June 22, 2007 (approx.): Counsel    Counsel
                                                                  contacted Mr.
                      Friestad to advise that the Norris/Cuban e-mails had been
                      sent to Chairman Cox. Mr. Counsel and Mr. Friestad
                      brought the matter to my attention and, shortly thereafter,
                      Mr. Friestad and I contacted the Office of Inspector
                      General (Brian Bressman) to report the conduct.

ld. at 3.
            Counsel
                 testified under oath before the OIG by telephone. Counsel is currently a
Senior Counsel at the law firm of Fulbright & Jaworski, which he joined around
September 2009. Counsel Tr. at 6-7. Before that, Counsel worked at the Commodity
Futures Trading Commission as chief of staff to the Chairman and counsel to
Commissioner Walter Lukken. ld. at 7. Prior to that, Counsel worked at the SEC from
approximately September 2000 to September 2007. ld. Counsel testified he began as a
staff attorney in Enforcement, held that position for several years, and then served as
counsel in the Office of the Chairman for about a year before leaving the SEC. Id. at 8.
At that time, Christopher Cox was the Chainnan of the SEC. ld. According to Counsel
as counsel to the Chainnan he served as lead counsel for matters dealing with the
Enforcement Division. ld.




                                                      27
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

         Counsel
                 after reviewing the Norris/Cuban e-mail exchanges during his testimony
before the OIG, did not recall seeing them before. Id. at 11. He did, however, recollect
that former Chairman Cox's then Chief of Staff Peter Uhlmann asked Counsel to come to
his office and, at that point, Uhlmann described the e-mails to him. Id.atI2. He testified
that Uhlmann told him generally that the Chairman had received or been copied on an e-
mail exchange between an SEC employee and Mark Cuban, and he generally described
the back and forth in the e-mails.Id.atI2-13 . Counsel remembered informing Uhlmann
that he was aware that there was an ongoing Enforcement investigation related to Mr.
Cuban, and that Counsel recommended that Enforcement be informed about the e-mail
exchange and that the OIG be contacted. Id. at 14.
         Counsel
                also testified he recalled after meeting with Uhlmann, he had a
conversation with Friestad to inform him of the e-mail exchange since Friestad was the
Associate Director for the Enforcement staff handling the Cuban investigation. Id. at 17.
He recalled going to Friestad~s office and informing him about the Norris/Cuban e-mail
exchange and that "at some point during the conversation, [Friestad] indicated some
familiarity with the e-mail." Id.atI8. According to Counsel     he also went to Thomsen's
office by himself to inform her about the Norris/Cuban e-mail exchange and while he was
in her office, Thomsen telephoned Rose Romero ("Romero"), then head of the SEC's
Fort Worth Office, IS and the Inspector General. Id. at 18-20. Counsel testified that he had
the impression that Thomsen was not aware of the Norris/Cuban e-mail exchanges until
he informed her of them. Id. at 19. He described Thomsen's reaction to learning about
the e-mailsas"surprised, disappointed, and seemed to take it seriously." Id.at 20.

        Uhlmann testified that he recalled seeing the May 5, 2007 Norris/Cuban e-mail
exchanges but he could not recall how he fir&t saw them. Uhlmann Tr. at 9. According
to Uhlm~, he would sometimes review the Chairman's e-mail accounts, but he could
not recall ifhe saw these e-mail exchanges that way or if the Chairman had shared it with
him. Id. He did .remember having a conversation with the Chairman once he learned of
the e-mail exchanges to let the Chairman know he would be taking action on it because
he had the impression that an SEC employee was sending these e-mails on ~EC time and
from his SEC· e-mail account. Id.atl0. Uhlmann did testify, however, that he did not
see these e-mail exchanges for several weeks or a month or more after they had been
originally sent. Id. at 17.

         Uhlmann further testified that once he learned of the e-mail exchanges he moved
"fairly ... expeditiously to pass those along." Id. Uhlmann testified he spoke to Counsel
and asked him to follow-up with the appropriate person in Enforcement. Id. at 12 & 14.
According to Uhlmann, both he and the Chairman were unaware of who Jeffrey Norris
was and the Chairman did not know who Mark Cuban was. Id. at 11. Uhlmann also
testified that when he learned of these e-mail exchanges he did not know there was an
open Enforcement investigation related to Mr. Cuban. Id. at 12. Uhlmann further told
the OIG that his best recollection is that former Chairman Cox and he did not learn about
the Cuban investigation until after Counsel spoke to Friestad. Id. at 23.

IS At the time of the Norris/Cuban e-mail exchanges, the SE,C's Fort Worth office was identified as the
Fort Worth District Office and Romero was the District Administrator.


                                                      28
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.



      The OIG obtained a May 18,2007 e-mail exchange between fonner Chairman
Cox and then EEO Director Deborah Balducchi, in which fonner Chainnan Cox attached
the May 5, 2007 Norris/Cuban e-mail exchanges and wrote,

                  Deborah -- This is probably spam, but on a quick reading
                  the suggestion of misuse of agency resources indicates
                  there could be a personnel issue. So 1 am forwarding to
                  you out of an abundance of caution. Ifit's nothing,just
                  delete it. Thanks, Chris.

Exhibit 49 at 1. Balducchi responded,

                  I think it was prudent of you to forward the e-mail. While
                  it does not appear to be EEO-related, it very well may be
                  misuse of government resources. According to the SEC
                  phone directory, Jeffrey Norris works in the Ft. Worth
                  Regional Office. It appears he used his SEC e-mail for this
                  banter and told the other party he would continue the (e-
                  mail dialogue) along as that person did not copy you.

                  This looks like an issue that HR would look into and take
                  appropriate action, if needed. Thus, I will forward the
                  string of e-mails to Jeffrey Risinger for appropriate action.

                  Thanks.

Id. We conducted a follow-up interview ofUhImann to ask about this e-mail exchange,
and Uhlmann told us he first saw this within the last year when someone from the Office
of General Counsel ("OGC") had found this in the ongoing litigation. Exhibit 50. He
told the OIG that former Chainnan Cox "almost certainly" forwarded this e-mail himself
because it ended with, ''Thanks, Chris." Id. Uhlmann explained that ifhe responded on
behalf of fonner Chainnan Cox, his practice was to note that it was from himself or to
forward the e-mail from fonner Chainnan Cox to his own SEC e-mail account and
respond from there. Id. Uhlmann said that seeing this e-mail exchange did not refresh
his recollection about the timing of events. Id. He noted, however, that he was quite
certain it would have been the conversation he had with Counsel that prompted Counsel to
take action and go to Enforcement. Id.

        Upon learning about the e-mail exchanges, Uhlmann referred it to then Inspector
General Walter Stachnik on July 13, 2007, and attached a copy of the e-mail exchange.
Uhlmann Tr. at 12 & Exhibit 50. That same day, and shortly after Uhlmann's e-mail,
Friestad forwarded the e-mail exchanges to the OIG. Exhibit 45. As mentioned above,
Uhlmann testified he asked Counsel to follow-up with the appropriate person in
Enforcement. Uhlmann Tr. at 14. Uhlmann recalled that Counsel reported back to him




                                                      29
 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector Genera). Recipients of
 this report should not disseminate or copy It without the Inspector General's approval.

 that he had spoken to Friestad and learned that there was an active ongoing investigation
 of Mr. Cuban and that Friestad was already aware of the e-mails.Id.atI5 & 18.

         Uhlmann was not aware, however, that Friestad had been copied on those e-mails.
 Id. at 16. When shown a February 4, 2008 memorandum from Thomsen to Daniel
 Gallagher, then counsel to the Chairman, with the same chronology in the January 30,
 2008 memorandum discussed above in section 1.0.3., Uhlmann did not recall seeing it
 and did not mow if the Chairman ever received it, but testified that ''this chronology
 seems to fit with my recollection." Id. at 18 & Exhibit 51. He also believed that Counsel
 informed him that Norris was not involved in that particular investigation. Id. at 15.

                   4.       Former Chairman Cox Recused Himself from the Commission
                            Meeting to Decide Whether to Authorize Suit Against Mr.
                            Cuban

         As noted in the memorandum prepared by the Office of the Secretary, "The
 Commission voted (4-0) to approve the staff's recommendation. (Chairman Cox was
 recused from this matter.)" Exhibit 52. The Action Memorandum dated December 31,
 2007, similarly was stamped: "Recommendation Approved by Commission. November
 13, 2008." Exhibit 53. Handwritten on the document is: "4-0 CK, Wa. Au. P/Cx
 Recused." Id. The OIG found a November 11, 2008 e-mail entitled "Mamma. com" from
 Friestad to Thomsen and others stating, "FYI, we learned tonight that the Chairman is not
 going to participate in the Executive Session matter on Thursday." Exhibit 54.

          Documentary evidence shows that the matter was calendared a couple of times
  early in 2008, but then pulled from. the calendar. Exhibits 55 & 56. Friestad testified that
  he prepared parts of the chronology of the case and Norris/Cuban e-mails, discussed
  above in section 1.0.3., sent by Thomsen to the Chairman's office. Friestad Tr. at 65 &
  66. A few days before the matter was scheduled to be considered by the Commission, the
. Chairman's office pulled it from the calendar "for what I believe are reasons related to
  the Norris e-mails ... Id.at 66. According to an April 2010 Kaplan declaration, prepared
  for and filed in the ongoing litigation in this matter, former Chairman Cox recused
  himself from the Commission deliberations of whether to authorize suit against Mr.
  Cuban after a late January, early February 2008 chronology was prepared by the
  Enforcement staff for the Chairman. Exhibit 57 at 5.

           Friestad testified that his assumption all along was that there was a correlation
between the Chairman recusing himself and the Chairman being copied on the
Norris/Cuban e-mail exchange. FriestadTr.at 81. He explained that no one told the
Enforcement staff why the recusal decision was made. Id. Attorney 3         told the OIG that he
recalled that the Chairman was recused, and knew that he did not attend the November
13,2008 Commission meeting, and assumed the recusal was because of "that e-mail
nonsense" but added, "they don't tell you why" they are recused. Exhibit 17 at 8.
Attorney 3
              told the OIG that he remembered there was a delay between the submission of
the Action Memorandum and the approval of the case, but did not know why there was
that delay. Id.



                                                       30
 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
 this report should not disseminate or copy it without the Inspector G~neral's approval.



         Uhlmann testified that he did recall a discussion about whether the Chairman
 should recuse himself, but did not recall that the Chairman recused himself. Uhlmann Tr.
 at 22 & 23. Specifically, Uhlmann testified he could not recall whether it was a
 conversation he had directly with the Chairman or if it was a conversation between the
 General Counsel and the Chairman and he was apprised of it later, "But I just generally
 recall there was a -- it was identified as an issue to explore that in light of the fact that he
 was copied on these emails, you know, would recusal be required or just prudential
 recusal just for appearance of fairness." Id. at 23. Uhlmann t                                 at
                                                                  AC
          ce the Chairman was given about this matter was that
AC
           Id. at 29.

        Uhlmann testified that in the spring of 2008, several Commissioners were in the
 process of leaving the agency. Uhlmann Tr. at 26. In addition, he recalled that the
 agency was sensitive to the fact that there could be a perception that the investigation
 might have been motivated by the Norris e-mails, which contained "a partisan flavor,"
 and that it would, therefore, be preferable to wait for a full Commission, which included
 its Democrat members. Id. at 26-27.

                   s.       The FWRO Trial Attorney Was Disciplined for Sending
                            Inappropriate E-Mails to Mr. Cuban from his SEC Computer

         The OIG obtained documentary evidence that OHR was asked in July 2007 to
 assist Norris's supervisor, Steve Korotash ("Korotash"), with developing a proposed
 disciplinary action against Norris for sending inappropriate e-mails to Mr. Cuban through
 the SEC e-mail system. 16 Exhibit 58 at 1. In an e-mail an OHR official sent to another
 OHR official about Norris's proposed suspension, he described the Norris/Cuban e-mail
 exchanges as containing "a number of politically charged e-mail exchanges between Mr.
 Norris and Mr. Cuban between March 28, 2007 and May 5,2007, that Mr. [Norris]
 eventually forwarded to Chairman Cox." Id. at 2. According to OHR, some of the Norris
 e-mails were found to be "inappropriate and derogatory." Id. ORR also noted, "There
 was no indication Mr. Norris knew of or was involved in any investigation of Mark
 Cuban." Id.

          On August 7, 2007, Norris was issued a notice of a proposal from his supervisor,
 Korotash, to suspend him without pay for 14 days for his misuse of government e-mail
 for sending several inappropriate, derogatory e-mails to Mr. Cuban in M.arch and May
 2007. Exhibit 59. The proposal noted that Norris had been previously suspended for one
 day for sending inappropriate e-mails.Id.atl& 2. The proposal stated that Norris's
 conduct of sending e-mails to Mr. Cuban reflected poorly on him and the SEC and "has
 an adverse impact on morale, productivity and the maintenance of proper discipline, and
 it therefore cannot be tolerated." Id. at 2. On August 28,2007, Romero, then director of
 the Fort Worth Office, determined that the reason and specifications outlined in the

 16 It therefore appears no action was initiated against Norris until July, although Friestad and presumably
 OHR received the e-mail exchanges in May.



                                                       31
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

proposed suspension were fully supported, and ordered that Norris be suspended from
work and pay for 14 days. Exhibit 60. Norris completed his suspension in November
2007. Exhibit 61.

        On May 22,2009, Norris's removal from federal service was recommended based
on the e-mail exchanges with Mr. Cuban and similar, additional misconduct he engaged
in afterward. Exhibit 62. In that proposal, Korotash recommended Norris be terminated
because he had sent several unauthorized and inappropriate e-mails, including: (1) to a
defense counsel in September 2006, (2) to Mr. Cuban in 2007, (3) to a colleague in
August 2007 after he was put on notice of his proposed suspension for the inappropriate
e-mails to Mr. Cuban, (4) in September 2008 when he sent The Washington Post an
e-mail from his SEC account making partisan political statements, and (5) to another
colleague in October 2008. Id. at 1-4. In addition, the proposal noted that Norris had
shared hi~ly confidential information in October 2008 with a Receiver and his
counsel. l Id. At that time, Norris was placed on administrative leave until his removal
from feder~ service became effective August 28,2009. Exhibit 63.

            E.    The Wells Call and Process

          The OIG found that Enforcement had conducted significant investigative work
before the Wells notice was provided on May 23, 2007. Specifically, the Enforcement
staffhad 1) conducted interviews of Witness 1 Witness 1 Mark Cuban, Guy Faure, and Witness 2
Witness 2
            2) obtained proffers from the other Mamma.com board members; as well as 3)
taken investigative testimony of Guy Faure and Mark Cuban, the two participants to the
relevant telephone call. Moreover, as discussed in Section I.C., the Enforcement staff
had obtained important documents including Mr. Cuban's trading and telephone records,
the timing of the announcement of the PIPE deal with Mr. Cuban's trades, and the so-
called "contemporaneous" e-mails from Witness 2        about the Faure/Cuban telephone call
that same day and the following day.

      On May 15,2007, Friestad informed then Deputy Director of Enforcement Peter
Bresnan the Enforcement staff planned"... to make a Wells call to Mark Cuban, the
owner of the Dallas Mavericks, for engaging in insider trading." Exhibit 64.


17 The memorandum noted that before initiating the proposed removal actio~ Korotash had considered
many factors, including Norris's 17 years of federal service, but found:

                  You repeatedly have been warned and disciplined about your improper
                  use of your government computer by sending unauthorized and
                  inappropriate e-mails. Despite all of the warnings and prior discipline,
                  you continue to exercise poor judgment in your use of the SEC's e-mail
                  system. I have lost confidence in your judgment and your ability to
                  protect the integrity of the SEC computer network. Your repeated
                  actions adversely affect the public's confidence in the Commission's
                  integrity and your colleagues' confidence in you. Moreover, your .
                  actions affect the ability of the Commission to accomplish its mission.

[d. at 5.


                                                      32
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector Gene~al's approval.

                  1.       The Wells Notice to Mr. Cuban's Counsel

         On May 23, 2007, the Enforcement staff made the Wells notice by telephone, and
then by letter, to Mr. Cuban's counsel, Paul Coggins and Kiprian Mendrygal ofFish &
Richardson. Exhibits 65 & 66. Friestad, Assistant
                                          Director 1
                                                     Attorney 3
                                                                and Attorney 1 all participated in
that telephone call. Exhibit '65. According to an outline prepared by the Enforcement
staff before the Wells call, Enforcement intended to tell Mr. Cuban's counsel that they
planned to recommend to the Commission an enforcement action against Mr. Cuban,
charging him with violating Sections 17(a) of the Securities Act of 1933 and 10(b) of the
Securities Exchange Act of 1934 and Rule 10b-5 thereunder. ld.

        On the same day of the Wells call, Coggins and Mendrygal prepared a
memorandum to Hart ("Hart memorandum"), Mr. Cuban's initial counsel in this matter,
outlining what had happened in that call. Exhibit 67. In $e Hart memorandum, Coggins
and Mendryg81 stated that Enforcement staff told them they intended to recommend to
the Commission that civil litigation be instituted against Mr. Cuban based on the above-
outlined violations of the federal securities laws. ld. at 1. According to the Hart
memorandum, Attorney 1 described the facts that formed the basis for the SEC's proposed
complaint, including that on June 28, 2004, Guy Faure, the CEO of Mamma.com,
notified Mark Cuban about an impending PIPE transaction, and that the PIPE was
confidential, non-pUblic information. ld. In addition, according to the Hart
memorandum, Attorney 1 stated that Faure created "contemporaneous supporting
documentation" memorializing the telephone conversation with Mr. Cuban. ld. Attorney 1
also told Coggins and Mendrygal, according to the memorandum, that" ... the SEC had
determined that Mark Cuban had a duty to keep the PIPE information confidential, and
breached this duty by selling his Mamma.com stock before the company issued the press
release." ld. at 2.

         Coggins testified he remembered that Attorney 1 did most of the talking during the
Wells call and that she seemed to be reading from a "script of some kind." Coggins Tr. at
9. He also recalled that Attorney 1 mentioned "a contemporaneous document." ld.
Mendrygal also testified that Attorney 1 the most junior person on the call, was
communicating on behalf of the SEC and "sounded like something that was being read
off of either notes or some sort of script." Mendrygal Tr. at 11. Coggins further testified
about the purpose of the call, "They had reached a conclusion that they were going to
institute a lawsuit and that they had the evidence they thought that would warrant a
lawsuit. It was really not to receive any feedback from ~s, just to notify us of the Wells
Notice and to tell us that if we were going to file a response we needed to tell them by a
certain date." Coggins Tr. at 10 & 11. Mendrygal testified similarly, "I do remember the
gist of the call was the SEC's communication to us that they were giving us a Wells
warning, giving us the opportunity to file a brief in the Wells process. They had decided
to file charges against Mark Cuban." Mendrygal Tr. at 10.

       Friestad testified that Wells calls tend to be very short because they are a
summary way of letting defense counsel know that the staff intends to recommend
charges against their client. Friestad Tr. at 114. Friestad did not have a specific


                                                      33
 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
 this report should not disseminate or copy it without the Inspector General's approval.

 recollection of questions asked during that call, but thought that there had been some
 asked. Id. Attorney 1 testified that she prepared the Wells outline for the call and that she
 walked through the charges listed on the first page. Attorney 1 Tr. at 71-72 & Exhibit 65.
 Attorney 1
            also testified that the Wells call with Fish & Richardson was "pretty short."
 Attorney 1
            Tr. at 73. She also recalled that Coggins wanted details about the telephone call
 between Faure and Mr. Cuban. Id. at 72 & 73. According to Attorney 1 she recalled the
 Enforcement staff talking about having contemporaneous evidence. Id. at 74. Attorney 1
 testified that the evidence would have been the Witness 2      e-mails which described the
 telephone call between Faure and Mr. Cuban, but that she and the Enforcement staff did
 not describe the details of that evidence during the call. Id. at 74 & 75. Rather, Coggins
 followed up on this point in an e-mail the next week, which is discussed in the section
 below. Id. at 75.

        According to Enforcement's Wells outline, they planned to infonn Cuban's
 counsel of facts supporting the recommendation, including the telephone cal
                                                                                 LE/WP
                       hibit 65. In addition, the outline had a section entitled,
LE/WP



                 LE/WP




                                                    Attorney 1
 Id. According to the Hart memorandum t         told them they could make a Wells
 submission in response to this recommendation, that the proposed deadline for it was
 June 14, 2007 although it is common to grant extensions of time, and that the submission
 could not exceed 40 pages. Exhibit 67.

                   2.       Mr. Cuban's Counsel's Request for Evidence

         On June 1, 2007, Attorney 1 e-mailed Friestad, Assistant
                                                        Director 1 and Attorney 3 saying that
 Coggins intended to make a Wells submission and that she had extended the deadline two
 weeks, to June 29,2007. Exhibit 68. In addition, Attorney 1 told them that Coggins wanted
 to see: (1) the corroborating documents mentioned on the Wells call and (2) the
 telephone records of the Faure/Cuban call. Id. Attorney 1 added, "He wants the
 corroborating documents, he ·says, because this is going to come down to he said, he said
 and since there is no NDA [non-disclosure agreement] or confinning e-mail from Guy to



                                                       34
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties~ No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

Cuban, he wants to see what it says, . . .. I told him that my instinct was that we were
unlikely to show these to him since it would be previewing litigation if this goes that.
route ...." Id.

         Friestad e-mailed in response:

                  I would vote no. The purpose of the Wells process is to
                  provide notice of the proposed charges (including a general
                  description of the facts that support them) and to give the
                  other side the opportunity to make a submission setting
                  forth the reasons why they think the enforcement action
                  should not be brought. Cuban was a key participant in the
                  key conversation and made the trades at issue. If there is
                  an innocent explanation for what happened, Coggins can
                  get that information from Cuban and put it in writing. We
                  are not required to demonstrate the strength of our case at
                  this point by turning over all of our evidence, nor are we
                  under any obligation to try to convince the other side we
                  are right.

Id. Assistant
    Director 1 agreed and e-mailed, in part, "I don't think we should provide the documents.
As I mentioned to Attorney
                     1     earlier, he isn't trying to 'sell' the settlement to his client, he's
just trying to assess litigation risk. That generally isn't a sufficient basis for me to open
up the investigative record to a potential defendant. I might feel differently after the Well
[sic] but for now I'd politely decline the request." Exhibit 69. Later that morning,
Coggins e-mailed Attorney 1

                  I want to reiterate my request for two items to assist us in
                  making the fullest and most factually accurate presentation
                  possible. First, I would like a copy of the so-called
                  corroborating document related to the alleged call between
                  Mr. Faure and Mr. Cuban. Second, I need information on
                  that call, including the numbers the call was made from and
                  to, the time of the call and its duration.

                  While you are not required to provide me with the above
                  infonnation at this stage, I hope that you will do so here ...


Exhibit 70. In response to the above-quoted e-mail from Coggins, Assistant
                                                                 Director 1                 wrote:
                 LE/WP




                  First, the fact that he calls it a 'so-called corroborating
                  document' and 'alleged call' suggests a level of distrust of
                  the staff that makes me think it wouldn't be a productive



                                                      35
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

                          exercise to open the books -- heck, his own client's e-mail
                          confirms that there was a call. And as for the Commission
                          making 'the right call,' well we don't need to give him the
                          documents to reach that result -- the Commission will get
                          an accurate assessment of the documents from the staff(it's
                          what we're here for).
       Assistant
Id.         testified about his e-mail saying, " ... I feel like most counsel that we deal
       Director 1

with are certainly experienced SEC counsel, there's a level of professional trust, that they
don't as an assumption, believe that we are making misrepresentations to them about the
evidence and I felt this request ran contrary to that." Assistant
                                                         Director 1 Tr. at 92-93.
             Assistant
                further testified that the Wells process is beneficial to the a,gency in a
             Director 1

number of ways, including that the Wells submission is an admissible statement of a
party opponent in litigation and ''very often comprises the first fully articulated statement
of the defendant's position that the Commission has." Assistant
                                                          Director 1 Tr. at 89. He explained
that they can be "extremely effective because you get a defendant's unvarnished view of
what happened at a moment where they don't have all of the evidence before them and
they're only relying on their best recoIIection." ld. And, according to Assistant
                                                                              Director 1 there was
a chance here that Mr. Cuban may craft his statements around the evidence provided to
him. ld. at 90.

        In response to a question about whether providing Mr. Cuban's counsel with
evidence that the call between Mr. Cuban and Faure happened would put them in a better
position to defend Mr. Cuban during the Wells process, Assistant
                                                        Director 1 testified,

                          I don't think so. ... they could come up with a number of
                          reasons why they think the call wasn't what it was, but
                          Cuban didn't even remember the call, he didn't even know
                          that it happened. You would run the risk, and some say in
                          a case like this it would be an actual risk, that you could
                          affirmatively harm your record if people make improper
                          use of the information that as a courtesy you share with
                          them.
Assistant
Director 1   Tr. at 88.

           The Enforcement staff decided not to give Coggins the requested documents. IS
Assistant
Director 1 Tr. at 91; Attorney 1 Tr. at 82; Friestad Tr. at 120-122. Friestad explained why the
staff decided not to provide the documents to Mr. Cuban's counsel:

                          ... you have to understand the context of where we were at
                          the time. . .. , Mr. Cuban had lied to the staff during his
                          initial interview. He told the staff that he had never had

18 Although later, as discussed in Section I.H.l., during the Wells meeting held on July 19,2007, the team
showed Coggins the telephone record of Mr. Cuban calling Faure on June 28, 2004. Exhibit 71. at 2.


                                                      36
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

                      any communications with anybody from Mamma.com
                      about the PIPE offering. That means his statement to the
                      staff was he never spoke to Guy Faure about the PIPE
                      offering. . ... Our view was having lied to the staff, that
                      put him in a very bad spot. That's why we followed up
                      fairly quickly to take his testimony on the record, to lock in
                      that story. During teStimony, he changed his story. At that
                      point his testimony was he didn't recall whether he spoke
                      to anybody from Mamma.com.

Friestad Tr. at 120-121. Friestad further explained that because of Mr. Cuban's initial
interview being inconsistent with the factual record, "this presented a situation where we
tried to be careful in tenns of what infonnation we share with defense counsel, because of
concern about them tailoring their testimony to what they think we know." Id. at 121-
122.
         Attorney 1
               explained that the Enforcement staff did not provide the requested
documents to Mr. Cuban's counsel, "Because there was no reason to do it. ... he had
equal access to the information on his client's end. And for the board e-mails, we didn't
see any reason to do that." Attorney 1 Tr. at 82. Attorney 3 told the OIG he did not recall a
discussion about whether to provide the documents requested by Coggins, but added that
in Enforcement you "don't always or even ordinarily" disclose all documents and that it
is not the nonnal practice to put every piece of evidence on the table. Exhibit 17 at 6.

                      3.     The First Wells Submission

         On June 29, 2007, Coggins filed a Wells submission on behalf of Mr. Cuban.
Exhibit 72. That day, Coggins e-mailed Attorney 1 to let her know the Wells brief for Mr.
Cuban would be submitted that afternoon, and in an accompanying letter requested a
meeting with Enforcement Director Thomsen prior to the submission of the Wells brief
that afternoon. Exhibit 73. The letter stated,

                      As you are aware from our prior discussions, we strongly
                      believe the Staff should not recommend an enforcement
                      action against Mr. Cuban. Should the SEC still be inclined
                      to do so after reviewing our submission, we respectfully
                      request a conference with Ms. Linda Thomsen, Director of
                      Enforcement, to discuss the legal and factual hurdles faced
                      by the SEC in this case, prior to the presentation of the
                      matter to the Commissioners.

Exhibit 72 at 1. In addition, Coggins also submitted another letter to Thomsen stating,

                      In short, this case boils down to a "he saidlhe said" action
                      between Mr. Cuban (a reputable and law-abiding citizen)
                      and Mamma's fonner CEO Guy Faure (an interested and



                                                      37
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

                          non-credible party who has been investigated by the SEC
                          and sued for securities fraud by his shareholders). Under
                          these facts, it is highly unlikely that a fact finder will find
                          Mr. Faure's testimony credible.

Id. As discussed in Section I.H., Thomsen and the Enforcement staff did not honor this
request for a same-day meeting, but did meet with Coggins and Mendrygal
approximately three weeks later on July 19,2007.

        The Wells submission filed on June 29,2007 argued that Faure's recollection of
the telephone conversation with Mr. Cuban was contradicted by Mr. Cuban. Exhibit 72.
Specifically, they argued that "Mr. Cuban does not recall any 90nversation with Mr.
Faure" and that, "As Mr. Cuban has already stated under oath, if there was a
conversation, Mr. Faure did not state that the PIPE infonnation was confidential and did
not ask Mr. Cuban to keep the infonnation confidential (nor did Mr. Cuban agree to do
so)." Id. at 10,22 & 23. Coggins also claimed that Mr. Cuban was attending a charity
golf tournament on June 28,2004. Id. at 9.

             F.           Trial Counsel Gets Appointed to Case

           Friestad explained that a trial attorney is often not appointed to a matter until after
the initial Wells call, and in this case, that was sometime in June or July of 2007.
Friestad Tr. at 106. On July 11, 2007, Attorney 1 e-mailed Lou Mejia ("Mejia"), then Chief
Litigation Counsel and head of the trial unit in Enforcement, a copy of the Cuban Wells
submission. Exhibit 74. The following day, Mejia forwarded that e-mail to Attorney 2
Attorney 2
               an Assistant Chief Litigation Counsel. 19 Id.
             Attorney 2
                    recalled Mejia asking him to work on the Cuban matter about a week or
two prior to the Wells meeting. Attorney 2     Tr. at 10-11. He recalled Mejia approaching
him in the hallway and telling him he had a case for him and saying something to the .
effect of the matter needing "someone like [him] to look at." Id. at 11. Mejia
remembered assigning Attorney 2     to the Cuban matter, but did not recall who in
Enforcement requested a trial attorney or when that occurred. Mejia Tr. at 11. Mejia
testified that he decided to assign Attorney 2  to the Cuban matter because, "He was one of
the best trial attorneys, and he had the time." Id. Mejia had worked at the SEC in the
trial unit for approximately ten years, from November 1999 until December 2009. Id. at
7. Mejia testified he conducted perfonnance evaluations of Attorney 2     and found him to
be an outstanding attorney, and rated his abilities "at the top" of the other 35 Assistant
Chief Litigation Counsels. Id. at 9-10.

         On July 16,2007, Attorney 1 e-mailed Attorney 3    "MC -- Attorney 2 Attorney 2 is trial
attorney." Exhibit 75. That same day, Attorney 2         e-mailed Assistant
                                                                  Director 1  copying Mejia,
stating:


     Attorney 2
19          testified that he began working at the Commission 24 years ago in the same position in
Enforcement's trial unit. Attorney 2 Tr. at 7-8.


                                                         38
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

                       I am looking at the Cuban Wells. Can you forward me the
                       long Cuban Wells outline?
                      LE/WP



                      LE/WP




                      LE/WP




                       Faure testified that at the end of June 2004 the board
                       decided to contact Cuban and told Faure to preface the
                       conversation by informing Cuban that MAMA had
                       confidential info to convey to him -- --
           LE/WP




Exhibit 76. Attorney 2        testified that fairly early on he had answers to the first couple of
questions LE/WP                                                   Attorney 2
                                                                             Tr. at 24-25.

         Assistant
                 testified that some additional steps were taken after the Wells call was
         Director 1

made in the Cuban matter saying, "in part some of the steps were taken because trial
counsel had wanted certain additional steps taken." Assistant
                                                        Director 1 Tr. at 68. According to
Friestad, "If they [trial counsel] think there are additional facts we should have or
additional evidence we should have, we'll work with them to obtain it." Friestad Tr. at
106.

         G.            The Pre-WeDs Meeting
                                                                                  Attorney 2
        On July 18, 2007, Friestad, Assistant
                                     Director 1
                                                 Attorney 3 Attorney 1
                                                                       and        all met with
Director Thomsen in her office to prepare for the Wells meeting to be held the following
day. Friestad Tr. at 73; Exhibits 48 & Exhibit 77. Attorney 1 testified she did not recall
anything about that meeting, although she did recall preparing a chart of the Wells
arguments made by Coggins and the Enforcement staffs responses to those arguments,
"to prepare [her] bosses for this meeting with [Coggins]." Attorney 1 Tr. at 89 & Exhibit 78.
As outlined in that chart, Coggins and Mendrygal' s principal argument in the Wells
submission was that Guy Faure was not a credible witness. Exhibit 78. Attorney 2
recalled getting a copy of the chart Attorney 1 prepared, as well as meeting with Thomsen to
prepare for the Wells meeting the following day with Coggins. Attorney 2        Tr. at 31-32.

         Attorney 2                                                          Attorney 3        LE/WP

LE/WP




                                                      39
  This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
  disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
  this report should not disseminate or copy it without the Inspector General's approval.

LE/WP




           The OIG found that during this meeting Thomsen and Friestad infonned the
  Enforcement staff about the Norris/Cuban e-mail exchange for the first time. Friestad Tr.
  at 73; Exhibit 48 at 2. Attorney 1 testified, "I believe we -- the team met with Linda Thomsen
  to prep her for the Wells meeting, and I think she said something to the effect, 'Just FYI,
  you may hear about something tomorrow related to somebody sending e-mails to
  Cuban.'" Attorney 1 Tr. at 36-37. Attorney 1 elaborated, "It was a very generic comment that
  there's -- somebody has been e-mailing -- I don't even know if she said e-mailing.
  Maybe she said, 'Contact.' It was a very generic comment ...." ld. at 39. Attorney 2
  testified, "I remember talking generally about the case. The one thing I particularly
  remember is for the first time I heard something about Jeff Norris." Attorney 2      Tr. at 32.
  He then clarified his testimony, "I can't say for sure she mentioned the name." ld.

           According to Attorney 1 she understood Thomsen was telling them about the
  Norris/Cuban e-mail exchanges because if somebody at the Commission was e-mailing
  Mr. Cuban, it might cause a problem for the case, but "I remember leaving [the meeting],
  thinking the person had probably been doing something that was inappropriate but ... I
  left sort of thinking, 'What was that about?'" Attorney 1 Tr. at 37. Similarly, Attorney 2
  testified since the Enforcement staff did not receive much in the way of particulars about
  the communications with Mr. Cuban, his reaction. to learning this was "more
  puzzlement." Attorney 2      Tr. at 34. Attorney 1 testified she did not see the Norris/Cuban e-
  mails until they were submitted with Mr. Cuban's second Wells submission in September
  2007. Attorney 1 Tr. at 38-39. Similarly, Attorney 2      testified " ... 1 don't think 1 knew
  anything else about it until a point in time later." Attorney 2         Tr. at 33. Attorney 1 told the
  OIG Friestad never spoke to her about the Norris/Cuban e-mails.ld.at 38.

           Attorney 3
                     told the OIG he remembered being told about the e-mail exchanges
  between a trial attorney in the FWRO and Mr. Cuban. Exhibit 17 at 7. Attorney 3 did not

                                LE/WP

LE/WP                                                                                           Attorney 3


                                                                                                     Attorney 3


                                                         Attorney 3
                                                                                                       Attorney 3

                                                                                   Attorney 3


                        Attorney 3


                                                                              Attorney 3


                                     Attorney 3
LE/WP
                                    Id. Regulation FD provides that when an issuer discloses material non-
 public information to certain individuals or entities the issuer must make public disclosure of that
 information. http://www.sec.gov/answers/regfd.htm.


                                                        40
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

know who Norris was at the time. Id. He explained that even when he was told about the
e-mails.hewasstillunawareofthetruesubstanceofthem.Id. In fact, he said he
initially thought the e-mails involved "crazy [basketball] fan type of stuff." Id. Attorney 3
also said that he later learned that fonner Chairman Cox was copied on these e-mails, but
did not remember when he learned that. Id.

         H.       The Wells Meeting

        On July 19, 2007, Thomsen, Friestad, Assistant
                                                 Director 1
                                                            Attorney 3 Attorney 1
                                                                                  and Attorney 2
met with Coggins, Mendrygal, and a summer associate from Fish & Richardson. Exhibit
71. Mr. Cuban alleged that at that meeting, Enforcement staff "gave the appearance that
the staff's early initiation of the Wells process might have been motivated by a
preconceived notion of Mr. Cuban's supposed culpability." Exhibit 1 at 2. He further
alleged that at the Wells meeting the Enforcement staff repeated its intention to
recommend charges against Mr. Cuban, expressed confidence in its conclusion that Mr.
Cuban should be charged, and "dismissed as 'noise' and 'irrelevant' the various defenses
and evidence tending to exonerate Mr. Cuban that Fish & Richardson pqihted out." Id. at
2 & 3. He added that the Enforcement staff refused to explain why it disagreed with the
defenses and evidence presented by Fish & Richardson. Id. at 3.

         Coggins testified that this was requested by Fish & Richardson because,

                  This is kind of a he saidlhe said situation and there is just a
                  tremendous amount of material. that challenges the
                  credibility of Guy Faure and we want to present that. ...
                  and we wanted to have this meeting, in part, 1 wanted to
                  test them and find out if they really did have the supporting
                  documentation they claimed they had. . .. We were trying
                  to talk them out of going further in the Wells process.

Coggins Tr. at 16.

        Friestad confirmed that he attended the Wells meeting, which was held at SEC
headquarters. Friestad Tr. at 145. Friestad recalled that the meeting was held because
Coggins had requested it, and that as a result the Enforcement staff usually "give them
the floor" to make their presentation. Id. at 146 & 148. Friestad added, "I didn't think
the Wells submission was particularly persuasive.,,21 Id. at 147. Friestad remembered
that the general focus of the presentation made by Coggins and Mendrygal at the meeting
was that Faure was not a credible witness. Id. According to Friestad, Coggins and
Thomsen did most of the talking during the meeting, but he also testified he was "pretty

21 Friestad testified that the purpose of the Wells meeting is generally for defense counsel to "advance
arguments to present their case" and has found that in the sixteen years he's been attending Wells meetings,
they "tend not to be particularly productive." Friestad Tr. at 148-149. Although, Friestad told the OIG
"there are plenty that I've listened and considered arguments and defenses that people have raised, and
either modified the recommendation to drop certain charges or certain sanctions and remedies ... or in
some cases, to drop the case altogether." Id. at 149.



                                                      41
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

sure" that others on the Enforcement staff also "responded to different points." ld. at
148. Coggins also testified that he and Thomsen did most of the talking. Coggins Tr. at
17.

        Friestad, Attorney 2      Assistant
                                  Director 1
                                             Attorney 3
                                                         and Attorney 1 all told the OIG that the Wells
meeting was professional and cordial. Friestad testified that the tone of the Wells
meeting was "very nonnal" and that he did not recall any yelling or screaming or raised
voices. Friestad Tr. at 149. Attorney 3          told the OIG he attended the July 19, 2007 Wells
meeting, but could recall few details of the meeting, other than the meeting was
professional and not overly adversarial. Exhibit 17 at 7. He added that Mr. Cuban's
counsel were zealous advocates and that there was back and forth between both sides at
the meeting. ld. Attorney 1 testified that the Wells meeting with Coggins was" ... a very
collegial meeting, except for the bizarre response to the phone record," discussed in
Section I.H.1. below. Attorney 1 Tr. at 97 & 100. Assistant
                                                          Director 1 testified he thought the meeting
was "pretty civil." Assistant
                       Director 1 Tr. at 102. Attorney 2       characterized the meeting was a
"businesslike exchange of ideas and positions." Attorney 2                Tr. at 76.

        Mendrygal testified that he thought the meeting was "tense." Mendrygal Tr. at
26. He stated that the fact that there were six SEC staff and officials and three attorneys
on their side, along with the fact that it was a high-profile client, added to the atmosphere
being tense. ld. Mendrygal recalled that this particular meeting was "one of the more
serious meetings I've been a part of with the SEC." ld. at 18. He explained that he .
thought it was more serious for two reasons: (1) the seniority of the people who attended,
and (2) the fact that there was "not a lot of exchange of, you know, concessions or, you
know, accepting each other's [view] points." ld. at 19. Coggins testified that "the only
time voices were raised was Linda Thomsen raised her voice a couple of times." Coggins
Tr. at 19. Mendrygal testified that he took handwritten notes at the Wells meeting, and
then prepared a memorandum to the file the following day. Mendrygal Tr. at 17.

                      1.         The Enforcement Staff Showed Mr. Cuban's Counsel the
                                 Relevant Telephone Records
         Attorney 2        Assistant
                            and Attorney 1 testified that one particular thing about the Wells
                           Director 1

meeting stood out to them -- Coggins' reaction when the Enforcement staff gave him a
copy of the CubanlFaure telephone record. All of them testified that Coggins had a
strong reaction to seeing the telephone record, and left the room for several minutes
afterward. 22
         Assistant
         Director 1testified that Coggins, upon receiving a copy of the telephone record,
turned to his associate and exclaimed, "We know what this is," and then "sprinted out" of
the room. Assistant
           Director 1  Tr. at 85. Attorney 1 testified that the only thing she specifically recalled


22 In the July 20,2007 memorandum documenting the Wells meeting by Fish & Richardson, it stated the
following about the telephone record: "The SEC then showed us phone records demonstrating that MC
[Mark Cuban] placed two calls to Mr. Faure on June 28, 2004, including one eight minute conversation.
The SEC said this was a long, substantive conversation that involved an explicit confidentiality
agreement." Exhibit 71.


                                                      42
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction bas been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

about the Wells meeting was Coggins' respons~ after the Enforcement staff handed him
the record of the telephone call between Mr. Cuban and Faure, which Coggins was "still
insisting that he didn't believe ... had occurred." Attorney 1 Tr. at 97. Attorney 1 explained:

                          He [Coggins] popped out of his chair like someone had
                          shot him and immediately adjourned the meeting, ran out
                          into the hall with his associates and then came back in after
                          10 minutes ... and said essentially about the phone record,
                          'I know what this is, and we'll deal with this at trial,' or
                          something like that. 1 thought that was bizarre, so that's
                          what 1 remember from that meeting.
Attorney 1
        Tr. at 97-98. She further testified that she took this reaction to mean that he was
shocked to see the telephone record from the basketball arena where Mr. Cuban made the
call to Faure, instead of from the charity golf tournament they had been alleging. Id. at
98. Similarly, Assistant
                Director 1 testified that this appeare~ to be the first time Mr. Cuban's counsel
received an "iron-clad confirmation ... that the conversation even happened," but that
the Enforcement staff never did hear any explanation for the telephone record which
Coggins had implied they had. Assistant
                                      Director 1 Tr. at 85-86.
             Attorney 2
                   remembered the Enforcement staff showing Co·ggins the telephone
record of the call between Mr. Cuban and Faure during the Wells meeting, and described
Coggins' reaction to seeing it:

                          ... he [Coggins] went apoplectic .... They went crazy.
                          . . . my take on it is . .. He had been told that there was not
                          a phone call, and so he had been arguing that he saw a
                          record. And 1 think it must have been then that he started
                          saying, oh, that he was at a golftoumament. And it was
                          pointed out to him that no, this was a phone call from the
                          American Airlines Center, so he wasn't at a golf
                          tournament. ... he took a break. They went out in the
                          hall, he and his associate.

                          And he came back in, and then at some point said, ... 'I
                          think it was Linda [Thomsen] said, 'We would .... like to
                          know if there's additional information we ought to take into
                          account here.
Attorney 2
           Tr. at 72-73. According to Attorney 2  Coggins responded that they had
~dditional information, but were going to wait to use it later. Id. at 73.


             Mendrygal explained the reaction as follows:

                          Our understanding of the facts was that the SEC was
                          alleging that Mark Cuban had a phone call at a certain'time



                                                        43 .
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

                  on a certain date with Guy Faure where this alleged
                  confidential information was communicated. It was our
                  understanding, based upon trying to piece together Mark's
                  schedule on the date that the phone call supposedly
                  occurred, is that he would have been out of the office at a
                  golftoumament that day. And so we scoured certain phone
                  numbers that would be likely candidates for this phone call
                  to take place from, so we could get an idea of when it took
                  place, how long it took, and those sorts of things. It turns
                  out they showed us a phone number that they believed that
                  the phone call came from.that wasn't the phone number we
                  were expecting.

Mendrygal Tr. at 22 '& 23.
                          Attorney 2
                  2.                        Comment About Mr. Cuban Taking Irrational
                                            ks

           Mr. Cuban alleged that there was "an apparent violation of the SEC's standard of
conduct toward parties and their counsel" when Attorney 2    stated during the Wells
meeting, "Mr. Cuban takes irrational and silly risks every day" and that Mr. Cuban's
alleged actions of selling his Mamma.com shares after learning about the PIPE offering
were consistent with that. Exhibit 1 at 3. Mr. Cuban's counsel described making the
argument, during the Wells meeting, that it would be illogical for Mr. Cuban to have
risked his reputation on the relatively small amount of money that the Enforcement staff
claimed Mr. Cuban had saved by engaging in his alleged insider trades, and that
Attorney 2
             made this comment in response. Id. Specifically, Mr. Cuban alleged that
Attorney 2
               comment was not "temperate" or "impartial," as required by 17 C.F.R. §
200.69, and that it showed a "preconceived notion of Mr. Cuban" and a "propensity to
prejudge him without regard for the facts." Id.

       Mendrygal testified that he quoted Attorney 2 in his notes, and later memorandum,
because "it struck me as something to write down in as accurate a detail as I could."
Mendrygal Tr. at 23. He testified,

                  It's certainly not the meanest thing anyone's ever said to
                  me. And so on the grand scale of things that you hear as a
                  lawyer, it's not that big of a deal. But I mean it wasn't
                  something that 1 thought was particularly appropriate.

Id. at 25. Coggins testified that he recalled a male at the meeting making a comment to
the effect of, "your client takes crazy risks all the time," in response to an argument about
how Mr. Cuban would not risk his credibility and reputation for such a small amount of
money. Coggins Tr. at 20. Coggins could not recall whether it was Attorney 2       who made
the comment, and only remembered that it was a male. Id. at 21. He further testified, "I
just thought it was almost kind of a ridiculous statement to say." Id.



                                                      44
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.



         Mr. Cuban testified as to his impression about the alleged comment by Attorney 2
that he takes irrational and silly risks every day, "That's crazy. I mean I didn't
understand it. I mean what does he base that on?" Cuban Tr. at 35. Mr. Cuban also
testified,

                          ... it's very scary that the person that was casting personal
                          aspersions on me was going out there and conducting the
                          interviews, because, I mean, you asked just based on
                          business experiences. If you've already come to a
                          conclusion, you're only going to be looking for infonnation
                          that supports your conclusion; and I don't think there's any
                          question that that happened by Attorney 2 Attorney 2 Linda
                          Thompsen [sic], and all those who were involved.
                                                       Attorney 2
Cuban Tr. at 37. According to Mr. Cuban,                            should recuse himself from the
case. Id. at 39-40.
             Attorney 2
                   recalled Coggins making the argument about why would Mr. Cuban
risk so much for so little, and admitted that he responded with whatever word Coggins
used, as was his usual practice, and generally recalled that the word was irrational.
Attorney 2
           Tr. at 81-82. He explained:

                          There was a comment made. The whole discussion took
                          probably no more than 60 seconds, maybe closer to 30
                          seconds. . .. What Coggins, a litigator said, discussing
                          litigation risk, as he was raising what I call the 'John
                          Connolly'defense: Edward Bennett Williams, how he
                          defend~d John Connolly in a criminal trial ...


                          Why would he risk everything he had and his reputation for
                          whatever the number of dollars were then? I heard him say
                          it. I don't recall it was in the Wells. . .. And I
                          immediately thought, well, you know. Wait a second. I
                          mean John Connolly. . .. I knew of Cuban, generally, from
                          his self-created, celebrity persona.

                          I've seen him on TV, you know. I've read about him, and
                          it was not a button-down reputation. And ... Coggins said
                          -- I used his word as I recall. It would have been irrational
                          for him to do this. I used his word and said that he does
                          irrational. I don't remember 'silly,' but I understand there
                          are notes to that affect. ...
Attorney 2
            Tr. at 81-82. According to Attorney 2 this was a back and forth between
litigators. Id. at 83. He added that Mr. Cuban's self-created persona is of someone who



                                                       45
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

does things of an unusual variety, and that is what he was referring to. ld. In addition,
Attorney 2
            testified, "and being an advocate, a lawyer that's used to dealing with other
litigators back and forth, 1 made my comment." ld. at 86.
              Attorney 2
                   also noted that no complaint was ever made about him making that
comment until after the litigation was filed and "somebody's out to go comb the notes,
find anything they can, and comes up with that. ..." ld. at 83 & 88. He pointed out that
Linda Thomsen was there and that she made no complaint about it. ld. at 83. He
surmised that the reason no complaint was ever made was because "it was done
professionally as part of an exchange between lawyers and litigators in particular.,,23 ld.

            None of the other attendees of the Wells meeting recalled Attorney 2            making this
comment, although they did not specifically deny that it was said either. For example,
Attorney 1
           testified that while she had seen the allegation made about Attorney 2            she did not
remember the exchange, but had no reason to think it did not happen. Attorney 1 at 45.
Assistant
Director 1  testified that he was familiar with the allegation against Attorney 2          but stated, "I
actually have no recollection of that happening." Assistant
                                                         Director 1 Tr. at 102. Attorney 3      told the
OIG he had no specific recollection of Attorney 2       being at the Wells meeting, and did not
remember him making a statement that Mr. Cuban takes "irrational and silly risks every
day." Exhibit 17 at 7. Friestad testified, "I don't recall that. I've seen it raised in
different court papers by Mr. Cuban's lawyers." Friestad Tr. at 156.

           Similarly, no one on the Enforcement staff indicated that they believed that, if
Attorney 2
             did make this comment, it would have been inappropriate. When asked if
Attorney 2
             did make that comment whether it would be inappropriate, Attorney 1 testified,
"No.... Because it's sort of a back and forth with counsel in the discussion about the
merits or weaknesses of the case." Attorney 1 Tr. at 45. Likewise, Assistant
                                                                    Director 1 testified in
response to that question, " ... 1 feel like it's kind of the back and forth that people have
at these meetings." Assistant
                        Director 1 Tr. at 103. He added,

                           1 read the allegation, 1 was sort of so-whaty about it. I
                           don't know if Attorney 2 said it or not said it, 1 don't think it
                           evidences bias against Mr. Cuban or that we're in the
                           business of suing people because they took a specific risk
                           and it was a violation of the securities laws.

ld. at 104. According to Attorney 3  if a statement like that were made he would look at it
as "litigation banter .... tough guy back-and-forth talk." Exhibit 17 at 7. Attorney 3
noted that Mr. Coggins, a Texas lawyer, had been a trial attorney like Attorney 2      ld.
Friestad testified, "That's probably not what I would have said, but I didn't view it as
inappropriate if it happened." Friestad Tr. at 156.

     Attorney 2
23            also testified that, just a month or so after he was alleged to have made this comment, Mr.
Cuban's own counsel admitted, in their testimony of Witness2
                                                                2Witness 2
                                                                           that Mr. Cuban can be mercurial.
Attorney 2                          Witness 2
           Tr. at 84-85. In fact,             testified to Mr. Cuban's counsel Stephen Best ("Best"), that Mr.
Cuban is "fairly mercurial and unpredictable," and Best responded, "That's fair to say." Exhibit 79.



                                                           46
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.


             Attorney 3
                 added that in every single case with a famous person, the defense
counsel makes the same argument of why would their client risk eveiything for such a
small amount. Exhibit 17 at 7-8. Assistant
                                 Director 1 testified similarly,

                          ... this argument that it didn't make economic or rational
                          sense for somebody to engage in "x," insider trading,
                          anything, you hear in every case. And, you know, our view
                          -- I mean I've had insider trading cases against a lawyer
                          who made like $16,000, he was a partner at a major law
                          finn and I've had cases against a billionaire who made a
                          couple hundred thousand dollars or maybe it was more than
                          that but it was not quantitatively material to his or her net
                          worth and everybody says the same thing, 'Why would I
                          possibly do that?' So I can't say that argument that it's not
                          rational was that compelling and if someone stood here and
                          said, 'You said that at the meeting,' I would be like, 'All
                          right, maybe I did," not the silly and irrational but the idea
                          of, you know, that's not normally the basis in which white
                          collar crime is committed. Sometimes, but not regularly.

Assistant Director
1                    at 103.

                          3.     Thomsen's Alleged Dismissive Response to Mr. Cuban's
                                 Counsel's Argument

        Mr. Cuban also alleged that in the Wells meeting, Thomsen gave the appearance
that the Enforcement staffs early initiation of the Wells process might have been
motivated by a preconceived notion of Mr. Cuban's supposed culpability. Exhibit 1 at 2.
Specifically, in the file memorandum prepared by Fish & Richardson on the day
following the Wells meeting, it stated that in response to Coggins arguing that there were
credibility issues surrounding Faure, "Ms. Thomsen explained that 'This is a one-on-one
case -- if there was a confidentiality agreement, we win. If not, we lose.' Ms. Thomsen
then said that everything else Paul [Coggins] discussed is 'noise.'" Exhibit 71 at 2.
Coggins, according to the file memorandum, argued that it was not just "noise" because
the SEC admitted this was a credibility contest between Mr. Cuban and Faure. Id.· The
SEC responded, according to the file memorandum, that this information by Coggins was
irrelevant. Id.

              Mendrygal testified that at the Wells meeting,

                          ... Ms. Thomsen sort of let us get through our presentation
                          and said, well, you know, a lot of the stuff you guys are
                          raising is noise. The presentation -- or the response by the
                          SEC was seemingly focused on the fact that they weren't
                          concerned about our arguments about the lack of credibility



                                                        47
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

                  of their witness, because they had this contemporaneous
                  supporting documentation that was sort of extra chips in
                  their stack.

Mendrygal Tr. at 21. Coggins testified that he recalled during the meeting that Thomsen
responded to his argument that he had a lot of evidence challenging Faure's credibility
saying, "well this is just noise, you know. We don't need to hear any of this." Coggins
Tr. at 17.

           Neither Attorney 1 nor Attorney 3     remembered Thomsen saying, "That's just noise," in
response to Coggins questioning the credibility of Faure. Exhibit 17 at 7; Attorney 1 Tr. at
100. Attorney 3     added that it would depend on the context in which the statement was
made to determine whether such a statement would be inappropriate. Exhibit 17 at 7.
Attorney 2
              also testified that he did not recall Thomsen making that statement. Attorney 2
Tr. at 78. In addition, Attorney 2           told the OIG he did not remember "any dismissiveness
whatsoever" on the part of Thomsen. Id. at 80.
                         Assistant
       Friestad and      Director 1    however, did recall Thomsen making a comment like,
                         Assistant
"That's just noise."     Director 1   testified that there was nothing eventful about it and added,

                  ... the principal facts of this case at the time and to this day
                  depend on the conversation between Mr. Cuban and Mr.
                  Faur[e]. Mr. Cuban had no recollection; Mr. Faur[e] had a
                  reasonably good recollection. There were
                  contemporaneous corroborating documents that talked
                  about some of the salient details of that conversation. And
                  that I think it's true almost anything else to this case is
                  noise, so I remembered that discussion.
Assistant
       Tr. at 100-101. When asked what he understood the phrase "just noise" to mean,
Director 1
Assistant
       testified that means something is an ancillary issue to a case, "not what the case is
Director 1

about." Id. at 101. Assistant
                    Director 1 did not, however, recall to what comment Thomsen was
responding. Id. Friestad testified about what he remembered concerning Thomsen
making that comment:

                  As I recall, Mr. Coggins went on at some length about
                  some issues that we had viewed ... that were at the heart of
                  this investigation. And it might have been incorporated
                  into his Wells submission as well. I think it goes back to
                  what I said earlier about the credibility of Mr. Faure.

                  My recollection i         e went on at some length about an
                                    Subject
                  individual named          or Subject Subject or something like
                  that. And apparently, Mr. Cuban had some view, and
                  others may as well, that Mr. Subject who I think they told us
                  was some well-known stock swindler ... had some hidden



                                                     48
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

                      connection to Mamma.com. . .. And I think that if there
                      was something said by Linda about "That's noise" was
                      whether that was true or not doesn't have any bearing on
                      whether Mr. Faure is telling the truth about his dealings in
                      the conversation with Mr. Cuban.

                      . . . he wasn't a party to that conversation, you know,
                      nothing relevant to this investigation. He's not being called
                      as a witness in the case. I don't see any reason why he
                      would be, because he doesn't have any relevant
                      infonnation about whether there was a duty of
                      confidentiality, whether Mr. Cuban traded what was said,
                      what wasn't said, that sort of stuff, so that it sort of doesn't
                      really move the ball to understand the issues about whether
                      there was insider trading by Mr. Cuban.

Friestad Tr. at 151-152. Friestad testified that his reaction to Thomsen making that
comment was that it was truthful. Id. at 154. He added that she could have used a
different word,
           ,
                 like irrelevant,
                      .
                                  which was the import of what she was saying. Id.

         I.           Additional Investigative Work Conducted after the July 2007 Wells
                      Meeting

                      1.      Enforcement Staff Conducted Interviews of Mamma.com
                              Board Members
         Attorney 1
                      testified that the Enforcement staff interviewed the following Mammacom
board members in person after the July 2007 Wells meeting: Guy Faure; Witness 2
Witness 2      Attorney 33 Witness 3
               Witness                Witness 4 Witness 4
                                                          and Witness 5 Witness 5 Attorney 1 Tr. at 33-34.
According to Attorney 1 she traveled to Montreal to interview Witness 2                       Witness 3
                                                                                                        a
Witness 4                                                                                                Witness 5
             in early September 2007. Id. at 34. The Enforcement staff interviewed
Witness 5
           in New York City. Id. During the course of the investigation, Attorney 1 prepared a
two-page chart of individuals the Enforcement staff had taken testimony of or
interviewed. Exhibit 33. The chart listed Mamma.com board members and Witness 1
Witness 1
            and indicated that proffers were made by Witness 6 counsel to Mamma.com. Id.
According to Attorney 1 all of the proffers supported their case against Mr. Cuban. Attorney 1
Tr. at 65. Attorney 1 testified that the chart must have been prepared before she and
Attorney 2
                conducted the interviews of Witness 2              Witness 3
                                                                                and Witness 4 in Montreal,
because it indicated no interviews had been conducted. Id. at 63-64. Attorney 1 told the OIa
that she did not prepare interview memoranda from those interviews in Montreal. Id. at
64.

           In a July 20-23, 2007 e-mail chain initiated by Attorney 2       asking whether the
Enforcement staff had plans to take Witness 1 testimony or interview the VBS broker,
Attorney 1
           wrote, " Attorney 2 and I are going to Montreal to interview Witness 2  Witness 5
                                                                                             and




                                                       49
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

hopefully at least one BOD [board of director] member next Friday, 8/3.,,24 Exhibit 80.
In an August 2, 2007 e-mail entitled, "MAMA," Attorney 1 wrote Assistant
                                                               Director 1

                  LE/WP


                                                                   Attorney 2



                      Witness 2




Exhibit 82.
         Attorney 2
                    recalled that he traveled with Attorney 1 to Montreal in September 2007 to
interview Witness 2   and two others. Attorney 2  Tr. at 60-61. Attorney 2    testified that he
                      Witness 2
wanted to interview              again to "flesh out the chronology" and the "history of the
events." Id. at 61 & 62. Consistent with Attorney 1 Attorney 2    testified that the infonnation
they got from those interviews "was generally consistent with our understanding." Id.

                      2.          Enforcement's Second Investigative Testimony of Guy Faure

        On September 27,2007, Attorney 1 and Attorney 3    took Faure's testimony for the
second time, after initially taking his investigative testimony on January 11, 2007.
Exhibits 30 & 83. Dewey & LeBoeufhad taken Faure's testimony on September 7,
2007. Exhibit 84. On August 24,2007, Attorney 1 sent Assistant
                                                        Director 1 and Attorney 2 draft
testimony questions for Faure saying, "In case Faure's lawyer wants us to put him back
on the record right after Labor Day, attached is a draft testimony outline.
Comments/additions welcome." Exhibit 85.

       On September 14,2007, Attorney 2     sent Attorney 1 and Assistant
                                                                Director 1 an e-mail entitled,
"Additional Questioning," which outlined testimony he would find helpful from both
Faure and Witness 1 Exhibit 86. Attorney 2 began that e-mail:

                      After Cuban acknowledged to Guy that he could not
                      dispose of his mamma stock until after the PIPE deal was
                      done and knowing that mamma would rely on his
                      statement, mamma made Witness 1 Witness 1 available to him to
                      provide more detailed information about the PIPE
                      transaction. Under the cloak of his stated acceptance that
                      he could not sell, Cuban called Witness 1 for even more
                      material non-pUblic information about the PIPE. After


24 According to another e-mail dated August 24, 2007, entitled "Faure testimony in Montreal?," Attorney
                                                                                                      1      e-
mailed Assistant
        Director 1
                   and Attorney 2 saying in part that she had not offered Faure's attorney "one of our days in
Montreal as a possible testimony date." Exhibit 81. Therefore, it appears the Montreal trip was taken after
this date.



                                                      50
   This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
   disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
   this report should not disseminate or copy it without the Inspector General's approval.

                            obtaining the additional infonnation, and within a minute
                            of hanging up the telephone, Cuban placed his order to
                            dispose of his mamma stock. Sounds like old-fashioned
                            fraud and deception.

   Id. According to Attorney 2        when he wrote this about the case, it was one part of what he
   had already detennined based on the evidence, but also it was a concept in development
                                                              Attorney 2
   with his applying his "usual skepticism" to
      Attorney 2            Assistant        Attorney 1 LE/WP
   to             e-mail, Director 1 asked
 LE/WP



 LE/WP
            Exhibit 86 at 1. Attorney 1 recalled the e-mail from Attorney 2 and testified she
           he was "just weighing in on things it would qe helpful to know" in anticipation of
   the upcoming Faure testimony. Attorney 1 Tr. at 115.
                                                                                  LE/WP
               Attorney 2
  LE/WP


  LE/WP                                                                          Attorney 2

                                          LE/WP

 LE/WP




               Attorney 2
                                             tional questions he wanted asked of Faure were
LE/WP                                                Attorney 2
                                                        Tr. at 49. But, Attorney 2     testified that
   he believed there was already circumstantial and inferential evidence to answer those
   questions. Id. Attorney 2  further testified that he believed Faure's second testimony was
   helpful and corroborated their case. Attorney 2    Tr. at 58-59. Attorney 2     did not believe
   that the additional testimony of Faure was critical to the case. Id. at 58.

                            3.      Enforcement's Investigative Testimony of Witness 1            Witness 1




             On October 17, 2007, Attorney 1 and AssistantDirector 1 took the investigative testimony of
   Witness 1 Witness 1
                        Exhibit 87. In an e-mail dated August 27, 2007 from Attorney 1 to AssistantDirector 1

   and Attorney 2      entitled, " Witness 1 Witness 1 at Merriman," she wrote:

                            Per Merriman in house counsel, Ralph [Ferrara at Dewey &
                            LeBoeuf] is putting the heat on Witness 1 to sit for a statement.

                            Ifwe want to go first with him re: testimony, we're going
                            to need to do it Wednesday, 9/5 or Thursday, 9/6 in San
                            Francisco.




                                                             51
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

                             I have a call scheduled at 2:00 p.m. to confinn our plans so
                             we need to chat about this before then. He then has a call
                             with Ralph at 4:00 p.m.

Exhibit 88. In the above-referenced September 14, 2007 e-mail from Attorney 2
regarding additional questioning of Faure and Witness 1 he wrote:
                     LE/WP




 Exhibit 86 at 2.

      On the evening of September 20, 2007, Aguilar sent Attorney 1 an e-mail entitled,
  Witness 1
"     Declaration," which attached a declaration of Witness 1 that had been obtained by
Mr. Cuban's counsel. Exhibit 89. The following morning, Attorney 1 forwarde             ail
                                              Assistant    Attorney 3        Attorney 2                     LE/WP
                                              Director 1
LE/WP



LE/WP                                                                                                  Attorney 1
                                                                             Id. Shortly thereafter,
 forwarded that e-mail and wrote,
                       LE/WP




                                              LE/WP
        Attorney 2
Id.                          testified that
LE/WP




              Attorney 1
               testified that she believed the Enforcement staffhad originally subpoenaed
 Witness 1
      at the end of July, before Dewey & LeBoeuf took Witness 1 testimony. Attorney 1 Tr. at
116-117. Friestad testified that his recollection was that the Enforcement staff had
scheduled Faure and Witness 1 testimony to "make sure that we were right," not in



                                                                        52
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

response to the second Wells submission, discussed below at section II.J.2. Friestad Tr.
at 109. Similarly, Assistant
                         Director 1 testified that the Enforcement staff's efforts to obtain
additional testimony from Faure and testimony from Witness 1 "had been either
contemplated or the scheduling had been underway" before receiving the second Wells
submission. Assistant
              Director 1     Tr. at 81.

         Attorney 1
              and Assistant
                   Director 1 took Witness 1 testimony in New York, where he was
represented by Aguilar. Exhibit 87. In that testimony, Witness 1 was asked about his role at
Merriman, where he was no longer employed, the policies and procedures he followed
when he solicited investors to participate in PIPE offerings, his communication with
Witness 2
          at Mamma.com about contacting Mr. Cuban, his telephone call with Mr.
Cuban, and the circumstances of his above-referenced declaration, among other things.
Id.

         J.           Dewey & LeBoeuf Engaged to Represent Mr. Cuban

           According to the Enforcement staff, Ralph Ferrara ("Ferrara"), a former General
Counsel of the SEC and partner at the then-named law finn LeBoeuf, Lamb, Greene &
MacRae, and other attorneys at the law firm which became Dewey & LeBoeuf began
representing Mr. Cuban in this matter in early August 2007. Friestad Tr. at 110-111;
Assistant
Director 1 Tr. at 77; Attorney 1 Tr. at 107 & 108. In addition, Enforcement staff testified that
Fish & Richardson continued their representation of Mr. Cuban as co-counsel with
Dewey & LeBoeuf, but in the background. Friestad Tr. at 111-112; Attorney 1 Tr. at 108;
Assistant
Director 1 Tr. at 80. According to Friestad, there was nothing hostile or antagonistic
between the Enforcement staff and the attorneys at Fish & Richardson. Id. at 125.

                      1.    Dewey & LeBoeuf's Request for Additional Time to Submit
                            Second Wells Submission & Settlement Discussions

         Friestad testified that Ferrara initially reached out to Linda Thomsen bye-mail on
or around August 7,2007, and that Thomsen forwarded the e-mail to him. FriestadTr.at
161; Exhibit 90. The August 8, 2007 e-mail to Thomsen from Ferrara stated that they
were now joining Fish & Richardson in their representation of Mr. Cuban and that they
had advised Mr. Cuban a supplemental response should be made on his behalf. Exhibit
90. Ferrara also told Thomsen in his e-mail that they were having difficulty getting
information -in August and accordingly asked for an extension of time to file that
supplemental submission in the first week of September. Id. Friestad recalled that he
and the Enforcement staff, probably Assistant  Director 1 and Attorney 1 called Ferrara the day he
received the forwarded e-mail from Thomsen. FriestadTr.atI62. Friestad recalled that
they discussed two topics during that call: (1) the fact that Ferrara wanted to submit an
additional Wells response, and (2) settlement. Id. Friestad recalled that the Enforcement
staff "resolved the issue of the supplemental submission and set a response date as
September 7th •••• " Id. at 163. Assistant
                                        Director 1    similarly recalled that Ferrara told the
Enforcement staffhe had been retained by Mr. Cuban and that he wanted to put in a
supplemental Wells submission, and that around that same time there was some
discussion of a settlement. Assistant
                               Director 1    Tr. at 77.



                                                      53
  This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
  disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
  this report should not disseminate or copy it without the Inspector General's approval.



           According to Friestad, Ferrara told them that Mr. CubanLE/WP
  LE/WP




LE/WP




                                               Assistant
                                               Director 1
LE/WP
                                                            But the Enforcement staff did
  agree to give Ferrara and the other lawyers at Dewey & LeBoeuf representing Mr. Cuban
  until September 7,2007, nearly a month, to submit a second Wells submission on behalf
  of Mr. Cuban. ld. at 163-164.

                        2.   Dewey & LeBoeuf Conducted their Own Investigation

          Dewey & LeBoeuf conducted their own investigation and took testimony from
  some witnesses. As noted in their September 21, 2007 letter to Friestad, submitted with
  their Wells submission, " ... we immediately began to compile a full factual record of
  this matter, which necessitated setting up interviews with key Mamma.com and
  Merriman personnel, to determine whether there was any basis for concluding that Mr.
  Cuban had engaged in insider trading." Exhibit 91 at 3. In that letter, Ferrara claimed
  they were hampered in meeting the September 7 deadline because, among other reasons,
  many of the witnesses expressed concern that cooperating with their investigation would
  cause them problems with the SEC, and that at least one entity told them that a member
  of the Enforcement staff discouraged it from making a witness available, calling it a
  "tamp down," which is discussed fully in Section II.E. ld. at 4. Also in that letter to
  Friestad, Ferrara wrote, "I certainly sense from the tone of your e-mails to me that you
  are annoyed that we, on behalf of Mr. Cuban, conducted our own factual review." ld.
           Attorney 1
                    testified that requests are sometimes made by defense counsel to talk to an
  SEC witness. Attorney 1 Tr. at 122. Friestad testified that other counsels have conducted
  their own investigations in other matters, and "I don't have any problem or issue with
  that." Friestad Tr. at 166. Friestad stated he first learned that Ferrara was conducting his
  own investigation when the Enforcement staff told him that Ferrara was trying to get
  sworn statements from witnesses by threatening them with legal action. 25 ld. at 165-168.
  Similarly, Assistant
             Director 1 testified that they have had other counsel conduct their own inquiries,

  2S Friestad testified that he realized Ferrara had lied to him, however, about why he needed a month to
  prepare a supplemental Wells submission -- Ferrara did not have vacation plans, as Friestad testified
  Ferrara had told him, but Dewey & LeBoeuf was conducting their own investigation. Friestad Tr. at 165.
  According to Friestad, "I was annoyed that 1 was lied to." Id. at 166.


                                                            54
 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
 this report should not disseminate or copy it without the Inspector General's approval.

 but that what was improper about this particular inquiry by Dewey & LeBoeuf was "to
 demand that witnesses appear on the record and threaten consequences if they refused to
 do so voluntarily." Assistant
                     Director 1 Tr. at 108-109.                .

             In an August 28,2007 e-mail entitled, "More Ralph," Attorney 1 relayed to AssistantDirector 1

 and Attorney 2      that she had spoken to Witness 6 who told Attorney 1 that Ferrara was "trying to
 get the MAMA people to give ~wom statements by dangling releases, and that when they
 told him they would talk to him but not under oath, he suggested he could get the
 infolJIlation through subpoena power if Cuban sued them." Exhibit 92. Assistant     Director 1

 forwarded the e-mail toFriestadstating...Scott.this strikes me as outrageous." ld.
.Attorney 1 testified that she had been' getting calls from various counsel about the threats that
 ·Dewey & LeBoeufwas making about potentially suing their·clients. Attorney 1 Tr. at 122-
  123. Attorney 1 testified that Aguilar, counsel to Witness 1 told her that Dewey & LeBoeuf was
 "pressuring him or turning up the heat," and that she had been getting questions from all
 of the counsel about what to do about it; Attorney 1 testified she told them to "do what you
 need to do." ld. at 123.

          Friestad testified that when                                                         out
                                             LE/WP
  the inquiry Ferrara was conducting,
LE/WP
           Friestad Tr. at 166. Assistant
                                  Director 1    testified that Dewey & LeBoeuf conducting their
  own investigation in the way that they allegedly were was "extremely unusual":

                     ... in my experience it is very unusual and the practice of
                     ... threatening witnesses with civil action if they didn't sit
                     for such testimony and offering them a release from
                     liability at that testimony, I haven't had that experience
                     previously in the 19 years I've been practicing.
                                                                     AC
 Assistant                              Assistant
 Director 1   Tr. at 94. According to   Director 1   and Friestad,
AC




                     3.      Dewey & LeBoeuf Filed Second Wells Submission on Behalf of
                             Mr. Cuban

         On September 21,2007, Dewey & LeBoeuf submitted a second Wells submission
 on behalf of Mr. Cuban. Exhibit 91,. According to the Enforcement staff s description of
 the second Wells submission, Dewey & LeBoeuf made only one argument - that Mr.
 Cuban never agreed to keep the PIPE information confidential. Exhibit 53 at 9. The
 Enforcement staff indicated in the Action Memorandum, discussed in the section below,
 that Mr. Cuban's counsel cited to a portion of Mr. Cuban's testimony of Faure to
 establish that Mr. Cuban did not agree to keep the information confidential. ld. at 10.



                                                         55
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

According to Enforcement staff, Dewey & LeBoeuf abandoned Fish & Richardson's
earlier Wells submission arguments that the telephone call between Faure and Mr. Cuban
never occurred and that Rule 10b5-2 does not apply to business relationships. Id. at 9.

       Along with the second Wells submission, Ferrara submitted a letter, discussed in
Section J.2., above, to Friestad. Exhibits 53 & 91. In that letter, Ferrara requested the
Commission be given the second submission. Id. On September 19,2007, Ferrara
requested a meeting on Friday, September 21, 2007 to present their revised Wells
submission "and the additional evidence we have gathered with respect to his sale of
Mamma.com shares." Exhibit 93. Friestad e-mailed Ferrara on September 20,2007:

                  Dear Ralph,

                  For a number of reasons, we are disinclined to acquiesce to
                  your request.

                  As you know, Mr. Cuban's supplemental Wells submission
                  was due on September 7, 2007. You did not request an
                  extension, and none was granted. As a result, going
                  forward, you should no longer assume that any further
                  submission on behalf of Mr. Cuban will be considered by
                  the Commission. Mr. Cuban's June 29,2007 Wells
                  submission will, of course, be forwarded to the
                  Commission.

                  We will be in touch with you after the Commission
                  considers our recommendation.

ld. Assistant
    Director 1 testified that informing counsel whose submission is late that Enforcement
cannot then give assurances that the Commission will consider it was typical
Enforcement practice. Assistant
                            Director 1 Tr. at 110.

        Later in the day on September 20, 2007, Friestad e-mailed Thomsen informing
her that they declined Ferrara's request to meet the following day. Exhibit 94. He wrote,
in part: "We do not think that such a meeting would be productive, and we continue to
have concerns about protecting the integrity of the investigation." Id.

       In court pleadings, Dewey & LeBoeuf argued that they were uncertain the
Commission was ever given the second Wells submission. But the evidence shows, as
discussed in the next section, that the Commission did receive both the first and second
Wells submissions.

         K.       December 31, 2007 Action Memorandum Submitted to the
                  Commission

       The Enforcement staff all testified that the first and second Wells submissions,
along with the September 21, 2007 letter from Ferrara to Friestad, were submitted to the


                                                      56
 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
 this report should not disseminate or copy it without the Inspector General's approval.

 Commission. Friestad Tr. at 189-191;26 Assistant
                                            Director 1 Tr. at 109; Attorney 2     Tr. at 112; Attorney 1
 Tr. at 143. Moreover, the Action Memorandum drafted by Enforcement clearly
 discussed the two Wells submissions. Exhibit 53 at 9 & 10. Assistant Director 1 noted that the
 Commission's policy is that if Enforcement receives a Wells submission before the
 Commission decision is made, it gets forwarded to the Commission for consideration.
 Assistant
 Director 1 Tr. at 109. According to an April 19, 2010 Declaration by Robert Kaplan,
 prepared for and filed in the ongoing litigation, Enforcement began drafting an Action
 Memorandum in the early summer of 2007 recommending that the Commission authorize
 the filing of an insider trading case against Mark Cuban. Exhibit 57 at 3 & 4. On
 December 31, 2007, Enforcement sent the II-page Action Memorandum to the
 Commission for consideration. Exhibit 53. Attached to that Action Memorandum were
 the first and second Wells submissions submitted by Mr. Cuban's different counsels as
 well as the September 21, 2007 letter, and its attachments, from Ferrara to Friestad and
 the September 24, 2007 response from Friestad. Id.

          L.       The Commission Authorized Suit Against Mr. Cuban on
                   November 13, 2008

        On November 13,2008, the Commission entered into executive session to hear
 the Enforcement staff's recommendation to authorize suit against Mr. Cuban. Exhibit 52.
 As Kaplan noted in his April 2010 declaration:

                   In order to prevent any inadvertent pre-decisional
                   disclosure of the HO-I0576 investigation and protect Mark
                   Cuban from unwanted adverse publicity, the Commission
                   considered both the First and Second Action Memoranda in
                   Executive Session instead of the typical Closed
                   Commission meeting which all SEC staff may attend. An
                   Executive Session is generally restricted to only those
                   Commission personnel with a legitimate need to know
                   about the matters being deliberated and decided by the
                   Commission.

 Exhibit 57 at 7.

         As memorialized in the memorandum prepared by the Office of the Secretary
 after the Executive Session, "The Commission considered a memorandum, dated
 December 31, 2007, from the Division of Enforcement, concerning Mamma.com
 Financing Transactions (HO-I0576)." Exhibit 52. The memorandu LE/DP
LE/DP

LE/DP
                           Id. at 1. It also noted that the meeting began at 2:34 p.m. and ended


 26Friestad testified that he felt it was important and necessary to provide the Commission with the two
 Wells submissions and the September 21, 2007 letter "to be completely candid and open with the
 Commission about facts and issues that affect our recommendations." Id. at 190-191.


                                                       57
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

at 2:46 p.m. and that, "The Commission voted (4-0) to approve the staff's
recommendation. (Chairman Cox was recused from this matter.)" Id.

         The OIG listened to the tape recording of that Executive Session, and confirmed
that it was con
                 LE/DP

LE/DP




II.         INVESTIGATIVE FINDINGS

            A.    The OIG Did Not Find Sufficient Evidence to Substantiate the Claim
                  that the SEC Enforcement Investigation of Mr. Cuban Was Not
                  Substantially Completed Before the Wells Notice

         Mr. Cuban aiIeged that the investigation was not substantially completed until at
least five months after the Wells notice was provided. Exhibit 1 at 2. Mr. Cuban
believed that the Enforcement staffhad not taken any sworn testimony, except of Mr.
Cuban, including of Faure, and had not interviewed any Mamma.com senior executive
until October 2007. Id. at 2. Mr. Cuban's counsel wrote,

                  In our firm's collective knowledge of Enforcement actions,
                  we are not aware of any other instances where the staffhas
                  taken the approach it did here and reached a decision to
                  recommend the institution of a fraud case so substantially
                  in advance of the staff's completion of its investigation.
                  We have also spoken about the matter with many former
                  SEC enforcement staffnow in private practice, and none of
                  them have ever heard of a Wells notice being issued before
                  investigative testimony had been concluded or was close to
                  conclusion.

Id. at 3.

        However, the OIG found that Enforcement had conducted significant
investigative work before the Wells notice was provided on May 23,2007. As described
in Section I.C., the Enforcement staffhad: 1) conducted interviews of Witness 1 Witness 1
Mark Cuban, Guy Faure, and Witness 2 Witness 2 2) obtained proffers from the other
Mamma.com board members; and 3) taken investigative testimony of Guy Faure and
Mark Cuban, the two participants to the relevant telephone call. Moreover, the
Enforcement staff had obtained important documents, including Mr. Cuban's trading and
telephone records, documents concerning the timing of the announcement of the PIPE
deal with Mr. Cuban's trades, and the contemporaneous e-mails from Witness 2     about the
Faure/Cuban telephone call on that same day as well as the following day. Furthermore,



                                                      58
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

as discussed in section II.A.2., the OIG found that conducting additional investigative
work, and even testimony, after the Wells notice is provided, is not per se prohibited by
the Enforcement Manual or internal guidance and Enforcement does on occasion do so.

                  1.        Critical Testimonies Were Taken and Evidence Obtained

        As outlined in section I.C., at the time of the Wells call to Mr. Cuban's counsel,
the Enforcement staffhad taken Mr. Cuban's and Faure's testimony - the key participants
to the telephone call which in which Mr. Cuban is alleged to have gained confidential
insider information. In the initial Enforcement staff interview and testimony of Faure, he
recalled that the Mamma.com board asked him to contact Mr. Cuban, tell him that he had
confidential information to convey to him, and invite him to participate in the private
placement. Exhibit 30 at 14. Faure testified that he recalled telling Mr. Cuban this
information, and that Mr. Cuban responded at the end of their telephone call by saying,
"Well, now I'm screwed. I can't selL" Id. at 19.

        In addition, the Enforcement staffhad obtained several important documents. For
example, the Enforcement staff had obtained e-mails Faure sent to Mr. Cuban on June 28,
2004, first asking Mr. Cuban to call him and an e-mail subsequent to their telephone
conversation infonning Mr. Cuban that he could obtain additional information about the
PIPE offering from Witness 1 Witness 1 at Merriman. Exhibit 31 at 2 & 3. In addition, the
Enforcement staffhad the telephone record which showed that Mr. Cuban called Faure
four minutes after Faure sent him the initial e-mail, and that the call lasted more than
eight minutes. See, e.g., Attorney 1 Tr. at 48-49.

        The Enforcement staff also obtained Witness 2      e-mails which were sent to the
                                                      Witness 2
Mamma.com board members after Faure reported to                  about his conversation
with Mr. Cuban. Exhibit 42. Those e-mails pwported to corroborate Faure's testimony
that Mr. Cuban knew he could not sell until after the PIPE was publicly announced. Id.
In addition, the Enforcement staffhad interviewed Witness 1 and obtained the telephone
records of Mr. Cuban's call to Witness 1 Exhibit 29. Moreover, the Enforcement staffhad
obtained Mr. Cuban's trading records showing that he sold all of his shares of
Mamma.com before the PIPE offering was publicly announced. Exhibit 4. Enforcement
had analyzed the stock prices on the relevant days which showed that Mr. Cuban avoided
losses in excess of$750,000 by selling his shares before the PIPE offering was
announced. ld. All of this information, obtained prior to the Wells call, was used as a
basis for the November 2008 complaint filed against Mr. Cuban. ld.

        Everyone on the Enforcement staff testified that they believed the investigation
was substantially complete when the Wells call was made. Friestad testified, "And so in
this case, I believe that the investigation was substantially complete in the sense that I
think we had a good sense of what the facts and the evidence about the issues were at the
time we made the Wells call." Friestad Tr. at 105. He conceded, however, that if the
Enforcement staffhad not spoken to Mr. Cuban and Faure, "the two parties that in our
judgment were most likely to have the most relevant information that would have a
bearing on a decision about whether Mr. Cuban engaged in insider trading," he would be



                                                      59
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. ·Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

hard pressed to think they were in a position to make a Wells call. Id. at 105. He added,
"There are other individuals who had information that was interesting to know, but not
particularly relevant to the issues that were at the heart of this case." Id.
             Attorney 1
                          testified that she believed the investigation was substantially complete,

                          Because we had spoken to the two participants to the
                          conversation. We had supporting documents. We had
                          phone records. We had document production from Cuban
                          that was relevant, and we had interviewed the other couple
                          of people who might have had relevant information. And
                          we had had proffers from company counsel about the other
                          board members.
Attorney 1
             Tr. at 48-49.

           According to Assistant
                          Director 1 the general purpose of the Wells is to " ... make sure that
when the staff notifies a party that they're going to recommend action that they actually
have a present intention to do so and a good faith basis to do so." Assistant
                                                                          Director 1 Tr. at 65.
Assistant
Director 1 testified that in this case by mid-Mayor the end of May he felt they "absolutely"
had a good faith basis to say Enforcement intended to proceed with an Enforcement
action. Id.
             Assistant
                  testified that there are instances when Enforcement had a good faith basis
             Director 1

to proceed with making a Wells call, but then the Enforcement staff find additional
infonnation; in tho.se instances, Enforcement would go back to defense counsel so they
have an opportunity through the Wells process to provide their opinions on the additional
information. Assistant
               Director 1 Tr. at 67 & 68. Assistant
                                           Director 1 stated, however, that this did not happen in
this case. Id. at 68 & 69. He explained "our investigative steps are confidential," and the
way the Enforcement staff viewed the additional investigative steps taken after the Wells
notice was "really just crossing the 't's and dotting the 'i's' ... but the principle
investigative steps, the testimony of the key participants, the key documents, were all
done and we felt had been presented significant evidence prior to the time the Wells had
been made." Id. at 69 & 71.

                          2.      Enforcement May, and Does on Occasion, Conduct Additional
                                  Investigative Testimony and Work after the Wells Notice

        The OIG investigation revealed that Enforcement may and does on certain
occasions, conduct additional investigative testimony and work after the Wells notice is
provided. The OIG learned that, as the evidence shows happened in this case, trial
counsel get appointed and often want to solidify and/or clarify the record. In addition; as
shown below, the Enforcement staff sometimes find that the Wells submission raises a
lack of clarity in the record and additional work may therefore be needed.




                                                       60
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

        As noted in the Applicable Policy and Regulations Section above, the
Enforcement Manual provides only guidance to Enforcement staff and states that
generally staff should consider whether investigations are "substantially complete" before
issuing a Wells notice. Enforcement Manual at Section 2.4. But there is no guidance as
to what "substantially complete" means, and there is no per se requirement that an
investigation be substantia1ly complete before issuing a Wells notice. Id. Nor is there a
prohibition against conducting additional investigative work after the Wells notice. As
the Enforcement staff testified, it is detennined on a case-by-case basis whether and when
to provide a Wells notice. In fact, Attorney 3 told the OIG that generally defense couns~l
are eager to know the charges against their client, and usually welcome the Wells notice
as early as possible. Exhibit 17 at 6.

         Friestad testified that "It is quite routine that testimony be taken and subpoenas
are sent, and other infonnation is gathered after a Wells call is made." Friestad Tr. at
106. During his investigative testimony, we requested that Friestad provide the OIG with
a list of random cases in which investigative work and testimony had been taken after the
Wells notice. Id. at 116.

       The day following his OIG testimony, Friestad forwarded to the OIG responses he
obtained from his group of Assistant Directors of "any examples where we have (1) taken
additional testimony (new witnesses or follow-up questions to a previous witness) or (2)
sent subpoenas for additional documents, after having made a Wells call, but prior to
going to the Commission with our recommendation." Exhibit 95. In each of the
responses Friestad received and forwarded, the Assistant Director noted instances in
which this has happened in their cases. Id. One Assistant Director noted,

                  We have done this on numerous occasions. Most notably
                  in Citi - we took testimony of several witnesses after Wells
                  notices were issued. . .. I found the availability of
                  obtaining additional testimony and documents a useful tool
                  when Wells arguments revealed a lack of clarity in our
                  record. Wells submissions often crystallize arguments arid
                  issues for both defense counsel and for us. It was in
                  everyone's interest to clarify the record.

Id. Another Assistant Director responded, saying:

                  Yes. In the Amex investigation,S individuals received
                  Wells calls and made Wells submissions around the end of
                  2004/Early 2005. Some issues were raised in the Wells
                  submissions which caused us to want to talk to additional
                  witnesses and to re-interview other witnesses. We ended
                  up conducting quite an extensive supplemental
                  investigation. We talked to 15 additional witnesses and re-
                  interviewed 2 witnesses who had previously testified. We
                  also received additional documents as part of the



                                                      61
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has 'been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

                  investigation - much of it relating to the Amex' s decision
                  with its new counsel to waive privilege.

Id.

        In all, the OIG found that Enforcement had conducted critical testimonies and
gathered significant evidence prior to the Wells call in the investigation of Mr. Cuban.
We also found that there is no prohibition on Enforcement staff conducting additional
investigative work after a Wells notice and/or submission are made, as was done in this
instance, and there have been occasions in the past where this has occurred.

             B.   The OIG Did Not Find Sufficient Evidence to Substantiate the Claim
                  that the Earlier Enforcement Investigation was Closed as a Quid Pro
                  Quo in the Investigation Related to Mr. Cuban

         Mr. Cuban alleged that a mere four days after he sent the September 21, 2007
letter to Friestad was "just around the time the staff was seeking testimony from the very
same Mamma.com executives in its investigation of Mr. Cuban, the Commission abruptly
closed its investigation of Mamma. com, which at that time had been ongoing for over
three years." Exhibit 1 at 5. He further alleged:

                  That the staff would suddenly choose to close a long-
                  standing investigation of Mamma. com only a few days
                  after receiving a Wells submission, and just when the staff
                  was seeking testimony'from the company's senior
                  executives, gives rise to the reasonable suspicion that the
                  staff, bent on obtaining testimony unfavorable to Mr.
                  Cuban, used the closure of the investigation to attempt to
                  induce Mamma. com 's executives to cooperate with the
                  staff and perhaps even to depart from the testimony they
                  previously had provided to us.

Id. Mr. Cuban testified about this allegation, explaining that Enforcement staff attorney
Attorney 4
        told him the investigation he was conducting was about Subject role in
Mamma. com. Cuban Tr. at 9 & 10. Mr. Cuban testified that after Attorney 4 interviewed
him, he provided Attorney 4 with e-mails he had from various people about Subject Id.atl1.
According to Mr. Cuban, after it became public that he had purchased stock in
Mamma.com in March 2004, he was contacted by an FBI agent who told him to be
careful with 'Subject Id. at 12. Mr. Cuban further testified:

                  ... that after three and a half years, basically, of all this
                  going on -- that two days before they started going after me
                  they closed the investigation into Mamma.com, that I had
                  talked to somebody in 2004, and then there was this long
                  break. And then they closed the investigation and then --




                                                      62
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

                  boom! Here they are talking to me and pursuing me, and
                  so that didn't seem like it was just a coincidence.

ld. at 13. He later testified,

                   ... the fact that they closed Mamma.com one day and
                   several days later they were taking testimony about me and
                   focusing on me, particularly when this person worked for a
                   convicted felon. I mean, how could you not just at least
                   want to investigate the fact that maybe he was being guided
                   by this felon, and how could you not presume that by
                   letting this slide and telling them that they were off the
                   hook in this case that you weren't going to get the benefit
                  ·ofletting them off the hook. That's just common sense,
                   you know, to any person.

ld. at 52.

        As discussed in the next section, the OIG found evidence that Enforcement staff
intended to close the earlier HO-09900 investigation by September 30,2006, several
weeks before Attorney 1 opened a MUI into Mark Cuban's trading. While a letter infonning
Mamma.com of the closing of the matter was not sent until a year later, and during that
year a separate group of Enforcement staff was conducting investigative work in the
matter related to Mr. Cuban, the OIG did not find any evidence substantiating the
allegation that closing the earlier investigation had any effect on the investigation into
Mr. Cuban's trading or in any way induced the Mamma.com executives to give different
testimony. The only Ma.rmp.a.com executive the Enforcement staff got additional
information from was Faure in his second investigative testimony. Moreover, the OIG
found that the two investigations were separate and there was very little interaction
between the investigative teams, except to request certain transcripts of testimony taken
years earlier.

                  1.       The Evidence Showed that There Was an Intent to Close the
                           Earlier Investigation of Mamma.com Before the Investigation
                           of Mr. Cuban was Opened

        The OIG investigation revealed that the Enforcement staffhad documented its
intention to close the earlier investigation, numbered HO-09900, by late September 2006,
before a MUI was opened in the Cuban matter, numbered HO-10576.

          The OIG obtained an October 17, 4006 internal Enforcement case status
memorandum to Associate Director Chion and Assistant Director Assistant   Director 2 which stated
that staffhad intended to close the HO-09900 matter by September 30, 2006. Exhibit 96
at 2. Attorney 4 testified that in "late 2006, early 2007 ... it was questionable how we were
going to proceed with the case." Attorney 4 Tr. at 40 & 41. This intent to close the case was




                                                      63
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

documented several weeks before Attorney 1 opened the MUI into Mark Cuban's trading in
HO-10S76.

        Despite this document indicating an intention to close the matter in September
2006, on March 21,2007, Attorney 4 wrote to Assistant
                                                Director 2 "Need to touch base with you on
Mamma. Their counsel called me last week. I have been busy ... and have not drafted a
closing memo yet ...." 27 Exhibit 98. Attorney 4 testified that Mamma.com counsel
Greenberg was "consistently calling the SEC" asking for a status on the matter, and if$e
matter was going to be closed, Greenberg was asking for a termination letter. Attorney 4 Tr.
at 41-42. Attorney 4 testified that while the case "had not progressed as we thought it
would," he still felt he should try to make a request through the SEC's Office of
International Affairs ("OIA") for documents specific to Subject involvement in
Mamma. com. Id. at 44-45.

        As noted in section LB. of this report of investigation, a focus of the HO-09900
investigation was Subject involvement with Mamma.com. Attorney 4 Tr. at 36. However,
despite not being able to "establish that connection," Attorney 4 determined to try one more
avenue before closing the case definitively. Id. at 40. Attorney 4 testified that,

                          I'd actually asked that we try another route before deciding
                          to close the case off. I believe it was late 2006, early 2007,
                          [I] asked that we go and try to run down some bank records
                          to see where money from some of the transactions that I
                          identified went to . . .. And I did a request for OIA and
                          Mr. Assistant
                               Director 2 I think I mentioned that to him too - we
                          might want to try that before, you know, we closed the case
                          out permanently.
Attorney 4
             Tr. at 41.
             Attorney 4
                          further testified:

                          I was making requests through OIA to get more
                          information. . .. And OIA takes a very long time,
                          sometimes, to get your documents. So I don't know when

27Zelinsky had been responsible for supervising the HO-09900 investigation from its initiation in March
2004. Exhibit 97 at 1. Zelinsky confinned the intent to close the case in October 2006 in his April 19,
2010 declaration:

                          By October 17, 2006, the Enforcement staff assigned to HO-09900
                          stated that they were 'plan[ning] on closing the matter.' ... The final
                          decision not to recommend any enforcement action arising out ofHO-
                          09900 was made by Antonia Chion (Associate Director, Division of
                          Enforcement) in late August-early September 2007. Counsel for
                          Mamma.com was infonned of this decision in a letter dated September
                          19,2007.

Id. at 2.


                                                            64
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

                  those documents actually came in, but the general
                  consensus was, you know, it intimated there was [not]
                  much there. . .. I made that last request to get information
                  through OIA. But other than that, I mean my sense of the
                  things were back then too .... but it didn't seem like there
                  was much there.

ld. at 44-45 &47.

        On September 6,2007, Assistant
                                  Director 2 e-mailed Attorney 4 " Attorney 4 -- Greenberg called
Toni [Chion] again and she wants to return his call. What was the additional follow-up
you wanted to do before we issued a termination letter? Please let me know ASAP.
Thanks." Exhibit 99. Attorney 4 however, had not uncovered the evidence necessary to
bring the case and Enforcement moved forward to send the termination letter to
Greenberg. Attorney 4 Tr. at 44-47.

         On September 19,2007, Assistant
                                   Director 2 sent a letter to Mamma.com's counsel stating,
"This investigation has been completed as to your client, Mamma.com, Inc., against
whom we do not intend to recommend any enforcement action by the Commission."
Exhibit 100.28 As of September 30,2007, Chion and AssistantDirector 2 received a case status
memorandum confirming, "We plan on closing this matter, and a termination letter was
sent to the company during this quarter." Exhibit 101. It was also noted in the Hub Case
Report for this matter that as of January 1,2008, the termination letter had been sent to
Mamma.com, advising them that no Enforcement action was contemplated at that time.
Exhibit 24 at 2.

                  2.       There is Insufficient Evidence of Improper Coordination
                           Between the Different Investigative Teams

        The OIG found that the two investigations were separate and distinct, with
different staff on each investigation. The formal orders for each investigation do not list
any individuals authorized to appear in both matters. Exhibits 25 & 40. The HO-l 0576
team only became aware of the HO-09900 investigation after checking on the
Enforcement internal case tracking database, NRSI, to determine whether there was
already an ongoing investigation into Mr. Cuban's sale of his Mamma.com shares.




28 In addition, the Hub case report indicated that as of October 23,2009, a draft closing memorandum had
been circulated to the Associate Director for review. Exhibit 24 at 2. HO-09900 was not officially closed,
according to the Hub report, until September 13,2010. Id. Friestad testified that it is typical that
Enforcement staff take ·this much time to close a matter "[b]ecause people would rather work on something
that's active; and, you know, rather than something that's historical and boxing up documents and that sort
of thing, and so it's an ongoing challenge to get cases closed." Friestad Tr. at 38 & 39. Attorney
                                                                                          4        testified
that he was not sure why there was a delay between deciding to close the case in late 2006 and officially
closing the case in 2010, but indicated that it could have been because he had been assigned to another case
that was taking much of his time. Attorney 4 Tr. at 45.




                                                      65
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

Thereafter, the OIG found, there was little communication between the teams, other than
a request by the HO-I0576 team for transcripts?9

         Friestad, Assistant
                   Director 1   and Attorney 1 all confinned in sworn testimony that the HO-09900
'investigation was separate and distinct from their investigation into Mr. Cuban's trading
 in Mamma.com. Attorney 3          also told the OIG that the matters were separate. Exhibit 17
                     Attorney 3
 at 2 & 3. In fact,                told the OIG that it was rare for investigations to overlap or
 that the same people would work on different cases such as these because they were in
 different associate director groups, which he said tended to be separate in conducting
 their work. Id. at 2-3. Similarly, Attorney 4 testified that "Enforcement things are kind of
siloed. So, you know, you really don't get involved in other people's cases .... There's
no prohibition, but I mean you kind of stay in your own silo." Attorney 4 Tr. at 50-51.

      Kaplan filed a declaration in the ongoing litigation on September 30,2009 in
Support of Plaintiff Securities and Exchange Commission's Opposition to Mark Cuban's
Motion for Attorneys' Fees and Expenses. In that declaration, Kaplan stated,

                      I supervised one of two temporally and substantively
                      distinct investigations involving Mamma.com. The earlier
                      investigation, assigned inte:mal reference number HO-
                      09900, was conducted by one team of investigators, under
                      different supervision. A second, subsequent investigation
                      into Mark Cuban's trading in Mamma.com, assigned
                      reference number HO-I0576, was conducted by a different
                      team of investigators, under my supervision. The earlier
                      Mamma.com investigation, HO-09900, was not closed at
                      the request of anyone assigned to HO-I0576. No direct or
                      indirect exchange or inducement for testimony concerning
                      Cuban's trading, including the closing of the earlier
                      Mamma.com investigation, was provided to any witness in
                      the investigation. There was no quid pro quo of any sort
                      exchanged by the SEC for allegedly perjured or any other
                      testimony from Mamma.com executives concerning Cuban.

Exhibit 102 at 3. Kaplan testified to the OIG that he prepared the above-quoted
declaration after he had conversations with Friestad, Attorney 3 and Attorney 1 Assistant
                                                                                Director 1             Tr. at
21-24.

         Assistant
                further testified that the only coordination of any kind between the two
         Director 1

investigative teams was to request, and obtain, copies of transcripts for certain witness


29 Mr. Cuban testified that he believed there should have been a' "Chinese wall" between the two
investigative teams just as there was when he was looking to buy the Chicago Cubs. Cuban Tr. at 50-51.
However, the OIG found no requirement in the SEC Enforcement Manual that Enforcement staff not
communicate with other teams on separate matters where there is overlapping work. See generally
Enforcement Manual.



                                                      66
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

testimonies which he himself requested. Id. at 18. Assistant
                                                        Director 1 told the OIG he believed his
team obtained those transcripts in the summer of 2007, as they were beginning to
schedule the second testimony of Faure and interviews with Mamma.com board members
Witness 2
          and Witness 5 Id. Assistant
                            Director 1 noted that NRSI showed that the other investigative
team had taken testimony of certain individuals. Id.

          . Consistent with Assistant
                                   Director 1 testimony, Attorney 1 testified, "I think the only time I
talked to Attorney 4 [Attorney 4 about their matter was to get some transcripts from that team in
the summer of '07." Attorney 1 Tr. at 16. She added, "I think AssistantAssistant   Director 1
                                                                                  Director 1    talked to
                                                         Attorney 4                          Attorney 1
somebody, and I physically got them from                            Id. at 32. In fact,                 testified,
"The only reach-out I was aware of was to get the transcripts I just mentioned [of Faure,
Witness 2
               and Attorney
                    Witness 33 Witness 3
                                               Id. at 30 & 32. Attorney 4 testified that he recalled
speaking with a woman for about 15 or 20 minutes regarding "what the case was about,
the gist of it .... But other than the initial contact, I really didn't have any other
contact." Attorney 4 Tr. at 50 & 51. Attorney 1 testified that she knew very little about the
earlier investigation except that it was a market manipulation investigation. Attorney 1 Tr. at
29. Attorney 1 also told the OIG she did not share any information learned from her
investigation with the other investigative team, nor did they ask for any. Attorney 1 Tr. at 35.
Attorney 4
            testified that no Enforcement staff consulted him in any way about the decision to
open the investigation into Mark Cuban's trading in Mamma.com. Attorney 4 Tr. at 50 & 51.

         Friestad testified that he did not believe a single person who worked on the
investigation of Mr. Cuban overlapped with the' Enforcement staff who worked on the
earlier investigation of Mamma.com. Friestad Tr. at 27. He further testified that the .
different teams had minimal contact with each other. Id. In fact, Friestad explained that
when they began their investigation of Mr. Cuban, the other investigation "was
essentially completed and was not active at any point in time when our investigation was
active." Id. at 28. Moreover, he added, "They weren't really doing anything as far as I
was aware, so there wasn't a whole lotto coordinate." Id. Friestad confirmed for the
OIG that the Enforcement staffhad asked for copies of transcripts of some of the
witnesses from the earlier investigation. Id. Bufhe explained that those were "historical"
and had already been taken, so "It wasn't like they were asking the other staff to ask
certain questions or to coordinate what would be asked or anything like that." Id.

        Friestad also testified that Enforcement has "no restrictions on staff s ability to
share information with each other." Id. at 29. He told the OIG he did not believe there
should be a prohibition on different teams sharing information testifying,

                   I think that in many cases it's highly useful to make sure
                   that we're not duplicating efforts or overlapping with each
                   other..... And some of those investigations [involving
                   large institutions] c~ be quite burdensome on the parties
                   involved, and I think it's important for the staff to be able
                   to share information with each other to make sure that we
                   aren't subjecting parties that are involved in our
                   investigations to unnecessary burdens ....



                                                       67
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.



Id. With that said, Friestad testified that there are times when access to certain
information about investigations should be restricted, but that does not mean there should
be a general prohibition against it. Id. at 29-30.

       The OIG investigation did not find evidence of improper coordination between
the teams or that either team influenced the other.

                  3.       There is Insufficient Evidence that the Enforcement Staff
                           Investigating Mr. Cuban Had Any Involvement in Closing the
                           Earlier Investigation into Mamma.com

        The OIG did not find evidence to suggest that the HO-l 0576 team investigating
Mr. Cuban's sale of his Mamma.com stock had any impact on the investigation or closing
of HO-09900. As outlined above, the evidence shows that the HO-09900 team intended
to close the matter in September 2006, before the investigation of Mr. Cuban was even
contemplated.

         Friestad, Assistant
                   Director 1 and Attorney 1 all testified similarly that they had no involvement
whatsoever in closing the HO-09900 investigation. Attorney 1 testified that when she made
the trip to Montreal to interview Witness 2           Witness 3
                                                                and Witness 4 in early September 2007
she did not know whether the earlier investigation was closed. Attorney 1 Tr. at 34-35. In
fact, in her OIG testimony, Attorney 1 stated, "I don't even know if it's closed today." Id. at
35.

        Friestad testified he was not involved at all in deciding to close the earlier
investigation. Friestad Tr. at 32. Friestad- testified he was aware of the HO-09900
investigation status generally, but was not sure how he learned the other investigation
was closed:

                  I think I knew fairly early on that it was not a particularly
                  active investigation and that it was destined to be closed. It
                  was sort of my assumption. I don't recall exactly how I
                  learned that, but that was sort of my general assumption
                  throughout. I only recall one or two personal interactions
                  with anyone on the other investigation, and that was
                  actually towards the very end, right before we went up to
                  the Commission with our recommendation.

Friestad Tr. at 33. He told the OIG he believed he reached out to Assistant    Director 2 likely by e-
mail, to inquire whether any individuals in their investigation had received Wells notices,
including Faure. Id. at 34. AssistantDirector 1 testified that he only became aware that the HO-
09900 investigation was being closed because Mamma.com put out a press release about
it. Assistant
    Director 1 Tr. at 21. Assistant
                          Director 1    stated, " ... I remember someone telling me from my team
that they had just seen a press release or they had just seen a news item that it had been
closed and that was literally the first time we even heard that it was going to be closing



                                                      68
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

was when we basically read about it." Id. Attorney 3  also told the OIG he was not aware
that HO-09900 was closed, and said that he learned about that after it had happened,
although he was not sure how he learned about it. Exhibit 17 at 3. He added that he was
not consulted or involved in any way in the decision to close HO-09900. Id.

         In addition, the Enforcement staff investigating Mr. Cuban all testified there was
no inducement or promises made to witnesses to encourage them to cooperate with the
staff's investigation of Mr. Cuban. See Friestad Tr. at 41; Assistant
                                                                  Director 1   Tr. at 25; Attorney 1 Tr. at
35-36; Exhibit 17 at 3. Assistant
                          Director 1 further testified that in preparing his declaration filed in
opposition to Mr. Cuban's motion for attorney's fees, he went to Assistant   Director 2   and others on
the HO-09900 team "to confinn that they had no [sic] closed or made any ... salacious
side deals with anybody at Mamma.com in connection with closing that investigation" in
order to be as complete as possible when executing the affidavit. Assistant   Director 1 Tr. at 58.

        In the ongoing litigation, Mr. Cuban's counsel cited as evidence of the quid pro
quo a July 18, 2007 letter from Greenberg, counsel for Mamma.com, to Assistant
                                                                          Director 2
renewing their request to meet and resolve the HO-09900 investigation of Mamma. com.
Exhibit 103. That letter stated, "The Company has fully cooperated with the
Investigation as well as in other important SEC matters." Id. But the letter did not
directly mention the investigation of Mr. Cuban, nor did it suggest that only if or when
the HO-09900 investigation is closed would they cooperate with the investigation of Mr.
Cuban.Id.

        In fact, the evidence shows that Mamma.com had cooperated with the SEC from
the beginning of the investigation in~o Mr. Cuban's trading -- Faure provided an
interview and then testimony and documents and Mamma. com' s counsel provided
proffers and other documents -- all of which supported the SEC's case. The only thing
that was obtained from Mamma.com after the HO-09900 matter was closed was Faure's
second testimony, which was taken just after Mr. Cuban's second Wells submission.
Therefore, without more than this letter from Mamma.com to Assistant
                                                               Director 2 the OIG does not
find there is sufficient evidence to show a quid pro quo.

        Friestad, Assistant
                  Director 1      and Attorney 4 testified that they were unaware of what the other
"important matters" were in which Mamma.com had cooperated with the SEC, as
referenced in the letter. Friestad Tr. at 41; Assistant Director 1 Tr. at 26 & Attorney 4 Tr. at 55. In
                                    Assistant
addition, both Friestad and Director 1 did not believe that this letter invited a quid pro quo.
Friestad Tr. at 42 & Assistant
                        Director 1   Tr. at 26. Attorney 4 testified that he was "never privy to a
conversation where there was a quid pro quo discussed. I never learned later on, then or
now, that there was any quid pro quo relationship in this case." Attorney 4 Tr. at 56.
Friestad testified about the letter, "This suggests to me there have been at this point in
time almost more discussions underway for more than a year, since April 2006, about the
possibility of closing the other investigation long before the investigation, [sic] Mr.
Cuban, was even begun." Friestad Tr. at 42. In fact, Friestad pointed out that neither he
nor his staff were copied on the letter, and testified that he read the letter as " ...
suggesting to 2       [ Assistant
                        Director 2       why 2       should close Assistant
                                                                     Director 2 investigation, and nothing

more than that." Id. at 43.



                                                      69
  This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
  disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
  this report should not disseminate or copy it without the Inspector General's approval.



         In all, the OIG did not find sufficient evidence to substantiate the allegation that
  there was any involvement by the HO-I0576 team in closing the HO-09900 matter or that
  there was a quid pro quo for closing the earlier matter.

            C.      The OIG Did Not Find Sufficient Evidence to Substantiate the
                    Allegation that the Investigation was Motivated by Politics or Other
                    Improper Motives, Nor was the Allegation that Mr. Cuban was
                    Targeted aecause he Was High-ProfIle Substantiated

             The OIG investigation revealed that Attorney 1 opened this investigation as a result of
  finding instant messages while searching for the term "jail" while conducting another
  investigation, as discussed in Section I.A. Attorney 1 Tr. at 154-155. Attorney 1 testified that she
  was not searching for Mark Cuban's name. Id. She further testified that if she had come
  across this message and it involved some unknown person, and she learned the same set
  of facts, she would have opened an investigation and pursued it just the same. 30 Id. at
  155. While Attorney 1 was aware of who Mr. Cuban was, Attorney 3             and Assistant
                                                                                   Director 1 told the OIG
                                                           Attorney 1
  that they were not aware of who Mr. Cuban was.                      Tr. at 41; Exhibit 17 at 2;
  Assistant
  Director 1 Tr. at 36.

             The OIG investigation did not find specific evidence that anyone on the
  Enforcement staff was motivated to bring a case agairist Mr. Cuban because he was well-
  known or a high-profile individual. The OIG also did not uncover evidence that the
  Enforcement staff used derogatory or inflammatory language related to Mr. Cuban. The
  OIG investigation further revealed that the Enforcement staff only learned about the
  existence of the Norris/Cuban e-mail exchanges the day before the Wells meeting, and
  there was no evidence it had any bearing on their investigation. Assistant    Director 1
                                                                                           Attorney 3
                                                                                                      and
  Attorney 1
             all told the OIG that they were not told much about the e-mails and no one
  specifically remembered being told who in the Fort Worth office was e-mailing Mr.
  Cuban. Assistant
               Director 1 Tr. at 30; Exhibit 17 at 155 & 156; Attorney 1 Tr. at 36 & 37. In addition, the
  OIG found that no one on the Enforcement staffknew of or discussed Mr. Cuban's
  political views, even after reading the Norris/Cuban e-mail exchanges. Assistant Director 1at 36
  & 37; Exhibit 17 at 1; Attorney 1 Tr. at 39 & 40.

                    1.       There was Insufficient Evidence to Show that the Enforcement
                             Investigation was Motivated by Politics

         As outlined in Section I.D.4., the OIG also found that former Chairman Cox
 recused himself from the November 2008 meeting and vote to authorize suit against Mr.
 Cuban, and apparently did so only as a cautionary matter since he had been a recipient of
 some of the Norris/Cuban e-mail exchanges months earlier. UhlmannTr.at 28-30. The
 OIG found no evidence that fonner Chairman Cox had any other involvement in getting
 this case authorized. Id. The OIG uncovered evidence which showed that the Cuban

      PII
 30
PII




                                                        70
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Re~ipients of
tbis report should not disseminate or copy it without tbe Inspector General's approval.

matter was calendared a couple of times in early 2008, but likely was delayed because of
the difficulty of obtaining a quorum of the Commissioners at that time. Id. at 55 & 56.

        In the September 21, 2007 letter to Friestad from Ferrara, Mr. Cuban attached the
Norris/Cuban e-mail exchanges, along with a "reconstituted spreadsheet" and timeline of
those e-mails and argued, among other things:

                  More important, Mr. Cuban was concerned that the staff's
                  decision to initiate a law enforcement proceeding may have
                  been motivated by political animus. Mr. Cuban's concern
                  was heartfelt and not without foundation. . .. In the time
                  period leading up to Mr. Cuban's receipt of a Wells notice,
                  however, a senior SEC enforcement attorney in the Ft.
                  Worth office subjected Mr. Cuban to a series of astonishing
                  and threatening e-mails, some of which also appear to have
                  been shared with Chainnan Cox.

                  . . . I believe Mr. Cuban is entitled to know directly from
                  the Commission whether Mr. Norris, or the Chairman's
                  office prompted by Mr. Norris' e-mails to him, played any
                  role in the staff's decision to recomniend that a fraud action
                  be brought against Mr. Cuban. If Mr. Cuban is to have his
                  business hobbled by government allegations of fraud, those
                  allegations should not be rooted in suspicions over his
                  patriotism or loyalty to President Bush. Outside of the
                  beltway, even prominent businessmen believe that the
                  government is monolithic. It has been difficult to convince
                  our client that the diatribes leveled by Mr. Norris have not
                  played some role in the decision to prosecute him.

Exhibit 26; Exhibit 91 at 2 & 4.

       According to Friestad, this was the first time Mr. Cuban raised the issue of the
Norris/Cuban e-mail exchanges. Id.atI80-181. On September 24, 2007 Friestad
responded to Ferrara's letter as follows:

                  I am writing in response to your September 21, 2007 letter.
                  The above-referenced investigation [HO-I0576], which
                  was opened earlier this year, has been conducted entirely
                  by the Home Office staff. Mr. Norris, who works in the
                  Commission's Fort Worth Regional Office, has not had,
                  and will not have, any role in the investigation. Indeed,
                  although it does not excuse the conduct, my understanding
                  is that Mr. Norris was not even aware of the investigation at
                  the time of his e-mail communications with Mr. Cuban.
                  Rest assured, political cpnsiderations and personal opinions



                                                      71
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

                  will not have any bearing on any decisions that are made
                  during this investigation. All of the decisions that we have
                  made, and will make, regarding your client will be based
                  upon our review of the facts and the evidence.

Exhibit 104. These allegations are also the subject of the ongoing litigation.

                  2.       There is Insufficient Evidence to Show that the Enforcement
                           Staff Targeted Mr. Cuban Because he Was High-ProfIle

         Mr. Cuban and his counsel also alleged that they believed the investigation into
Mr. Cuban's trading was motivated by his high-profile public persona. Mr. Cuban
testified,

                  Not only [am I] relatively speaking high profile individual,
                  but I'm apolitical, so you can do a public search along with
                  my donations, and you don't see any contributions to any
                  side. You lmow, so it's not likely they're going to upset
                  somebody on one side of the aisle or on the other. And the
                  other thing about this, there's no downside for them to
                  pursue a high profile individual.

Cuban Tr. at 15. Mr. Cuban added, " ... when they were coming after me, Linda
Thomsen said in one of her presentations, we're out there finding big, high profile,
insider trading cases." Id. at 48. The OIG did find that in a speech given by Thomsen on
November 6, 2008 at the Fordham University Law School entitled, "True to Our Mission:
Why We Need the SEC," Thomsen stated, "While the pursuit of high profile insider
trading cases is one example of how the SEC promotes investor confidence in our
markets, the SEC's enforcement actions provide far more than just confidence." Exhibit
105 at 5. However, the OIG found no evidence that Thomsen or any other Enforcement
staff mentioned Mr. Cuban specifically on any occasion or speaking engagement.

        The OIG found that, around this timeframe, Enforcement was touting its success
in, and the deterrent effect of, insider trading cases. According to Friestad, Thomsen
gave a number of speeches about high-profile insider trading cases before this case was
filed. Friestad Tr. at 207. He believed that Enforcement's focus at that time was not to
bring cases against a single defendant, but against many; Friestad specifically pointed to
Enforcement's focus on professionals such as attorneys who have "repeat access to
material, non-public information, and are essentially engaged in the business of insider
trading." Id. at 207-208. However, Friestad testified that he never felt pressure to bring
cases against more well-known, high-profile persons. Id. at 208.

       To the contrary, Coggins testified as to his belief that Enforcement would want a
case against a recognizable individual:




                                                      72
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

                      This is a case I look at as a fonner prosecutor I would never
                      file a case, whether its civil or criminal, based on someone
                      like Guy Faure, unless I had extremely strong
                      corroboration. So my sense was, Mark is a very high
                      profile guy and I thought that to some extent the fact that he
                      was such a high profile individual, was coming back to hurt
                      you in this instance. That this was a case that probably
                      wouldn't have been brought against a less noteworthy
                      individual.

Coggins Tr. at 25. Likewise, Mendrygal testified, "I'm speculating, but I think it doesn't
hurt to have a high-profile target, you know, to help further your enforcement agenda."
Mendrygal Tr. at 32.
         Attorney 3
                   did not remember any excitement about the case because Mr. Cuban
was high-profile, and added that he was particularly interested in the case because he was
especially interested in the PIPEs cases, which was a new area for the SEC at the time.
Exhibit 17 at 2. He also did not remember any push from Thomsen to bring high-profile
cases. Id.

        In all, the OIG found that while Thomsen gave a speech about the SEC's
Enforcement program and mentioned the deterrent effect of bringing high-profile cases
just before the SEC filed its complaint against Mr. Cuban, there is no evidence that this
gave rise to the investigation of Mr. Cuban, opened nearly two years earlier. Moreover,
the evidence shows that Thomsen was unaware of the Enforcement investigation of Mr.
Cuban until just before the fonnal order was requested at the end of February 2007. The
OIG also found no evidence, either in testimony or through the review of more than
400,000 e-mails, that Mr. Cuban was targeted by the Enforcement Division because he
was a high-profile individual.

                      3.     There is No Evidence that the FWRO Trial Attorney Who
                             E-Mailed Mr. Cuban Had Any Involvement in the
                             Investigation into Mr. Cuban's Trading or that the E-Mail
                             Exchanges Played a Role in the Investigation of Mr. Cuban

       The OIG investigation revealed ample evidence that Norris had no involvement in
the investigation into Mr. Cuban's sale of his Mamma.com shares, nor did anyone on the
Enforcement staff become aware of the e-mails exchanges between Norris and Mr.
Cuban until after the Wells notice.

       Norris wrote an undated lengthy letter of apology to Mr. Cuban, released during
the ongoing litigation of this matter, after he was removed from federal service. Exhibit
106. In that letter, Norris wrote, among other things:

                      ... I never had any role in the investigation or litigation of
                      the SEC's civil enforcement action against you.' In fact, I



                                                      73
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy It without the Inspector General's approval.

                  was not even aware that the SEC had an investigation
                  focusing on you until well after our exchange took place. I
                  had no role in any decisions made during the investigation
                  or after the SEC commenced its lawsuit. Indeed, to this
                  day, I have never discussed the case with any of the
                  enforcement attorneys assigned to it and I remain largely
                  ignorant of the evidence and allegations.

Id. at 4.

       In Kaplan's September 30,2009 declaration filed in the ongoing litigation of this
matter Kaplan stated, among other things:

                  Former Commission trial attorney Jeffrey Norris, located in
                  the Commission's Fort Worth Regional Office at the time,
                  did not participate in the Commission's investigation and
                  had no role in the review, recommendation, or litigation of
                  this case. Further, Norris had no direct or indirect
                  supervisory relationship or role with anyone working on the
                  investigation. The investigation was conducted entirely by
                  the enforcement staff in Washington, D.C. The
                  Norris/Cuban email exchanges and the matters referenced
                  therein were not a factor in, and had no effect on, the
                  initiation or continuation of the investigation or the staff s
                  decision to recommend that the Commission file insider
                  trading charges against Cub~n.

Exhibit 102 at 1-2. Kaplan testified that he based these statements on the fact that he
supervised the Enforcement team working on the Cuban matter and that he "knew for a
fact ... Mr. Norris had nothing to do with the investigation." Kaplan Tr. at 37. He also
testified that for that same reason he knew that the Norris/Cuban e-mail exchanges were
not in any way a factor in the investigation. Kaplan Tr. at 39.

           Friestad testified that before receiving the e-mail exchange between Norris and
Cuban on May 9, 2007 fro~ Norris, he did not know that Norris had been e-mailing
Cuban, nor had Norris ever discussed Mr. Cuban with him. Friestad Tr. at 44 & 48-49.
Attorney 3
              told the ola that Norris had no involvement whatsoever in the insider trading
case against Mr. Cuban and that the e-mail exchange containing "political nonsense" had
no bearing on the investigation. Exhibit 17 at 7. Similarly, Attorney 1 testified that the
Norris/Cuban e-mail exchanges, which she saw for the first time when Mr. Cuban's
counsel attached them to their second Wells submission, had no bearing on their
investigation of Mr. Cuban and that Norris had no involvement whatsoever in their
investigation. Attorney 1 Tr. at 40-41.




                                                      74
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

        The OIG investigation found there is no evidence that Norris had any involvement
in the investigation into Mr. Cuban's sale of his Mamma.com shares, or that his e-mails
had an impact on the investigation.

                  4.       Associate Director Friestad Failed to Promptly Inform Agency
                           Officials of the Inappropriate E-Mail Exchanges

        The OIG found that Friestad became aware of some of the inappropriate e-mail
exchanges between Norris and Mr. Cuban in early May 2007, and failed to promptly
report the inappropriate e-mail exchanges to anyone at the agency, including Thomsen,
the FWRO, OHR, or the OIG to ensure appropriate disciplinary action was initiated. In
fact, the OIG found that no immediate action was taken until the Chainnan's office
became aware of the e-mail exchanges on or about July 13, 2007. We found that Friestad
did immediately contact Norris and told him to stop communicating with Mr. Cuban, and
alerted Norris that there was an ongoing investigation related to Mr. Cuban.

        As discussed in Sections I.D.2.&3., Friestad's immediate response when he was
forwarded Norris's May 5, 2007 e-mails to Mr. Cuban was to call Norris and tell him to
stop communicating with Mr. Cuban. Friestad testified that he realized Norris's actions
raised "potential personnel issues" beyond having an impact on the investigation of Mr.
Cuban and explained the additional actions he took after learning about Norris e-mailing
Mr. Cuban. Friestad Tr. at 54. According to Friestad, he wanted to learn more about the
exact sequence of events and,

                  shortly after this interchange, and by shortly I mean two or.
                  three weeks or a month, I had had commUnications with
                  someone I know in the Chainnan's office who confinned to
                  me that Mr. Norris had in fact sent these e-mails to the
                  Chairman. And not only what I was aware of, but
                  substantially more than I was aware of.

Id. at 54-55. He further testified that it may have been when he had the "follow-up
communications" with the Chairman's office that he learned of the additional March 28-
29,2007 e-mail exchanges Norris had with Mr. Cuban. Id.at55. Friestad testified that
he talked to Counsel in the Chairman's office and that it probably occurred in mid-June
2007. Id.

        As noted in Section I.D.3., Friestad suggested in his testimony before the OIG
that he may have first contacted the Chairman's office about the Norris/Cuban e-mail
exchanges, but the OIG investigation showed that the Chairman's office reached out to
him and Thomsen in Enforcement and others at the agency about it. When asked if he
took any immediate action after talking to Norris, Friestad testified, "I don't recall when I
first had [initial] contact with Mr. Counsel but it was at some point between those time
periods, I believe." Id. at 56. Friestad admitted, however, he did not contact OHR at that
time, nor did he speak with Thomsen about it "until I heard back from Counsel Counsel    in
the Chairman's office." Id. When asked what he was doing in the period of time



                                                      75
 This document Is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
 this report should not disseminate or copy it without the Inspector General's approval.

 between when he spoke to Norris about his e-mailing Mr. Cuban and learning from the
 Chairman's office that the Chairman had been copied on those e-mails.Friestad testified,
 "Well, there's a limit to what I could do. I couldn't contact Mr. Cuban to ask him." Id.

          When asked in his OIG testimony why he did not reach out to OHR or Thomsen
 or the FWRO, Friestad responded, ''That's what we did do when I learned more details
 about what had happened.,,31 Id. at 57. Friestad admitted, "I didn't really have a reason"
 for waiting to tell Thomsen about the e-mail exchanges.Id. When asked ifhe recalled
 reaching out to Counsel   Friestad testified that he did not have a "great recollection" about
 the sequence of events. Id. But he did testify that the same day Counsel informed him the
 Chairman had received the e-mail exchanges, " Counsel Counsel      and I, went to talk to
 Linda." Id. at 59. Then, according to Friestad, he and Thomsen notified the OIG, and
 shortly thereafter called the FWRO and spoke with Romero or Korotash. Id. Friestad
 testified that they called Romero and Korotash because they were Norris's supervisors,
 and he recalled that they were shocked by these e-mails, but not surprised it was Norris.
 Id. at 62-63.

           In contrast to Friestad's testimony in which he implied that he may have
  contacted Counsel first about whether the Chainnan had in fact been copied on these e-
  mail exchanges, (testifying he did not talk to Thomsen, ''until I heard back from Counsel
  [Counsel   in the Chainnan' s office"), Uhlmann and Counsel both testified that Counsel
  reached out to Friestad first. As discussed in Section I.D.3., Counsel testified he recalled
  that he went to Friestad's office and infonned him about the Norris/Cuban e-mail
  exchange and that "at some point during-the conversation, he indicated some familiarity
  with the e-mail." Counsel      atI8. Similarly, Uhlmann recalled that Counsel reported
                     Counsel
  back to him that           had spoken to Friestad and learned that there was an active
  investigation ongoing of Mr. Cuban and that Friestad was aware of the e-mails. Uhlmann
  Tr. at 15 & 18. According to Counsel     and also contrary to Friestad's testimony, he went
  to Thomsen's office by himself to infonn her about the Norris/Cuban e-mail exchange
  and while he was in her office, Thomsen picked up the telephone arid called Romero and
  the Inspector General. Counsel Tr. at 18-20. Counsel testified that he had the impression
. that Thomsen, unlike Friestad, was not aware of the Norris/Cuban e-mail exchanges until
  he infonned her of them. Id. at 19.

        In all, the OIG finds that Friestad failed to promptly report Norris's misconduct of
 sending Mr. Cuban inappropriate e-mails from his SEC computer. As noted above, SEC
 employees have long had a duty to report misconduct. 32 Although the investigation


 31 In a July 23,2007 e-mail Korotash informed Romero, "I spoke with Jeff [Norris]. He assures me that he
 has had no further contact with Mr. Cuban subsequent to learning from Friestad that Cuban was the subject
 of a Commission investigation ...." Exhibit 107.

 32 Mr. Cuban alleged that Friestad's failure to promptly report this misconduct violated SEC policy.
 Specifically, he alleged that the Enforcement Manual required staff to report attorney misconduct to the
 Ethics Office. Exhibit 1 at 8. But the section that he cited, Section 5.5.5 of the October 2008 version of the
 Enforcement Manual, merely states that the Ethics Office should be contacted when the staff is considering
 referring an attorney to a professional licensing board for misconduct. Exhibit 108. It does not provide
 guidance on the procedure for reporting employee misconduct. Id. In addition, he claimed that the OIG's


                                                       76
 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
 this report should not disseminate or copy it without the Inspector General's approval.        .

 revealed that Friestad did promptly instruct Norris to stop communIcating with Mr.
 Cuban, and Norris was eventually disciplined by his superiors in the FWRO in August
 2007 for this conduct, action against Norris may have been taken earlier had Friestad
 immediately reported Norris's misconduct to Norris's supervisors, OHR or the OIG.
 Accordingly, we are recommending that Friestad receive counseling to ensure that any
 future misconduct by another employee is promptly reported to the appropriate officials.

              D.           The Allegation that the Enforcement Staff had a Preconceived Bias of
                           Mr. Cuban's Guilt was Not Substantiated

         The OIG investigation did not substantiate the allegation that the Enforcement
 staffhad a preconceived bias against Mr. Cuban. The OIG did not uncover any evidence
 that Enforcement staffknew of, or discusseQ, Mr. Cuban's political views. The OIG also
 did not find that Attorney 2 and Thomsen's comments made during the Wells meeting,
 or Friestad sending photographs of Mr. Cuban to other senior officials without any
 commentary, evidenced a bias against Mr. Cuban in its investigation.

                           1.      Enforcement Staff Were Unaware of Mr. Cuban's Political
                                   Views

          Friestad testified that before the MUI·was opened, he knew Mr. Cuban was the
 owner of the Dallas Mavericks, that he had had a television show called, "The
 Benefactor," and "generally associated him with having been an entrepreneur involved
 with a dot com company." Friestad Tr. at 88-89. Similarly, Attorney 1 testified that she
 knew of Mark Cuban when she opened the MUI, but just knew that he owned a
 basketball team but "I don't even think I knew which one." Attorney 1 Tr. at 41. Attorney 2
 testified that he "knew of Cuban, generally, from his self-created, celebrity persona."
 Attorney 2                     LE/DP

LE/DP



LE/DP                                                   Assistant
                                                        Director 1

 fact by listening to the tape recording of that meeting.
              Assistant
                testified he did not know who Mr. Cuban was when the Enforcement staff
              Director 1

 opened the investigation. Assistant
                            Director 1 Tr. at 36. He testified,

                           ... there was a view that as we would talk about the case or
                           as the -- when my team came to me to talk about the case I
                           didn't know who he was. When we had first talked about
                           the matter with Linda [Thomsen] she didn't know who he
                           was. There was some discussion of whether it was a litmus


 website stated that SEC employees are "responsible for reporting ... misconduct affecting Commission
 programs and operations." Exhibit 1 at 8. As outlined above, SEC employees have long been reminded of
 their duty to disclose waste, fraud, abuse and corruption to appropriate authorities, such as to supervisors or
 the Office of Inspector General.



                                                       77
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

                   test of whether you were a sports fan whether you had ever
                   heard of him. I had not heard of him.

      Attorney 3
ld.            also told the OIG he did not know who Mr. Cuban was prior to his
involvement in the investigation. Exhibit 17 at 2. Therefore, according to Attorney 3 he
had not formed any opinions of Mr. Cuban and had "no personal feelings about him one
way or another." ld. As discussed in section II.D.3., according to Friestad, neither
Thomsen nor Joan McKown ("McKown") knew of Mark Cuban either when they learned
of the investigation. Friestad Tr. at 91-92.

        According to Uhlmann, former Chairman Cox also did not know who Mark
Cuban was. Uhlmann Tr. at 11. Friestad testified that he knew Norris was very
conservative, but he did not know anything about Mr. CUban's political views before
opening the case nor did he know anything about Mr. Cuban's alleged backing of a
movie called, "Loose Change." Friestad Tr. at 48-49. No one else on the Enforcement
staff was familiar with the alleged backing of the movie either. Assistant
                                                                  Director 1 Tr. at 36; Attorney 1
           Attorney 2
Tr. at 40;            Tr. at 93. Mr. Cuban himself testified that he is "apolitical" and is
not aligned with any particular party. Cuban Tr. at 15.

                           Attorney 2
                   2.               and Thomsen made Comments Alleged to be
                           Inappropriate at the Wells Meeting
                                        Attorney 2
                           a.                        Comment about Mr. Cuban

           Mr. Cuban alleged that there was "an apparent violation of the SEC's standard of
conduct toward parties and their counsel" when trial attorney Attorney 2 Attorney 2 stated,
"Mr. Cuban takes irrational and silly risks every day" and that his alleged actions in their
investigation were consistent with that. Exhibit 1 at 3. Mt:. Cuban alleged that Attorney 2
made this comment in response to Mr. Cuban's counsel making the argument, during the
Wells meeting, that it would be illogical for Mr. Cuban to have risked his reputation on
the relatively small amount of money that the Enforcement staff claimed Mr. Cuban had
saved by engaging in his alleged insider trades. ld. Specifically, Mr. Cuban alleged that
Attorney 2
               comment was not "temperate" or "impartial," as required by 17 C.F.R. §
200.69, and that it showed a "preconceived notion of Mr. Cuban" and a "propensity to
prejudge him without regard to the facts." ld.

        The 01G found that the evidence established that Attorney 2 made the comment,
"Mr. Cuban takes irrational and silly risks every day" or similar words to that effect in
the Wells meeting on July 19,2007. The comment was confirmed by Coggins and
Mendrygal, memorialized in a memorandum prepared the next day from notes taken
during the meeting, and Attorney 2 acknowledged a comment like that was made.

        The 01G further found that although the comment was made as part of a back-
and-forth conversation in a Wells meeting about the strengths and weaknesses of the case
against Mr. Cuban, and Mr. Cuban's propensity to take risks was not altogether irrelevant
to the merits of the SEC's case (particularly when his counsel raised the argument that



                                                      78
  This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
  disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
  this report should not disseminate or copy it without the Inspector General's approval.

  Mr. Cuban would not risk everything he had and his reputation for the amount of dollars
  at stake), Attorney 2  could have been more temperate in his language. An argument that
  Mr. Cuban has taken certain risks that would undennine the argument made by his
  counsel that he would not risk his reputation on a relatively 'small amount of money may
  have been an appropriate response. But Attorney 2      stating that Mr. Cuban "takes
  irrational and silly risks· every day" is not productive to a ·professional dialogue about the
  facts of a case, even in the context of a discussion of litigation risks. 33 Accordingly,


       LE/WP
  33
 LE/WP



                   LE/WP




  Exhibit 53 at 8. The OIG
  trial in the Cuban matter. LE/WP
 LE/WP




LE/WP




LE/WP




                   LE/WP




                                                        79
 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
 this report should not disseminate or copy it without the Inspector General's approval.

 while the OIG does not conclude that Attorney 2    comment is so inappropriate as to
 justify a recommendation that disciplinary action be taken against him, nevertheless, we
 are recommending that Attorney 2  be counseled on this matter.

         But such a statement, standing alone, does not evidence a bias against Mr. Cuban,
 particularly when it was made in the moment of responding to Mr. Cuban's counsel's
 argument. Moreover, Attorney 2    was appointed to the case only just before the Wells
 meeting and well after the Wells notice was provided.

                             b.       Former Director of Enforcement's Comment

          Mr. Cuban also alleged that in the Wells meeting Thomsen gave the appearance
 that the staff's early initiation of the Wells process might have been motivated by a
 preconceived notion of Mr. Cuban's supposed CUlpability. Specifically, in the
 memorandum prepared by Fish & Richardson on the day following the Wells meeting, it
 stated that in response to Coggins arguing that there were credibility issues surrounding
 Faure, "Ms. Thomsen explained that 'This is a one-on-one case -- if there was a
 confidentiality agreement, we win. If not, we lose.' Ms. Thomsen then said that
 everything else Paul [Coggins] discussed is 'noise. '" Exhibit 71 at 2. Coggins,
 according to the memorandum, argued that it is not just "noise" because the SEC
 admitted this is a credibility contest between Mr. Cuban and Faure. The SEC responded
 that this information by Coggins was irrelevant, according to Coggins. Id.

          Mr. Cuban testified about his view of Thomsen's alleged comment,

                   ... to just dismiss what we were working on as noise is
                   very presumptuous anyways, particularly when we were
                   referring to somebody that had a 48 count indictment from
                   the Department of Justice. How in the world is that noise,
                   and how could she be objective? And particularly knowing
                   what we know about Subject Subject to say it's noise, and
                   particularly when she knows how important it is to us in
                   our preparation to dismiss it, it just shows that she had
                   already come to a conclusion.

 Cuban Tr. at 40.


                  LE/WP




LE/WP


LE/WP




                                                       80
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

        The OIG found that Thomsen did make this comment, which Friestad and Assistant
                                                                                     Director 1

recalled, but that the comment was not inappropriate in and of itself, nor did it evidence a
bias or predetennined agenda against Mr. Cuban. While perhaps Thomsen could have
chosen a different word to describe her view that certain arguments were irrelevant or
extraneous to the merits of the case against Mr. Cuban, the word "noise" is this context is
not sufficiently impertinent to be considered inappropriate.

                  3.       Sending Photographs of Mr. Cuban to Senior Officials Who
                           Were Not Familiar with Mr. Cuban Did Not Per Se Evidence a
                           Bias Against Him

       The OIG found that Friestad sent Thomsen and another senior official
photographs of Mr. Cuban after Thomsen first became aware of the investigation against
Mr. Cuban and told Friestad she did not know who he was. Mr. Cuban has alleged in the
ongoing litigation that this also showed a bias against their client and was inappropriate.

        On February 26, 2007, Friestad sent Thomsen and McKown, then Chief Counsel
of Enforcement, an e-mail entitled, "Mark Cuban," attaching six photographs of Cuban.
Exhibit 110. Three of the photographs of Mr. Cuban show him in an animated state, and
two of the photographs are of him smiling, including one apparent publicity shot of him
holding stacks of money. Id. Thomsen responded to the e-mail saying, "Charming." Id.
McKown responded, "Now I feel fully infonned. The picture with the money is
particularly helpful and certainly speaks a 1,000 words (if not more)." Exhibit 111.
Friestad testified that on or around this date is the first time he infonned Thomsen that
they were investigating Mark Cuban. Friestad Tr. at 91. Friestad added:

                  And as I recall, we were at that point in time very close to
                  sending a memo to the Commission to obtain a fonnal
                  order and we had been in contact with the Chainnan' s
                  Office and considering among ourselves that we should
                  request that the fonnal order recommendation be
                  considered by the Commission in Executive Session.....
                  And then I went to Linda's [Thomsen] office to tell her that
                  that was happening, and she sort of questioned me as to
                  why it was important that it be an executive session.....
                  And I said, 'Because it involves potential insider trading by
                  Mark Cuban,' and she had never heard of him before. So I
                  told her I find that hard to believe, but she said she, didn't,
                  and then she called Joan [McKown] from her office while I
                  was standing there; asked Joan if she had ever heard of
                  Mark Cuban. And Joan said, 'No,' she had never heard of
                  Mark Cuban. And so I tried to explain to them that, you
                  know, who he was ....

Id. at 91-92. Friestad explained that shortly after that discussion, he went back to his
office and conducted a quick "Google" Internet search of Mark Cuban, which resulted in



                                                      81
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to tbird parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without tbe Inspector General's approval.

his finding several photographs of Mr. Cuban. [d. at 93. Friestad testified that he did not
give the search a lot of thought, but "tried to pick representative photos from what
popped up when you do a Google search ...." [d. According to Friestad, he cut and
pasted the photographs and e-mailed them to Thomsen and McKown. [d. at 93-94.
Friestad testified he had no further discussions with Thomsen about these photos, and had
no further discussions with McKown about Mr. Cuban personally. [d. at 97 & 98.

       Friestad testified that he did not believe that his sending these photographs
showed he had a bias against Mr. Cuban, and said that it was not his intent nor the
context of his e-mail. [d. at 98-99. When asked, "would you agree that none of these
photos are partiCUlarly flattering photos of Mark Cuban?" Friestad testified, "Actually,
no. I don't agree with that." ... "I think the biggest one and the first one is a nice picture
of him. I think he has a nice smile ...." [d. at 94. He explained that he did not say
anything pejorative or disparaging about Mr. Cuban and added, "I don't think I have
[spoken that way] to anybody during the course of this investigation." [d. at 98.

       The OIG found that while not all of the photographs were necessarily flattering to
Mr. Cuban, the mere act of conducting an Internet search of Mr. Cuban and e-mailing a
few photographs that were located in the search to two SEC officials who were not
familiar with Mr. Cuban, without any commentary, is not sufficient to show evidence of a
bias against Mr. Cuban that could have tainted the investigation.

         E.       The OIG Did Not Find Sufficient Evidence to Support the Allegation
                  that the Enforcement Staff "Tamped Down" a Witness

       In the complaint letter filed with the OIG and in the September 21, 2007 letter
from Ferrara to Friestad, Mr. Cuban alleged that his ability to .compile a "full factual
record" was complicated and delayed by at least three factors. Exhibits 1 & 91. First
among those reasons was:

                  ... many of the witnesses expressed concern that
                  cooperating with our investigation would cause them
                  problems with the SEC. At least one entity indicated that it
                  had received a call from a member of the SEC's
                  enforcement team expressly discouraging it from making a
                  witness available -- in the words of one person, 'tamped
                  down' by the SEC staff.

Exhibit 91 at 4. Mr. Cuban's counsel wrote to the OIG that the Enforcement staff made it
clear that they were annoyed that Mr. Cuban's counsel was conducting their own
investigation and were "outraged" when they learned Mr. Cuban's counsel had spoken to
some witnesses before they had. Exhibit 1 at 4. They also claimed that the Enforcement
staff suggested they had the "exclusive right" to these witnesses. [d. During the
litigation of this matter, and in the June 2,2011 complaint letter from Mr. Cuban's
counsel to the OIG, they made a specific allegation that Attorney 1 "effectively instructed Mr.
Aguilar not to pennit Mr. Cuban's counsel to speak with Witness 1 Witness 1 ...." Exhibit 3 at



                                                      82
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

2. They alleged that this violated the District of Columbia Rules of Professional
Conduct, where Attorney 1 is a member of the bar. ld. at 4-5.

             Mr. Cuban alleged that in or around early or mid-2007, but no later than June 6,
2007, Mr. Witness 1 counsel, Aguilar, told Coggins that he had received what he
characterized as a "tamp down" call, or what he described as "an unofficial don't make
your witness available call" from the SEC. ld. Specifically, Mr. Cuban alleged that
Attorney 1
            "effectively instructed Mr. Aguilar not to permit Mr. Cuban's counsel to speak
         Witness 1
with               the Merriman employee who had spoken with Mr. Cuban about the PIPE in
2004.,,34 ld.

        In an August 15,2007 memorandum prepared by Dewey & LeBoeuf for their file
which documented a telephone call with Aguilar from the day before, it stated, among
other things, that Aguilar told them that Attorney 1 made the alleged "tamp down" call to him
"about 4-5 months ago" (i.e., March or April 2007), and shortly before he was first
contacted by Fish & Richardson. Exhibit 112 at 2. The memorandum further stated:

                  He [Aguilar] stated that this call was what he, as a
                  prosecutor, used to call a 'tamp-down call.' He clarified
                  that a tamp-down call is 'an unofficial don't make your
                  witness available call.' He stated that 'we all know what
                  that means and doesn't mean.'

ld. The memorandum further noted:
                                                                    Attorney 1
                  Mr. Aguilar received a second call from
                  approximately 2-3 weeks ago, requesting Mr. Witness 1
                  testimony under oath but, according to Mr. Aguilar, only
                  sworn testimony 'under the shroud of the [SEC's]
                  investigatory procedures,' rather than a formal deposition.
                  Mr. Aguilar recalled that Attorney 1  expressed no time
                  urgency regarding this testimony and that although he
                  initially proposed a mid-September date, it conflicted with
                  Rosh Hoshanna; no date was agreed upon before Mr.
                  Aguilar left on vacation, nor has a date been agreed upon
                  since.


                  When Mr. Ferrara inquired as to whether Mr. Aguilar
                  would make Mr. Witness 1 available for at least an interview


34 The OIG contacted Aguilar in early May 2011 to request his testimony or an interview in this matter.
Aguilar informed the OIG that he had counsel, so we contacted his counsel to make our request. Aguilar's
counsel informed us that Aguilar would not provide the OIG with an interview or testimony, but may be
willing to answer written questions. The OIG, therefore, sent Aguilar's counsel a few questions in early
June 2011 related to this "tamp-down" allegation against Attorney
                                                         1        To date, the 010 has not received a
response from Aguilar or his counsel to those questions.


                                                      83
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

                   with leBoeuf prior to the September 7, 2007 due date for
                 " the Supplemental Wells Submission, Mr. Aguilar explained
                   that he has been resisting the same request from F & R
                   [Fish & Richardson] for months. He reiterated the two
                   reasons for doing so mentioned above: 1) the tamp-down
                   call dd 2) his desire to avoid having Mr. Witness 1 give
                   mUltiple statements.


                  Mr. Aguilar said that he would detennine whether to make
                  Mr. Witness 1 available for an interview after returning to the
                  office on August 27, ~007. . .. Mr. Aguilar stated that he
                  needed to speak with Mr. Witness 1 and the SEC before he
                  made this decision. . . . . Mr. Aguilar then explained that
                  he wanted to speak to the SEC only for coordination
                  purposes, because he did not want Mr. Witness 1 to end up
                  having two interviews/transcripts, which Mr. Aguilar
                  believes would result in Mr. Witness 1 using the first transcript
                  to refresh his recollection throughout any second interview.

Id. at 2-4.

           In the February 12,2010 Declaration of Christopher Luis Aguilar, submitted by
Mr. Cuban's counsel in the ongoing litigation, however, Aguilar declared that the tamp-
down call happened in August 2007. Exhibit 113 at 6. In that declaration, Aguilar stated
that from March 27,2000 until April 1, 2009, he was General Counsel of Merriman and
that from October 2004 until November 2008, he was the Chief Compliance Officer of
Merriman. Id. at 1. Aguilar also declared that "he spoke to Attorney 1 to coordinate and
conduct a telephone interview of Witness 1 in December 2006 and that he later arranged for
Witness 1
          to provide sworn testimony to the SEC in October 2007. Id. at 2. He further
swore:

                  On a few occasions in the spring and summer of 2007, I
                  was asked by attorneys for Fish & Richardson, counsel to
                  Mr. Cuban, if they could interview Mr. Witness 1 I refused
                  counsel's request because I did not believe such an
                  interview would be in the best interests of Merriman
                  Curhan or Mr. Witness 1

                  In August 2007, I was contacted by attorneys from Dewey
                  LeBoeuf, counsel to Mr. Cuban. They asked me if they
                  could conduct a formal, recorded interview of Mr. Witness 1
                  concerning the Company's PIPE transaction
                                                                 Attorney 1
                  Cuban. Following that request, I telephoned
                  and told her I had been asked by Mr. Cuban's counsel to
                  make Mr. Witness 1 available for an interview with Mr.



                                                      84
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

                                                    Attorney 1
                      Cuban's c               ked              whether she had any
                                 Attorney 1
                      objection.               stated that she would prefer that I did
                      not produce Mr. Witness 1 to Mr. Cuban's counsel for an
                      interview but that I could do what I wanted.
                                              Attorney 1
                      My conversation with                  was very short and she
                      did not explain why she preferred that I not produce Mr.
                      Witness 1
                                for an interview. In a subsequent telephone call with
                      Dewey LeBoeuf, I explained that I thought it could be a
                      'tamp down' effort -- an unofficial tenn I used to describe a
                      government official's suggestion to an attorney not to make
                      a witness available to counsel for an individual who is the
                      subject or target of an SEC investigation or criminal
                      proceeding. 3s

Id. at 2-3 (emphasis added). In addition, Aguilar declared that he did make Witness 1
available to Mr. Cuban's counsel before Witness 1 provided sworn testimony to the SEC:

                      I later decided that a formal, recorded interview with Mr.
                      Cuban's counsel was not in Mr. Witness 1 or Merriman
                      Curhan's best interests. I did pennit Mr. Witness 1 to
                      participate in an infonnal, unrecorded conversation with
                      Dewey & LeBoeuf lawyers on September 5,2007. I also
                      pennitted Mr. Witness 1 to provide a short affidavit to Dewey
                      & LeBoeuf. Mr. Witness 1 later provided sworn testimony to
                      the SEC Staffin October 2007.

Id. at 3.
         Attorney 1
              testified that she believed Aguilar was referring to a conversation in which
Aguilar contacted her in an attempt to schedule Witness 1 testimony. Attorney 1 Tr. at 12l.
She described the call:

                      He was very agitated during the call, and he told me that he
                      had to get back to Dewey and LeBoeuf later that afternoon.

3S   There was at least one earlier version of this declaration, apparently prepared by Dewey & LeBoeuf and
relea               he ongoing litigation, which stated, among other things, "In a telephone conversation I had
withAttorney 1      several months after the SEC's December 11,2006 interview of Mr. Witness 1 she made it
clear to me that the SEC was opposed to Mr. Witness
                                                 1
                                                        being made available to Mr. Cuban's counsel, and she
discouraged me from giving Mr. Cuban's counsel access to him." Exhibit 114 at 4, That draft declaration
also stated, "Through this 'tamp down' conversation I understood Mr. Attorney
                                                                            1       to be suggesting that if
Merriman Curhan assisted or cooperated with Mr. Cuban or his counsel, the SEC would look with disfavor
on Merriman Curhan in its future dealings with the SEC." Id. Attorney
                                                                    1      testified that the original Aguilar's
draft declaration stated that she had made the purported tamp-down call in connection with the request
from Fish & Richardson and that she had opposed making Witness 1      available to them. Attorney
                                                                                            1      Tr. at 126.
Attorney testified that this was inaccurate and was "obviously later rejected by him [Aguilar] in ... the signed
1
declaration." Id.



                                                           85
This document is subject to the provisions of the Privacy A~ of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

                      And 1 said, 'That's fine, but we've had our subpoena
                      pending for a month. We want to talk to your client. We
                      want to talk to him first if possible,' and that was it.


                      And 1 told him we needed to schedule another call. 1
                      needed to talk to my supervisor, and we were going to have
                      another call in the afternoon, and he needed to give us a
                      date, and that was the call. I never told him not to make
                      Witness 1
                                available to Cuban's counsel.

Id. at 121. Attorney 1 explained that she wanted to speak to Witness 1 before Mr. Cuban's
counsel did "[b]ecause of the calls I had been getting from counsel about the threats that
Dewey & LeBoeuf were making about potentially suing their clients, and we were
concerned that people's stories might change if Dewey LeBoeuf talked to them first." Id.
at 122. According to Attorney 1 Aguilar brought up these threats telling her that Dewey 8?
LeBoeuf was "pressuring him or turning up the heat, something like that." Id. at 123.
Attorney 1
           reiterated that she did not tell Aguilar she would prefer he not produce Witness 1 to
Mr. Cuban's counsel testifying, "The only preference I expressed was wanting the SEC
to go first with the testimony." Id. at 125 & 126.
         Assistant
                 recalled that in late August, he believed August 27, 2007, he sat in on a
         Director 1
            Attorney 1
call with         to Aguilar. Assistant
                                Director 1 Tr. at 135. He testified that at that point the SEC had
been getting reports from counsel that Dewey & LeBoeuf were pressuring witnesses to
give statements on the record and threatening them with legal action if they declined to
do so. Id. He explained that Attorney 1 was attempting to schedule Witness 1 testimony at that
time, and that Aguilar called Attorney 1 "similarly unhappy" that they were pressuring him to
make Witness 1 available for a statement. Id. According to Assistant
                                                                Director 1 the Enforcement staff
was "extremely distressed" by this conduct, and so he participated in a call to Aguilar to
"find out the circumstances upon which he [ Witness 1 was being asked to sit for a
statement." Id. at 135-136.

         Assistant
                testified that during that call with Aguilar, he probed to determine what
         Director 1

threats or inducements were being made to pressure Witness 1 to sit for a meeting with Mr.
Cuban's counsel. Id. at 136. Assistant
                                Director 1 described what happened during that call, which he
testified "remember, this is a call that we had placed because we thought Mr. Aguilar was
looking to us for some manner of assistance ....,":

                      In the middle of that call Mr. Aguilar -- I'll characterize it
                      as 'turns on a dime' and says, 'I know what you're trying to
                      do, you're trying to tamp me down.' And Attorney
                                                                   1     and 1 both
                      looked at each other and I think 1 said, 'What does that
                      mean?' And he says, "You're trying to discourage us from
                      making Mr. Witness 1 available to Mr. Cuban's counsel.' At
                      which point we said, 'Whoa, no, we're telling you you
                      don't have to talk to Mr. Cuban's counsel. If you want to



                                                      86
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

                  talk to him do whatever you want, but you're not obligated
                  to t~ to opposing counsel. '

                  And I don't remember that much more about the call other
                  than I think we worked out some scheduling issues, I think
                  there was a question of when Mr. Witness 1 would be
                  available. But it was a bizarre call and I think afterwards
                  Attorney
                  1        and I had sort of talked about it a little bit about what -
                  - how that went in a bizarre direction because we thought
                  we were helping somebody out and certainly that was never
                  our intention to make -- to encourage him to make sure that
                  Mr. Witness 1 wasn't made available to Mr. Cuban's counsel.

Id. at 136-137.
                                                                                           Attorney 1
        According to Mr. Cuban's counsel, "even if the facts bear out that
simply articulated her preferen                ming of presenting MCF [Merriman]
                                  Attorney 1
employees to defense counsel,                  conduct violated basic standards of conduct
applicable to every executive branch lawyer." Exhibit 3 at 4. They cited 5 C.F.R. §
2635.101 which states the basic obligation of public service is public trust and requires
Executive Branch employees to avoid even the appearance of unlawful or unethical
conduct. They further asserted that even this preference for timing "arguably violated the
D.C. Bar Rules of Professional Conduct." Id. Mr. Cuban's counsel cited, among other
cases, to In re: PRE File No. 2004.208, Decision No. 78 before the State or Vermont
ProfeSSional Responsibility Board, attached hereto as Exhibit 115, because they stated
that DC Bar Rule 3.4 is identical to the Vennont Rule of Professional Responsibility 3.4.
In that case, respondent was admonished for violating Rule 3.4 ("requesting a person
other than a client to refr.ain from voluntarily giving relevant infonnation") when, after
opposing counsel wrote a letter to several of respondent's witnesses asking for an
infonnal interview or a deposition, respondent wrote to the witnesses stating that it was
his client's request "that you not speak with [opposing counsel] or anyone from his office
in an infonnal interview. ,,36 Id. at 1.



36  We find that the facts in this Vermont case are not precisely analogous to this matter. While the attorney
in that case was intending to convey his preference that witnesses speak to opposing counsel via deposition
rather than informal interviews, the letter did not make that clear. Id. Attorney 1 however, did not request
Witness not to provide an interview or testim.ony, in writing or otherwise. The record establishes that Attorney
1                                                                                                        1
at most, orally stated her preference to Witness 1 counsel Aguilar that Witness
                                                                        1       not be made available to Mr.
Cuban's counsel but Attorney
                       1
                               also clearly stated that Aguilar could do what he wanted. See Exhibit 113.
Finally, the record establishes that Witness
                                      1      was made available to Mr. Cuban's counsel, even before the SEC
could take his testimony, unlike some of the witnesses in the Vermont case who testified they understood
the letter to be more directive than advisory and declined the interview. Id. & compare Exhibits 87 & 89. .

          Mr. Cuban's counsel also cited to two criminal cases in support of their position. In one of those
cases, the prosecutor told witnesses not to talk to anyone, including defense counsel, unless he was present,
which the court found to be effectively denying him counsel. Gregory v. United States, 369 F.2d 185 (D.C.
Cir. 1966). In the other case, United States v. Rich, 580 F.2d 929 (9th Cir. 1978), the court held that an FBI
agent's advice to witnesses that they need not confer with defense counsel did not demonstrate that the


                                                      87
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.



        Mr. Cuban's counsel further argued that even accepting Attorney 1 version of
events, that she simply advised Aguilar of her preference that the SEC speak to Witness 1
before Mr. Cuban's counsel, she did not "maintain a posture of strict neutrality." They
wrote:

                    The 'tamp down' call was particula                   because
                                                          Attorney 1
                    MCF [Merriman], whose personnel                     sought to
                    discourage from speaking, is a regulated entity and,
                    therefore, logically more susceptible to being influenced by
                    regulators. It is a blatant attempt to frustrate the
                    foundational principle of the professional rules of conduct
                    that counsel be free from interference of unfettered access
                    to fact witnesses.
                                                                      Attorney 1
                    It is entirely reasonable to surmise that            did not
                                                                      Witness 1
                    want Mr. Cuban or his counsel to hear what Mr.              had
                    to say because it did not comport with the Staff's
                    unsupported view of the facts of the case. 37
                                                                          Witness 1
Exhibit 3 at 7. But, as discussed below at Section II.F.,                             had given the Enforcement
staff supporting statements in his initial interview.

          In all, the OIG did not find evidence substantiating the claim that Attorney 1 made an
inappropriate "tamp-down" call in an attempt to keep witnesses from Mr. Cuban's
counsel. According to Attorney 1 and substantiated by Assistant Director 1
                                                                            Attorney 1
                                                                                       merely stated that
                                  Witness 1
Aguilar did not have to make                available for an interview with Mr. Cuban's counsel
and Attorney 1 noted that the "only preference I expressed was wanting the SEC to go first
with the testimony." Attorney 1 Tr. at 125 & 126; Assistant
                                                      Director 1     Tr. at 136. Even according to

government improperly influenced its witnesses because appellant conceded that the government witnesses
were not prohibited from discussing the case with defense counsel.

37   Mr. Cuban's counsel further asserted that Attorney
                                               1
                                                        threatened   Witness
                                                                     1
                                                                               by,

                    ... intimating that he may have violated federal securities laws for
                    telling the Staff something 'untrue' during a prior interview, in an
                    undisguised attempt to get Mr. Witness
                                                    1
                                                           to change his sworn testimony
                    and/or the statements contained in his declaration dated September 5,
                    2007.

Exhibit 3 at 7 n.5. The OIG found, however, that Witness 1
                                                                   did change his story from the time SEC staffhad
initially interviewed him to when he submitted his declaration to Mr. Cuban's counsel. Compare Exhibits
29 & 87. During the SEC testimony, when Witness    1
                                                          gave a different response from his December 2006
interview, Attorney
            1         reminded Witness
                               1         that he had been   informed in that initial interview that it would be a
violation of the federal securities laws for him to knowingly say something untrue. Exhibit 87. Thus, the
conversation between Attorney
                          1      and Witness
                                       1       could have been an attempt to determine why his story had
changed. Director 1 testified that it was frustrating that Witness
            Assistant
                                                              1       had" ... walked away from statements he had
made in his interview on some key points ...." AssistantDirector 1
                                                                   Tr. at 131.



                                                        88
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector Genera'. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

Aguilar's declaration, Attorney 1 merely "stated that she would prefer that I did not produce
Witness 1
          to Mr. Cuban's counsel for an interview but that I could do what I wanted."
Exhibit 113 at 2. Moreover, we do not find that Attorney 1 articulating her preference as to
the timing of presenting employees to defense counsel would violate standards of conduct
or State bar rules. 38                   .


         F.       The OIG Did Not Find Sufficient Evidence to Substantiate the
                  Allegation that the Enforcement Staff Engaged in Misconduct When
                  Questioning Witness 1

            Mr. Cuban alleged that the Enforcement staffhad " ... already made up its mind
about Mr. Cuban long before the staff conducted its interviews of key witnesses in the
fall of 2007." Exhibit 1 at 5. He claimed this was "readily apparent" in the testimony
Attorney 1
           took of Witness 1 in October 200.7. Specifically, his counsel wrote that" ... Attorney 1
Attorney 1
           scrupulously avoided asking Mr. Witness 1 about any ofthe foregoing critical facts,"
i.e., the differences between Enforcement's December 2006 interview of Witness 1 and
Dewey & LeBoeur s affidavit of Witness 1 Id. (emphasis added). Those differences that
should have been explored, according to Mr. Cuban's counsel, included that Witness 1 did
not ask Mr. Cuban to maintain the information concerning the PIPE confidential; that
Witness 1
           did not send Mr. Cuban a .non-disclosure agreement; and that Mr. Cuban did not
infonn Witness 1 that he would maintain any information he learned about the PIPE in
confidence. Id.

           Mr. Cuban further alleged that Attorney 1 only asked about the Merriman procedures
in place in 2007, not in the relevant time period of 2004 when the trade was made. Id.
His counsel asserted, "Attorney
                         1
                                Attorney 1
                                           apparent motive in nevertheless questioning Mr.
Witness 1
          about them was to manufacture extraneous and potentially misleading testimony
that would leave the reader of the transcript of Mr. Witness 1 interview in the dark as to the
true facts regarding Mr. Cuban's contact with Mr. Witness 1 Id. at 5-6.

         In reviewing the transcript from the October 17, 2007 testimony of Witness 1 the
OIG found that Attorney 1 did ask Witness 1 about the procedures in place in 2004, when he had
contact with Mr. Cuban about the Mamma.com PIPE offering. Specifically, Attorney 1 asked
Witness 1
          "I want to go through generically what the procedures were at the different time
periods starting when Mr. Witness 1 was first at Merriman and whether those changed during
the period." Exhibit 87 at 17. Witness 1 testified that he began at Merriman in May 2003.
Id. at 12. Later, Attorney 1 questioned Witness 1 specifically about this point, asking, "In June
2004 was your call to Mr. Cuban consistent with your standard practice of making
courtesy calls to notify large investors of impending PIPE transactions?" Id. at 58.


38 The DC Rules of Professional Conduct at Rule 3.4 (f) states an attorney "shall not request a person
other than a client to refrain from voluntarily giving relevant information to another party ...." As
discussed above, the OIG investigation revealed that Attorney
                                                        1     merely stated that Aguilar did not have to
make Witness
      1
             available for an interview with Cuban's counsel. The OIG also does not find Attorney
                                                                                             1
                                                                                                   violated
the SEC's Conduct Regulation which requires SEC staff members to "avoid any action which would result
or might create the appearance of ... losing complete independence or impartiality" or "affecting adversely
the confidence of the public in the integrity" of the SEC. 17 C.F.R. § 200.735-3(a)(2)(iii) & (v).


                                                     89
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

Moreover, the OIG review of the transcript found that many, ifnot most, Attorney 1
questions to Witness 1 were direct, and not leading.

           The Witness 1 transcript also showed that Attorney 1 focused on asking Witness 1 about his
telephone conversation with Mr. Cuban. Attorney 1 also asked Witness 1 many questions about
his declaration dated September 2007, including the circumstances in which he provided
it to Mr. Cuban's counsel. See ide at 34-68. Mr. Cuban alleged that Attorney 1 did not ask
Witness 1
          about the content of their declaration of Witness 1 which stated that he did not ask Mr.
Cuban to maintain the information concerning the PIPE confidential; that Witness 1 did not
send Mr. Cuban a non-disclosure agreement; and that Mr. Cuban did not inform Witness 1
that he would maintain any information he learned about the PIPE in confidence. ld.

           But the OIG found that Attorney 1 did ask Witness 1 several questions about whether he
informed Mr. Cuban the information he conveyed to him was confidential. For example,
Attorney 1
           asked Witness 1 about the procedures and protocol in place at Merriman when
soliciting potential investors in PIPEs, particularly regarding its confidentiality. See, e.g.,
ide at 16-21. Attorney 1 specifically asked Witness 1 "Did you preface the conversation with Mr.
Cuban by telling him you had confidential information to convey to him?" ld. at 44.
This question was directly related to the Witness 1 declaration stating, "At no time during the
June 28,2004 call did I inform Mr. Cuban that the information I conveyed to him was to
be held in confidence." Exhibit 89 at 5.

         Assistant
         Director 1     who was present with Attorney 1 during the October 2007 testimony of
Witness 1
           testified he thought "she did a perfectly fine job" although it is always frustrating
any time a witness walks away from statements he had made in his initial interview, like
Witness 1
          did. Assistant
                Director 1 Tr. at 131. He further testified that it was not a part of their case
whether Witness 1 followed the Merriman procedures in "bringing Cuban over the wall, so
I'm not surprised there's not a lot of discussion of that." ld. at 130. In addition, Assistant Director 1

testified he did not recall that she asked particularly leading questions of Witness 1 but
"there's nothing improper about doing that." ld. at 131. He added, "It didn't strike me
that the questioning was abusive either in tone or in substance." ld. In .fact, Assistant
                                                                                        Director 1

testified, that ifhe had felt that critical questions that had not been asked, he would have
asked them himself. ld. at 132.

        In all, the OIG did not find evidence that Attorney 1 attempted to manufacture
extraneous and potentially misleading testimony from Witness 1 Therefore, the OIG did not
find sufficient evidence to substantiate the allegations of misconduct by Attorney 1 in
questioning Witness 1

         G.           The OIG Did Not Find Sufficient Evidence to Substantiate the
                      Allegation that the Enforcement Staff Mischaracterized Evidence as
                      "Contemporaneous"

        Mr. Cuban alleged a mischaracterization of evidence in the October 2009 follow-
up letter to the OIG, when noting that Attorney 1 told Mr. Cuban's counsel in the initial Wells
call that the Enforcement staff had "contemporaneous supporting documentation" of the



                                                     90
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

relevant telephone call between Mr. Cuban and Faure. Exhibit 2 at 1. The expert report
submitted with that letter differentiated between the evidentiary admissibility of that
evidence and concluded that the Enforcement staff's representation of that evidence as
contemporaneous "painted an extremely false picture of the evidence that the SEC had"
which could have affected how Mr. Cuban's counsel responded to the SEC. Id. at 10.

        As discussed in Section I.E. 1., Attorney 1 admitted that during ~e Wells call,
Enforcement staff discussed that there was contemporaneous evidence that the telephone
call between Faure and Mr. Cuban happened. Attorney 1 Tr. at 74. Assistant
                                                                       Director 1 testified about his
recollection of this during the Wells call,

                          I think we did describe the documents as corroborating or
                          contemporaneous or both and I actually think it could have
                          been me who said it because I believe that they were
                          doubting the existence of the call and for us there was no
                          doubt that the call had happened. . .. I believe we probably
                          said they were contemporaneous and corroborating..
Assistant
        Tr. at 74-75. Assistant
Director 1            Director 1 explained that those documents were the e-mails that were
sent to Mamma.com board members originating from Witness 2 Witness 2      and one of which
was signed "Dave and Guy." Id. at 75.
             Attorney 1   Assistant
                         and Friestad all testified that they believe it was accurate to
                          Director 1
                      Witness 2
describe the             e-mails as contemporaneous. Attorney 1 explained that she believed
this was contemporaneous evidence of the call happening, "Because they were drafted at
or around the time of the call that Cuban had with Faure." Attorney 1 Tr. at 74-75. Assistant
                                                                                     Director 1

also testified that he believes this was and is an accurate description of the evidence,

                          Because they were written right about the same time,
                          within a couple of days of the time that Mr. Faur[e] spoke
                          to Mr. Cuban and they were corroborating because ... it
                          clearly wasn't the case that these were created a year after
                          the discussion or two years, they were done within a couple
                          of days and squarely addressed some of the issues that Mr.
                          Faur[e] had testified to.

Id. at 75-76. Friestad testified that whether Attorney 1 described the Witness 2
                                                                          e-mails as
contemporaneous, corroborating or both, he believes those are accurate descriptions.
Friestad Tr. at 126 & 128. He elaborated,

                          Contemporaneous in my mind means that the documents
                          were created back in 2004, or whenever the conduct
                          occurred, at a time when no one in their wildest dreams
                          imagined that that conduct was going to be investigated by
                          the SEC. So it was whether it was contemporaneous,
                          meaning within five minutes, or, you know, within the 24-



                                                       91
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction bas been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

                  hour cycle they were at or about the time of the events in
                  question that those documents were created. . .. They were
                  done in real time at the time.

Id. at 127.

        The DIG found that the Enforcement staff did describe the e-mail evidence as
contemporaneous, but did not find that this description was necessarily a
mischaracterization of the evidence. Contemporaneous is defined as "existing, occurring
or originating during the same time." See http://www.merriam-webster.comldictionary/
contemporaneous. The Witness 2     e-mails were sent hours and the next day after Faure
spoke to Mr. Cuban, which could be construed as originating roughly during the same
time as the telephone call to Mr. Cuban. 39                  .


          Mr. Cuban further alleged that Attorney 1 compounded the error of describing these e-
mails as contemporaneous evidence by attempting to create the impression that Mr.
Cuban also agreed with Witness 1 to keep the information he learned about the 2004 PIPE
confidential when she told Fish & Richardson that Witness 1 "followed up on Mr. Faure's
call [with Mr. Cuban] and spoke with [Mr. Cuban] about the terms of the PIPE deal."
Exhibit 2 at 2. According to Mr. Cuban's counsel, they assumed that Witness 1 must have
told the SEC the same information during the December 2006 interview that he supplied
to them·in September 2007, which resulted in the affidavit discussed in Section 1.1.3. --
i.e., that Witness 1 never once told Mr. Cuban that the information he gave him about the
PIPE transaction was confidential. Id. Moreover, Mr. Cuban's counsel alleged that this
information clearly tends to exonerate Mr. Cuban and that Attorney 1 "intentionally omitted
to mention any of this critical exculpatory information we would only learn frf!m Mr.
Witness 1
          many months later." Exhibit 2 at 3 (emphasis in original).

          The DIG did not find sufficient evidence to substantiate this allegation, however.
  In reviewing the Witness 1 December 2006 interview memorandum, it is clear that Witness 1
  provided different information to the SEC early in the investigation than he later provided
. to Mr. Cuban's counsel and even to the SEC in testimony in October 2007. Specifically,
  the interview memorandum prepared by Enforcement staff noted that Witness 1 told the staff
  he did not have a specific recollection of whether he followed his usual two-step
  confide~tiality warning protocol but "believes that, consistent with his usual process, he
  would have generically described Mamma.com and then subsequently provided
  Mamma.com's name." Exhibit 29 at 2. Witness 1 described to the Enforcement staff,
  according to the memorandum, his usual two-step process: 1) he first explained he had
  confidential information about an issuer interested in doing a PIPE and generically
  described the issuer, and if the potential investor expressed an interest, 2) he provided its
  name. Id. In addition, Witness 1 told Attorney 1 and Attorney 3 he also tells potential investors



39 We also note that The Honorable Judge Higginbotham of the United States Court of Appeals for the
Fifth Circuit, in the oral argument held in August 2010 in this matter, himself described the Witness 2
e-mails as the "CEO's contemporaneous e-mail." See http://www.ca5.uscourts.gov/
OralArgumentRecordings.aspx.


                                                      92
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

that the SEC may consider the information about the private placement to be material,
non-public information. Id. .Therefore, the allegation is not substantiated.

          H.        The OIG Did Not Find Sufficient Evidence to Substantiate the
                    Allegations of Misconduct by the Enforcement Staff in Unrelated
                    Cases

         Mr. Cuban also claimed that Friestad, Attorney 1 Assistant
                                                          Director 1 and Attorney 3 have "been
found by federal courts to have overreached in similar cases involving claims of insider
trading in shares of companies offering PIPEs." Exhibit 1 at 6. Specifically, his counsel
argued that courts have rejected the SEC's attempts to assert insider trading claims under
Section 5 of the Securities Act of 1933. Id. In addition, Mr. Cuban's counsel asserted
that in the case SEC v. Mangan, the Enforcement staff was misleading. Id. In yet
another matter, according to Mr. Cuban's counsel, the court in SEC v. Lyon found that the
Enforcement staff's position had no support in the text or purpose of Section 5 and
"chided staff for the 'inherent logical implausibility' of its core argument." Id. They
claimed that Friestad and Attorney 1 were involved in that case. Id.

         The OIO found, however, that these claims were not substantiated. The OIO
 found, for example, the Mangan case was litigated by the Philadelphia office and no one
 on the Enforcement staff investigating Mr. Cuban was involved in that matter. In
 addition, while these cases involved Section 5 allegations and some courts have rejected
 the SEC's Section 5 arguments, Enforcement did not bring Section 5 claims against Mr.
 Cuban. See Exhibit 4. Moreover, the allegation that the Enforcement staff was
 misleading in the Lyon case was not substantiated. As outlined below, the judge in the
 Lyon case initially wrote that a reference to an SEC release by Enforcement staff was
.misleading. But the court issued an amended opinion after the Enforcement staff noted
 that the court was looking at the wrong section of the release.

           According to Friestad, the Mangan case was brought by the Philadelphia Regional
Office. Friestad Tr. at 210. He testified, "So I never had any role, and neither did Mr.
Assistant
Director 1  with that case ...." Id. at 210-211. Assistant
                                                 Director 1 testified that the Mangan case was
"not even one of Scott's [Friestad's] cases." Director 1 Tr. at 126. Assistant
                                                 Assistant
                                                                        Director 1 explained that
the judge in Mangan got extremely frustrated with trial counsel from the Philadelphia
office and that there was a rebuke of the SEC in that case. 40 Id.               .




40                     Director 1 about a November 24,2008 EconomicPolicyJournal.com article entitled, '~The
    The OIG asked Assistant
Coming Bizarre Show Trial of Mark Cuban," about the SEC's case against Mr. Cuban, in which Assistant           Director 1
was reported to be "recently under Congressional investigation for possible misconduct." Exhibit 118.
That article also stated, "Another SEC attorney involved with the case, Scott Friestad, recently lost a case
in North Carolina and the judge found it appropriate to rebuke Friestad's tactics during the trial." Id.
Assistant
Director 1 testified that he has never been under investigation by Congress for misconduct or anything else, to
his knowledge, and that he does not even know what this article could possibly be referring to. Assistant     Director 1 Tr.
at 124-125. In addition, Assistant
                                 Director 1
                                            testified that the allegation against Friestad was incorrect because  it
referenced a case brought by the SEC's Philadelphia office and that Friestad was not assigned to that case.
Id. at 126.


                                                            93
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

            According to Attorney 1 in November 2008 when the Cuban case was filed the
Commission had brought about a half dozen other similar PIPEs cases. Attorney 1 Tr. at 149-
150. She testified that several of them settled, including the Gryphon case, which settled
after the SEC got a positive opinion on the insider trading portion of the case. Id. at 150.
Attorney 1
           told the OIG that the Section 5 claims made in the Gryphon and Berlacher cases
were dismissed, but that there were no Section 5 allegations in the Cuban matter. Id. at
150-153. Attorney 1 explained that in the Gryphon case, also known as SECv. Lyon, the
court made a couple of mistakes in its opinion dismissing the Section 5 claims,
specifically, that the SEC mislead the court in its citing of a Corporation Finance Release.
Id. at 151. Attorney 1 testified that the SEC went back to the court to explain that the court
was looking at the wrong section of the release. Id. at 151-152. The court issued a
corrected opinion. Id. at 152 & Exhibit 116.

             After Assistant
                   Director 1 testified before the OIG, he sent a testimony clarification about
Attorney 1
              participation in the SEC v. Lyon case. Exhibit 117. Assistant
                                                                        Director 1 explained,

                    In my Assistant Director group, we brought a total of eight
                    cases out of the investigation entitled In the Matter of
                    Gryphon Partners·(HO-09867). Those cases were worked
                    out of 3Attorney Attorney
                                     3        3
                                                               nd staffed by Attorney
                                                                             1
                                                                                      1Attorney 1

                         Attorney 5      Attorney 5 Attorney 1
                    and                                        served as lead investigative
                    attorney on six cases (SEC v. Langley Partners, L.P. et al.;
                    In the Matter o/Spinner Asset Management et al.; SEC v.
                    Joseph Spiegal; SEC v. Berlacher, et al.; SEC v. TCMP3
                    Partners, L.O. et al.; and SEC v. Ladin). Attorney 5              Attorney
                                                                                      5

                    served as lead investigative attorney on two cases (SEC v.
                    Lyon, et al., and In the Matter ofRam Capital Resources,
                    LLC, et al.).

                    Since my testimony, however, I have d                    by means
                                            Attorney 1        Attorney 1
                    other than speaking to               that                 did serve
                    a secondary role in the             n an                 of the
                    Lyon case (with Messrs. Kidney and Attorney
                                                           5          serving the
                    primary roles). While I do not know the extent to which
                    she participated in the briefing identified during my
                    testimony, I do believe that she participated in the matter


Id. Attorney 3  told the OIG that he remembered that Chris Clarke and other members of
Ralph Ferrara's team at Dewey & LeBoeuf defended the Gryphon case, which eventually
settled to a fraud charge. Exhibit 17 at 5. According to Attorney 3             Enforcement had
good relations with defense counsel and was not aware of any allegations of Enforcement
staff wrongdoing. Id. In addition, Attorney 3        said that Attorney 5 Attorney
                                                                          5        was the staff
                                          Attorney 1
attorney on the Gryphon case, but that               may have helped out. Id.




                                                        94
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's approval.

       On August 12,2009, the Commission issued a Litigation Release entitled, "Edwin
B. Lyon, IV and the Affiliated Gryphon Funds Ordered to Pay $778,016 to Settle PIPE-
Related Securities Fraud Charges." Exhibit 119. That release stated that Lyon and each
Gryphon Partners entity consented to the entry of a final judgment pennanently enjoining
them from future violations of Sections 17(a) and 10(b), but that the Section 5 claims had
been dismissed by the COurt. 41 Id. Therefore, the OIG did not find sufficient evidence to
substantiate the allegation that the Enforcement staff engaged in misconduct in these
other unrelated cases.

                                                Conclusion

         In all, the OIG concluded that there was insufficient evidence to substantiate Mr.
Cuban's claims that the SEC Enforcement staff engaged in misconduct in conducting
their investigation into Mr. Cuban's sale of his Mamma.com stock shares. Specifically,
the OIG investigation found that there was insufficient evidence to substantiate the claim
that Enforcement improperly provided Mr. Cuban with a "Wells" notice before the
inyestigation was substantially complete. The OIG investigation also did not find
sufficient evidence to substantiate Mr. Cuban's claim that an earlier investigation into
Mamma.com was closed as a quid pro quo for the investigation relating to Mr. Cuban.

        The OIG investigation further found that although Norris, a fonner FWRO trial
attorney, engaged in inappropriate e-mailing of Mr. Cuban from his SEC computer in
March and May 2007, we did riot find that Norris was involved in any way in the
investigation into Mr. Cuban's sale of Mamma. com shares, and there is no evidence that
Mr. Norris had any knowledge of the ongoing investigation into Mr. Cuban's sale of his
shares when he was e-mailing Mr. Cuban.

        The OIG investigation also did not find sufficient evidence to establish that the
investigation into Mr. Cuban's sale of Mamma. com shares was motivated by politics or
other improper motives or that Mr. Cuban was targeted by the Enforcement staff because
he is high-profile. In addition, the OIG investigation also did not find sufficient evidence
to substantiate the allegation that the Enforcement staff had a preconceived notion or bias
of Mr. Cuban's guilt. Although the investigation did establish that during the Wells
meeting Attorney 2   made the comment, "Mr. Cuban takes irrational and silly risks every

41 In an August 11, 2009 e-mail from a Deputy Director in the Division of Corporation Finance
("CorpFin") to Director of Enforcement Robert Khuzami entitled, "Your team on Gryphon," the Deputy
Director wrote to tell him "what a great job your investigative team in Enforcement did on the Gryphon
case ...." Exhibit 120. The Deputy Director added, in part,

                  In particular Attorney 5 5   and 1AttorneyAttorney
                                                            1
                                                             1       really were great. They
                  worked on a number of complicated PIPEs cases. . .. They
                  appreciated the critical importance to Corp Fin of Section 5 cases and
                  were willing to pursue them because they are mission critical to my
                  Division even though they are not viewed as exciting cases. Even
                  though the judges didn't rule in our favor on those points, I think the
                  Commission (and certainly the Division) are better off for the work
                  your investigative team did.
Id.


                                                      95
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. Recipients of
this report should not disseminate or copy it without the Inspector General's ap_proval.

day" or words to that effect, and that Attorney 2 could have been more temperate in his
language, this comment and Thomsen's comment; "That's just noise," or words to that
effect, in response to Mr. Cuban's counsel's arguments about Faure's credibility,
standing alone, do not establish a preconceived bias against Mr. Cuban, partiCUlarly since
they were made in the moment of responding to Mr. Cuban's counsel's arguments. We
also did not find evidence to establish that Friestad sending photographs to Thomsen and
another senior SEC Enforcement official without commentary demonstrated evidence of
a bias against Mr. Cuban that could have tainted the investigation.

        Furthennore, the OIG investigation did not find sufficient evidence to establish
     Attorney 1
that        or anyone on the Enforceme~t staff had engaged in a "tamp down" of a
witness, in an e~ort to keep witnesses from Mr. Cuban's counsel. 'Ole OIG also did not
find sufficient evidence to show that SEC Enforcement staff engaged in nll;sconduct when
questioning Witness 1 in testimony in October 2007. In addition, the OIG found "that there
was insufficient evidence to. support the allegation that membel'S of the Enforcement staff
inv~tigating Mr. Cuban had.engaged in misconduct in other cases.


        While the OIG did not find sufficient evidence to substantiate any allegations of
misconduct, we are referring this matter to the Director of Enforcement, the Deputy Chief
of Staff, Office of the Chainnan, Commissioner Elisse Walter, Commissioner Luis
Aguilar; Commissioner Troy Paredes, the General Counsel, and the Acting Associate
Executive Director for Human Resources for consideration of appropriate counseling for
Friestad for his failing to promptly report Norris's misconduct, and for consideration of
appropriate counseling for Attorney 2  for his comment about Mr. Cuban taking irrational
and silly risks every day in the July 19,2007 Wells meeting.
                  OIG Attorney 1




Submitted:                                                       Date:

                  OIG Attorney 2

Concur:                                                          Date:


Approved:                                                       Date:




                                                     96
